<html>
<title> - NARRAGANSETT INDIAN TRIBE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                       NARRAGANSETT INDIAN TRIBE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

The Provisions in the 1997 Omnibus Appropriations Act Which Removed The 
  Narragansett Indian Tribe of Rhode Island From the Coverage of The 
                      Indian Gaming Regulatory Act

                               __________

                      MAY 1, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-25

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 41-432                      WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 1, 1997.........................................     1

Statement of Members:
    Chafee, Hon. John H., a U.S. Senator from Rhode Island.......    11
        Prepared statement of....................................    13
    Inouye, Hon. David K., a Senator in Congress from the State 
      of Hawaii, (prepared statement)............................    68
    Kennedy, Hon. Patrick, a U.S. Representative from Rhode 
      Island.....................................................     2
        Prepared statement of....................................     5
    Kildee, Hon. Dale, a U.S. Representative from Michigan.......     9
    Miller, Hon. George, a U.S. Representative from California...    10
    Pombo, Hon. Richard, a U.S. Representative from California...     1
    Reed, Hon. Jack, a U.S. Senator from Rhode Island............    15
    Vento, Hon. Bruce, a U.S. Representative from Minnesota......     8
    Weygand, Hon. Robert A., a U.S. Representative from Rhode 
      Island.....................................................    17
        Prepared statement of....................................    18

Statement of Witnesses:
    Allen, W. Ron., President, National Congress of American 
      Indians....................................................    62
        Prepared statement.......................................   136
    Almeida, Patricia, Spokesperson, The Alliance To Save South 
      County.....................................................    60
    Almond, Hon. Lincoln, Governor, State of Rhode Island........    33
        Prepared statement.......................................    80
    Boden, Gary, on behalf of Residents Against Gambling 
      Establishments (prepared statement)........................   157
    Ducheneaux, Frank, Attorney at Law...........................    64
        Prepared statement.......................................   144
    Hayes, David, Counselor, Secretary of the Interior...........    42
        Prepared statement.......................................    92
    Lally, Hon. Donald L., Jr., a State Representative in Rhode 
      Island.....................................................    58
        Prepared statement.......................................   109
    Noka, Randy, First Councilman, Narragansett Indian Tribe.....    43
        Prepared statement.......................................    95
    Platner, Ruth, citizen of Charlestown (prepared statement)...   167
    Roche, Ann, resident of Charlestown (prepared statement).....   171

Additional material supplied:
    Excerpt from S.Rept. 100-446.................................    76
    H. 5543 of State of Rhode Island General Assembly............   114
    H. 6023 as amended, Rhode Island General Assembly............   117
    Joint Memorandum of Understanding Concerning Settlement of 
      the Rhode Island Indian Land Claims........................   151
    Legal Analysis of High Stakes Bingo on Lands of the 
      Narragansett Indian Tribe..................................   119
    Resolutions of National Congress of American Indians in 
      support for tribal sovereignty and oppose riders which 
      negatively impact tribes...................................   140
    List of names of persons and tribes who wrote letters........   134
    Map of the Indian Reservation................................   159
    Rhode Island Indian Claims Status............................   130
    Rhode Island Coalition Against Casino Gambling (list)........   155

Communications submitted:
    Babbitt, Bruce: Letter of September 12, 1996, to Hon John H. 
      Chafee.....................................................    78
    Goodsell, Bruce N.: Letter of April 28, 1997, to Hon. Don 
      Young......................................................   149
    Joint letter from members of Rhode Island General Asembly 
      dated April 22, 1997, to Hon. Don Young and Hon. George 
      Miller.....................................................   112
    Lytle, Karen (Town of Charlestown): Letter of April 28, 1997, 
      to Hon. Don Young..........................................   147



                       NARRAGANSETT INDIAN TRIBE

                              ----------                              


                         THURSDAY, MAY 1, 1997,

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m., in 
room 1324, Longworth House Office Building, Hon. Don Young 
(Chairman of the Committee) presiding.

 STATEMENT OF HON. RICHARD POMBO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Pombo. [presiding] I want to start off by apologizing 
to everybody for not having enough room in the hearing room for 
everyone. Obviously, this is a small hearing room. We tried to 
fit as many people in as we possibly could. To start the 
hearing this morning. I welcome you all here.
    I will start off by reading Chairman Wayne Gilchrest's 
opening statement: ``Good morning, ladies and gentlemen. Today 
we are conducting an oversight hearing concerning the 
applicability of the Indian Gaming Regulatory Act to the 
Narragansett Indian Tribe of Rhode Island.
    ``A long and complicated series of events has led us to 
this hearing. I do not pretend to understand all of the legal 
intricacies of all of the laws which are applicable to the 
Narragansett Tribe and its desire to conduct gaming.
    ``However, I do understand that in 1978 the Narragansett 
Tribe acquired its lands pursuant to Public Law 95-395, which 
provided that those lands would be subject to the laws and the 
jurisdiction of the State of Rhode Island. I understand that in 
1988 Congress passed a law which gave all Indian tribes the 
right to conduct gaming on their trust lands.
    ``In 1994 a U.S. Court of Appeals ruled that the 1988 law 
took precedence over the 1978 law as far as gaming conducted by 
the Narragansett Indian Tribe is concerned. Then, in 1996, 
Congress passed another law which amends the 1978 law so that 
the 1988 law, the Indian Gaming Regulatory Act, does not apply 
to the Narragansett Indian Tribe.
    ``We are here today because, in spite of all this 
legislating, Congress has never held a hearing of the issue of 
the Narragansett Tribe's rights to conduct gaming. This is a 
very important issue to the Narragansett Tribe, the State of 
Rhode Island, and the rest of the tribes throughout the nation. 
I note that we have received letters on this issue from well 
over one hundred Indian tribes.
    ``It is time to hear what the various interested parties 
have to say. Our witness list includes the Rhode Island 
congressional delegation, the Governor of Rhode Island, the 
Administration, the tribe, and several other individuals who 
bring different perspectives to this hearing.
    ``At this time I am hereby announcing that I will keep our 
hearing record open until the close of business on Friday, May 
16th. Anybody wishing to submit written testimony may do so 
until that time. I would now like to recognize the gentleman on 
my left from Rhode Island for his opening statement.''

STATEMENT OF HON. PATRICK KENNEDY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF RHODE ISLAND

    Mr. Kennedy. Thank you, colleague Richard Pombo, also co-
chair of the Portuguese-American caucus. I would also like to 
acknowledge Governor Romero-Barcelo from Puerto Rico and 
Congressman Dale Kildee and the co-chair of the Native American 
caucus in the Congress of the United States.
    Most of all, I would like to welcome my colleagues from the 
Rhode Island delegation to this Committee and to this hearing 
in addition to my former colleagues in the State legislature 
and my friends in the Narragansett Tribe.
    Almost 400 years ago the Narragansett Tribe lived in peace. 
Before the European settlement of southern New England the 
tribal government was the sovereign authority over their people 
and their general welfare. They educated their children, cared 
for their sick, and fished in the bay that now bears their 
name.
    In 1675 their way of living would come to an end with an 
event known as the King Philip's War. The European colonists, 
who had long coveted the lands of the Narragansetts, expanded a 
feud they had with another tribe and attacked the 
Narragansetts. The result for the colonists was a clear 
victory. The result for the tribe was they lost most of their 
land, many members were killed, and still more were sold into 
slavery in the Caribbean.
    In the 1800's while many of the tribes were being relocated 
west, the Narragansetts successfully petitioned to remain on 
their designated tribal territory that included the town of 
Charlestown. By the end of the century, however, the State had 
enough of the Narragansetts and summarily abolished the tribe 
and sold off the remnants of the land to non-Indians.
    That is how the State of Rhode Island took possession of 
the land owned and governed by the Narragansett Tribe. I share 
this bit of history because it is essential that when we 
discuss the sovereign rights of the Narragansetts we understand 
that for over 100 years these rights were denied without the 
tribe's consultation or consent.
    In 1975 the Narragansetts filed a land claim seeking 
restoration of their aboriginal lands in and around 
Charlestown. The State and Federal Government consented to the 
proposal and codified this agreement in the 1978 Rhode Island 
Indian Claim Settlement Act.
    At this time the tribe consented to live by the laws of the 
State because they lacked Federal recognition and status. In 
1983, however, this would all change when the Narragansetts had 
their sovereignty authority reaffirmed by the Federal 
Government. It was at that time that the tribe would begin the 
process of reclaiming their rights to govern and provide for 
the welfare of their tribal population.
    The tribal government was given the authority to codify 
law, exercise regulatory power, and levy taxes on their 
settlement land. Let me be clear: It is this federally 
recognized sovereign authority that makes the tribe more than 
just a corporation or a social club. Their lands are no longer 
owned by the State but rather are held in trust by the Federal 
Government.
    That means that the Congress has the responsibility to 
treat the tribe and its elected officials on a government to 
government basis just as we treat States and municipal 
authorities. Unfortunately, by the time the tribe regained its 
sovereign status decades of discrimination had taken their 
toll.
    Today with an unemployment rank of almost 40 percent, poor 
health care, and the lowest standard of living than any other 
group in Rhode Island the tribe is desperately trying to 
recover a sense of community and an opportunity for its 
members. Before this panel addresses today's agenda the gaming 
rights of the Narragansett Indians, we must also consider their 
special relationship with the United States and their rights as 
what Supreme Court Justice John Marshall called a domestic 
dependent nation.
    We must understand that the sovereign rights are all that 
is left of what the tribe had prior to the European settlement. 
These rights were reaffirmed in 1983 by an official 
proclamation of the U.S. Government. This action took place 
after the 1978 settlement agreement and from that point on 
permanently changed the relationship between the tribe and the 
State and the tribe and Federal Government.
    To remove those rights now would be to abrogate the 
sovereign standing of the tribe as in a similar fashion that 
the State did in the Act of 1880. Yet that is exactly what has 
happened with regard to the Narragansetts right to game under 
the Indian Gaming Regulatory Act when Senator Chafee passed his 
rider last year.
    In 1987 the Supreme Court ruled in the Cabazon decision 
that tribes retain the exclusive right to regulate gaming on 
Indian lands unless the State prohibits that type of gaming. 
Deferring to the concerns of the State Congress passed the 
Indian Gaming Regulatory Act, IGRA, in 1988 to codify U.S. law 
regarding the sovereign right of tribes to engage in gaming on 
their lands.
    Again, the Supreme Court said the tribes could have the 
gaming rights. Congress and the States in a panic said, listen, 
we got to do something about this so they passed IGRA to help 
the States regulate what the Supreme Court had said those 
tribes had a right to do. Before Senator Chafee acted last year 
the Federal courts had conclusively asserted in two separate 
decisions that the Narragansetts had a right to game under 
IGRA.
    The court argued that it was the Narragansetts' sovereign 
and civil rights as a federally recognized tribe and that this 
superseded any agreements that the 1978 Settlement Act 
established. This does not mean, however, that the tribe could 
do whatever it wanted because like I said IGRA was a means by 
which the States had a say with the Federal Government to slow 
down Native American rights to game on their tribal lands.
    So there were provisions put within IGRA that helped check 
the expansion in gaming per the State's requests and the 
Narragansetts would be under those regulations as they fall 
under IGRA, the Federal law. Let me be perfectly clear. 
According to the law, the Narragansetts despite any rhetoric 
you hear cannot open a casino without a compact with the State 
and a voter referendum by the citizens.
    This was true before Senator Chafee acted with his rider. 
IGRA says that unless the tribe obtains consent from the State 
through a compact it may not operate video slot machines, 
simulcast racing or video poker as the State already does. 
Incidentally, the State has allowed for and is considering the 
expansion of video lottery machines at Lincoln Park and Newport 
Jai Alai to include more than 1,000 new machines without voter 
approval.
    To me this is a double standard and it highlights the 
hypocrisy of this rider. Let me say in no way can the citizens 
of Rhode Island be in danger of a Las Vegas style casino before 
Senator Chafee acted unless the Governor compacted and the 
State of Rhode Island voted. Now if you have any question about 
this we already have an example of this and the State turned 
down by a 3 to 1 margin nearly Narragansetts Tribe's attempt to 
ratify a compact with the State.
    So we have already seen where the voters of the State had a 
say with respect to a casino in Rhode Island. The only thing 
that the Narragansetts could do legally before the Chafee Rider 
is operate a bingo hall because under Federal law bingo is not 
considered the same class as any form of video or Las Vegas 
style gaming.
    Yet for reasons unknown they are being held to a higher 
standard, Narragansetts are being held to a higher standard 
than the State of Rhode Island because now they are precluded 
from even doing that. Further, the Narragansetts are required 
under the law to spend the revenues from any gaming servicing 
the general welfare to their tribal members.
    In other words, they have to spend the money for the 
benefit of their tribal members and God knows their tribal 
members need those resources when you consider the fact there 
is 40 percent unemployment and a deprived situation and 
depressed economic circumstances that tribe has been living 
under for so many years.
    This is quite a different situation from the State 
sanctioned gaming operations that, despite a payback to the 
State, and by the way paid back to the State $90 million 
roughly and I think the overall revenues from the gaming is 
roughly half a billion dollars and they kick back $90 million 
to the State. We wonder where that money is going.
    But for the tribe the bulk of their money has to go back to 
provide for their people. Let me say that I want to impress 
upon my colleagues who support, and I might add I am the only 
member of my delegation to carry this position so I respect my 
colleagues' position on this. I think that they are clearly 
obeying the wishes of the people of Rhode Island expressed in 
the referendum.
    My colleagues are clearly respecting the wishes of their 
constituents as expressed in the referenda that we saw in the 
compact with the Narragansetts. But let me make the point very 
clear here. Despite the fact that the people with Rhode Island 
disagree with gam-

ing as I do as I voted against gaming as a State representative 
and a voter of the State, that does not entitle us to summarily 
abolish the civil and sovereign rights of the Narragansetts 
with respect to their rights to game.
    I liken this to freedom of speech, you know, we do not like 
many acts of free speech but does that mean we eliminate the 
right to free speech? And under the rider, Chafee Rider, the 
Congress last year in order to curry interest with the people 
of Rhode Island who by and large are against Las Vegas style 
casino because they voted that almost 3 to 1, despite their 
being in disagreement with it there is a process by which we 
have to follow here and that is a process that is going to 
establish by the Supreme Court, is going to establish by 
Federal law, and that says that despite the fact that we 
disagree with gaming we do not have a right to take away their 
rights to game, and that is the fundamental argument today in 
my opinion.
    So we look forward to having testimony by my colleagues in 
the Rhode Island Federal delegation, members of the General 
Assembly, and the tribe itself on these matters. And before I 
conclude I would like to submit into the record testimony by, 
let us see, Senator John McCain, former Chairman of the 
Committee on Indian Affairs, Senator Daniel Inouye, vice 
Chairman of the same Committee, Secretary of Interior, Bruce 
Babbitt, and as well I would like to submit the decisions by 
the U.S. District Court and First Court of Appeals regarding 
upholding the Narragansetts' rights as well as various letters 
from tribal governments around our nation. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Kennedy follows:]

  Opening Statement of Hon. Patrick J. Kennedy, a U.S. Representative 
                           from Rhode Island

    Almost four hundred years ago, the Narragansett Tribe lived 
in peace. Before the European Settlement of southern New 
England, the tribal government was the sovereign authority over 
their people and their general welfare. They educated their 
children, cared for their sick, and fished in the Bay that now 
bears their name.
    In 1675, their way of living would all end with the event 
known as King Philip's War. The European colonists, who had 
long coveted the lands of the Narragansetts, expanded a feud 
they had with another tribe and attacked the Narragansetts. The 
result for the colonists was a clear victory. The result for 
the Tribe was that they lost most of their land, many members 
were killed, and still more were sold into slavery in the 
Caribbean.
    In the 1800's, while many other tribes were being 
``relocated'' West, the Narragansetts successfully petitioned 
to remain on their designated Tribal territory that included 
the town of Charlestown. By the end of the century however, the 
State had enough of the Narragansetts and summarily abolished 
the Tribe and sold off the remnants of the land to non-Indians.
    That is how the State of Rhode Island took possession of 
the land owned and governed by the Narragansett Tribe. I share 
this bit of history today because it is essential that when we 
discuss the sovereign rights of the Narragansetts, we 
understand that for over 100 years these rights were denied 
without the Tribe's consultation or consent.
    In 1975, the Narragansetts filed a land claim seeking 
restoration of their aboriginal lands in and around 
Charlestown. The State and Federal Government consented to the 
proposal and codified the agreement in the 1978 Rhode Island 
Indian Claims Settlement Act. At this time, the Tribe consented 
to live by the laws of the State because they lacked Federal 
recognition and status.
    In 1983, however, that would all change when the 
Narragansetts had their sovereign authority reaffirmed by the 
Federal Government. It was at this time that the Tribe would 
begin the process of reclaiming their rights to govern and 
provide for the welfare of the Tribal population. The Tribal 
government was given the authority to codify law, exercise 
regulatory power, and levy taxes on their settlement land.
    Let me be clear, it is this federally recognized sovereign 
authority that makes the Tribe more than a corporation or a 
social club. Their lands are no longer owned by the State but 
are held in trust by the Federal Government. That means that 
Congress has the responsibility to treat the Tribe and its 
elected officials on a government-to-government basis just as 
we treat States and municipal authorities.
    Unfortunately, by the time the Tribe regained its sovereign 
status, decades of discrimination had taken its toll. Today, 
with an unemployment rate of almost 40 percent, poor health 
care, and a lower standard of living than any other group in 
Rhode Island, the Tribe is desperately trying to recover a 
sense of community and opportunity for its members.
    Before this panel addresses today's agenda--the gaming 
rights of the Narragansett Indians--we must consider their 
special relationship with the United States and their rights as 
what Supreme Court Justice John Marshall called a ``domestic 
dependent nation.''
    We must understand that sovereign rights are all that is 
left of what the Tribe had prior to the European settlement. 
These rights were reaffirmed in 1983 by an official 
proclamation of the U.S. Government. This action took place 
after the 1978 settlement agreement and from that point on, 
permanently changed the relationship between the Tribe, the 
State, and the Federal Government.
    To remove those rights now would be to abrogate the 
sovereign standing of the Tribe in a similar fashion to the 
State's act of elimination in 1880. Yet, that is exactly what 
has happened with regard to the Narragansetts' right to game 
under the Indian Gaming Regulatory Act when Senator Chafee 
passed his rider last year.
    In 1987, the Supreme Court ruled in the Cabazon Decision 
that tribes retain the exclusive right to regulate gaming on 
Indian lands unless a state criminally prohibits that type of 
gaming. Deferring to the concerns of States, Congress passed 
the Indian Gaming Regulatory Act (IGRA) in 1988 to codify U.S. 
law regarding the sovereign right of Tribes to engage in gaming 
on their lands. The legislation was enacted on a bi-partisan 
basis to balance the rights of tribes and interests of states 
and local communities.
    Before Senator Chafee acted last year, the Federal courts 
had conclusively asserted in two separate decisions that the 
Narragansetts had a right to game under the IGRA. The Courts 
argued that it was the Narragansetts' sovereign and civil right 
as a federally recognized tribe and this superseded any 
agreements that the 1978 Settlement Act established. This does 
not mean, however, that the Tribe could do whatever it wanted. 
The Narragansetts were still subject to the guidelines of IGRA 
and all other Federal laws which were passed by Congress.
    Let me be perfectly clear... According to the law, the 
Narragansetts, despite any rhetoric, cannot open a CASINO 
without a compact with the State and a voter referendum by the 
citizens. This was true BEFORE Senator Chafee acted with his 
rider.
    IGRA says that unless the Tribe obtains consent from the 
State through a compact, it may not operate video slot 
machines, simulcast racing, or video poker as the state already 
operates. Incidentally, the State has allowed for and is 
considering the expansion of video lottery machines at Lincoln 
Park and Newport Jai Alai to include more than one thousand new 
machines without voter approval. To me this is base hypocrisy.
    Let me say again, in no way were the citizens of Rhode 
Island in danger of a Las Vegas style casino before Senator 
Chafee acted unless they approved it with their vote. To say 
otherwise is a complete falsehood and an attempt at deceiving 
public opinion about what the Tribe is legally able to do.
    The only thing that the Narragansetts could legally do 
before the Chafee rider is operate a bingo hall, because under 
Federal law, bingo is not considered in the same class as any 
form of video or Las Vegas style gaming. Yet for reasons 
unknown, they are being held to a higher standard than the 
State of Rhode Island is held to. At every turn the Tribe has 
complied with every law and regulation that applies to it. 
Everything from Federal environmental statutes to building code 
specifications, the Tribe has followed the law.
    Further, the Narragansetts are required under the law to 
spend the revenues from any gaming servicing for the general 
welfare of the Tribal members. That means education, health 
care housing, and other public initiatives. This of course is 
quite different from the State sanctioned gaming operations 
that, despite a pay-back to the state, are for-profit in 
nature.
    Let me say that I want to impress upon Senator Chafee my 
utmost respect for him and all that he has done, and continues 
to do, on behalf of the citizens of Rhode Island. Although I 
concur with the Senator on many issues, I cannot agree with him 
or any of his supporters, whether they are Republican or 
Democrat, on this specific issue.
    In my view, his rider, which was the result of a last-
minute political deal and which came without any hearings or 
consent from the Tribe in the last session of Congress,

    <bullet>was unjust,

    <bullet>in violation of the Equal Protection Clause of the 
Constitution as it singles out one Tribe from every other,

    <bullet>and is discriminatory as it nullifies the civil 
rights of an entire people in the name of political expediency.
    Clearly, the political play here is to come to this 
Committee, state that you oppose all kinds of gaming and that 
the Narragansetts are trying to circumvent the law because they 
say they are special. As I have indicated, the Tribe is only 
looking to follow the law. This type of gamesmanship is wrong 
and serves only to deny the Tribe its rights and opportunities 
under the Constitution, which were affirmed by our Federal 
judicial system.
    I would like to ask everyone to consider what effect the 
Chafee rider has on not only the Narragansett Tribe but all 
citizens, Native American or otherwise. On September 30, 1996, 
the governing authority and Constitutional rights of the Tribe 
were removed because of a perceived popular opinion in the 
State of Rhode Island. Further, this action was taken without 
the due process or due respect owed to the Tribe.
    Imagine...a civil rights law without a hearing or official 
comment by the Tribe. Truly, if it can happen to one Tribe or 
group, it can happen to anyone. I find this action 
unconscionable with regard to a people's civil rights. I will 
not agree to it because it is wrong and I will never support it 
for political gain.
    I have told the Narragansetts that I am against casino 
gaming in Rhode Island. Further, I am opposed to the expansion 
of gaming that already exists in Rhode Island. To that end, I 
have written to the leaders of the state legislature, urging 
them to reject any initiative to expand upon the existing or 
proposed gaming infrastructure in the State. In my opinion, 
Rhode Islanders can be against gaming and be for the civil 
rights of the Tribe. Just as I would defend a person's right to 
argue an issue that I wholly oppose, I now defend the Tribe's 
Constitutional right to a bingo hall that I would rather not 
see built.
    Although I would be the first citizen of Rhode Island to 
vote against a Casino, it is not my right or privilege to 
legislate on the civil rights of a Tribe because it is popular 
to do so. If other civil or Constitutional rights were subject 
to the same capriciousness, there would be no way of protecting 
the weak or less fortunate from the strong or politically 
connected. This issue is about sovereignty and the law, not 
gaming.
    The tribes in this nation have been subject to years of 
unconscionable discrimination because it was easy to do so. 
Popular opinion in other states, at other times, have created a 
painful history for Native Americans which has caused Indian 
Country to now rank first in poverty and last in education and 
health care. Is Rhode Island prepared to go down that same 
road?
    For my part, I do not have that luxury as a member of this 
Committee to take Indian issues lightly. Oftentimes we are 
Native Americans' last hope when it comes to protecting their 
rights. Clearly, if it was my goal to take the ``political 
action'' as opposed to the ``right action,'' I would be sharing 
the position of Senator Chafee and his supporters.
    If anything, I hope that this hearing will serve to educate 
the public to learn that there is more to this issue than a Las 
Vegas style casino that simply will not happen in Rhode Island 
unless the people vote for it to happen.
    If we choose not to listen to the rhetoric and scare 
tactics, we will understand that the Narragansetts are a proud 
people who have been discriminated by our own government.
    We will find that they are just trying to pull themselves 
up from their own bootstraps and move out of extreme poverty in 
a way that will not hurt the lives of other Rhode Islanders.
    We will determine that they are citizens like us who have 
to abide by the rules and statutes of our Government.
    And we will conclude that they have painfully earned their 
sovereign status and that to take it away from them now would 
be to once again break their spirit and any hopes that they 
have for the future.
    Again, let me say that I have the utmost respect for my 
colleagues from Rhode Island and I want to thank each of them 
for coming today. I am looking forward to hearing their 
testimony and followup with questions that will take us beyond 
the rhetoric and bring clarity to this issue.
    I am also particularly interested to hear the testimony of 
Frank Ducheneaux, who served as Counsel on the House Indian 
Affairs Committee during the time of the 1978 Rhode Island 
Settlement Act and the passage of IGRA in 1988. I believe that 
his perspective on this issue will prove critical as he was 
privy to the entire legislative process of both acts.
    At this time, I would like to enter into the record 
statements in support of the Narragansetts' sovereign rights by 
the following people:
    Senator John McCain, former Chairman of the Senate 
Committee on Indian Affairs;
    Senator Daniel Inouye, Vice Chairman of the same committee; 
[May be found later in hearing.]
    Secretary of Interior Bruce Babbitt; [Letter at end of 
hearing.]
    Decisions from U. S. District Court and First Circuit Court 
of Appeals upholding the Narragansetts rights; [Placed in the 
hearing record files of the Committee.]
    And letters from Tribal governments throughout our nation. 
[These letters were placed in the hearing record files of the 
Committee and a list of names and tribes can be found at end of 
hearing.]
    Thank you.

    Mr. Pombo. Without objection they will be included. I have 
to ask the audience to refrain from demonstrations during the 
hearing. We have a very long hearing and it is against the 
rules of the House to allow the audience to do so. Do any other 
members have opening statements that they would like to make at 
this time? Mr. Vento.

  STATEMENT OF HON. BRUCE VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. I will be very brief, Mr. Chairman, and I 
appreciate the scheduling of this hearing which obviously is an 
important issue with regards to the Native American Gaming 
Regulatory Act which was passed. I think the burden or the 
concern here, and I know that Senator Chafee and Congressman, 
now Senator Reed, and Mr. Weygand and our colleague on the 
Committee are able representatives and especially Senator 
Chafee, you are given credit at least for this. Obviously, you 
did not do it alone in terms of implementing this, what I think 
is going to be a moratorium hopefully.
    And I suppose that the concern is that this was something 
done quickly because of confusion. I think the burden in this 
issue lies in terms of demonstrating that there is some problem 
with the operation of the basic law that was passed in the 
early 1980's. We thought that in passing this and working with 
Congressman Udall and others on it--and I know the staff 
member, Frank Ducheneaux, is testifying today--that we were 
avoiding exactly the type of event where we would have a policy 
that would work disparities on various Native American groups 
in various States.
    My State obviously has gaming. We have formed a compact. I 
do not know what broke down in Rhode Island in terms of this 
issue, but I am hopeful that there will be a resolution that 
you, I think, have a special responsibility and the other 
Members to lead in looking for.
    We certainly are very concerned about this as acting as a 
precedent. We think that very often that Native Americans 
should have this right as a sovereign nation and within our 
State I can report to you that in Minnesota it is working. I do 
not know if everyone is happy but it has not seemed to cause 
economic disruption gen-

erally in terms of what has occurred with regard to other 
business and industries.
    We still raise a lot of money from the lottery and from 
other activities in our State and I notice that Rhode Island 
itself has a stellar record of raising money via the gaming 
activities of the State. So I am hopeful that there will be 
resolution. I think the burden, as I said, rests with the 
sponsors of this moratorium with this provision to demonstrate 
that there is somehow a problem that was not going to be worked 
out in terms of a compact at the State level where I think the 
proper safeguards were in place, were working as far as I can 
see. But there is obviously opportunity at some time for a 
Governor or a legislature to come to agreement with regards to 
the providing an orderly means by which Native American gaming 
could have occurred in Rhode Island as it has in some other 
States where compacts have existed.
    So knowing the work and the record of the delegation I am 
optimistic that this can be resolved. I think the Committee 
here obviously heard a venue that is not necessarily and is 
very much concerned. As a member of the Resources Committee we 
are very concerned about representing and being fair advocates 
for Native Americans.
    I and other members of this Committee I think generally are 
so. We appreciate your being here today and I am going to shut 
up so I can hear from you all and learn more by listening. 
Thank you.
    Mr. Pombo. Mr. Kildee.

  STATEMENT OF HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman. I am very pleased we 
are having this hearing today affecting the legislative rider 
passed in the last Congress which I feel was a real attack 
about sovereignty. Sovereignty is the basis of all our 
discussions when we discuss the Indian tribes.
    They do not have a sovereignty that was granted to them by 
the U.S. Government. They have a sovereignty that they 
retained. They have a sovereignty that they had before the 
first European settlers came to this country. That sovereignty 
is their most precious possession. I do not think anyone would 
ever think to attach a rider effecting the lottery of the State 
of Michigan and we have a big lottery in the State of Michigan.
    Michigan is a big gaming State but no one would have tried 
to attach a rider to a bill affecting the lottery of the State 
of Michigan because the State of Michigan is a sovereign State. 
We have representatives of a sovereign nation in this room 
today and that sovereignty is something that we have to 
recognize and we can live with and everyone can prosper with 
it.
    In my State of Michigan I have 11 sovereign Indian nations. 
I helped five of them get their sovereignty restored. Let me 
tell you the European settlers and the African settlers in 
Michigan really respect that sovereignty. There is a great 
mutual accord between the sovereign State of Michigan, the 
sovereign tribes, and the European, Asian and African settlers 
in the State of Michigan.
    That can happen. It can happen if we provide leadership, 
moral leadership. This is a legal problem, it is a moral 
problem and it is a constitutional problem. The Constitution 
says that this Constitution and all treaties entered into are 
the supreme law of the land and that is very important. I think 
that when we approach a sovereign nation we approach it with 
the idea that they have sovereignty, we treat them as well as 
we would treat the State of Michigan. Thank you very much. I 
yield the balance of my time.
    Mr. Pombo. Thank you. The ranking member of the full 
Committee, Mr. Miller.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much, Mr. Chairman. I want to 
thank Mr. Kennedy for prevailing on our Committee to hold these 
hearings and to thank Congressman Young for agreeing to these 
hearings. This is an important and very fundamental matter. As 
Mr. Kildee has pointed out, sovereignty is the most fundamental 
element of the relationship between this government and the 
Native Americans of this country.
    When we passed the Indian Gaming Regulatory Act, what we 
attempted to do was to provide a parity in terms of the ability 
to negotiate between the Indian nations and the State 
governments and that if the State government made a decision 
that it wanted to engage in gambling then the Indian nations, 
the sovereign nations, had the same right to do that.
    As we all know, Indian nations come in different forms, 
different sizes and different backgrounds. Since we have passed 
the Act some have reestablished their lands, reestablished 
their rights that were wrongfully taken from them, illegally 
taken from them, and have been able to pursue gambling in a 
number of different States.
    Some have sued for the right to do that, some have 
negotiated, many very successfully, with Governors throughout 
the nation. In my own State, some have decided to push the 
envelope and perhaps maybe go beyond where the State law 
allowed them to go in terms of what the State permits in 
gambling activities.
    They now find themselves in court. That is the process. 
That is the process by which these independent sovereign 
nations engage in order to achieve their rights under the 
Indian Gaming Regulatory Act. What it really requires is good 
faith negotiation. Good faith negotiation by the people of the 
State and the Governor acting on their behalf with the Indian 
nations.
    But there is a very fundamental principle under this, and 
that is once the State decides to engage in gambling then the 
Indian nations have the same right to that same level of 
gambling, the same types of games. But, for a State to have the 
right to come and just unilaterally destroy that process is 
such an incredible insult to the Indian nations of this 
country.
    And I think it is such an incredible insult to a law that 
for all its troubles and all its tribulations and all its 
difficulties, works. The fact is that in many, many States 
where negotiations have been started, negotiations have been 
successfully completed. In my own State we have seen people try 
to unilaterally come in and disrupt good faith negotiations in 
the process.
    But those negotiations will continue. They are difficult. I 
oppose parts of them and I support other parts of them. But 
what we do not do in that process is simply disenfranchise an 
Indian nation from participating in the national law that was 
designed to allow them to participate in gambling activities 
should a State make that determination.
    There is a very easy answer for the many States that 
somehow just cannot suffer Indian gambling but think that 
gambling is good for everyone else. They can decide not to have 
gambling within their borders, and then nobody can have 
gambling within their borders. But if they decide to be a 
little bit pregnant then everybody gets to be a little bit 
pregnant.
    Now sometimes those are tough political decisions because 
you do not want to tell somebody ``no'' and somebody else 
``yes,'' but this law is about parity. This law is about good 
faith negotiations and this law should not be unilaterally 
struck down with riders in the middle of the night. I thank you 
for holding the hearing.
    Mr. Pombo. Do any of the other members have opening 
statements at this time? If not, I will turn to Mr. Kennedy to 
introduce the first panel. They are all representatives.
    Mr. Kennedy. Thank you, Mr. Chairman. I would like to 
welcome my colleagues from Rhode Island once again. Although 
this is one issue we differ on there are so many more that we 
agree on so with that I would like to first introduce the 
senior senator from the State of Rhode Island and former 
Secretary of the Navy and former Governor of the State of Rhode 
Island, and that is Senator John Chafee. Senator.

 STATEMENT OF HON. JOHN H. CHAFEE, A SENATOR IN CONGRESS FROM 
                   THE STATE OF RHODE ISLAND

    Senator Chafee. Thank you very much, Representative 
Kennedy, Mr. Chairman, and members of the Committee. First, I 
appreciate this opportunity to testify before your Committee 
today in strong support of the appropriations legislation we 
enacted last year to preserve the integrity of the Rhode Island 
Indian Claims Settlement Act of 1978.
    I think it is very important to follow through the history 
of what took place. I am pleased to be joined this morning by 
my colleagues, Senator Reed, Representative Weygand, and also 
our Governor Lincoln Almond who will be on this next panel. As 
Representative Kennedy has mentioned all members of the Rhode 
Island congressional delegation, both Republican and Democrat 
with the exception of Representative Kennedy support the 
legislation enacted in 1996.
    Importantly, Congressman Weygand, whose district includes 
the proposed site for this gaming, supports the legislation. 
Now a bit of history. In 1978 in exchange for 1,800 acres of 
land in the town of Charlestown, Rhode Island, the Narragansett 
Indian Tribe agreed that these lands ``shall be subject to the 
civil and criminal laws and jurisdiction of the State of Rhode 
Island.''
    The other parties to the agreement including the State and 
the representatives from Charlestown, a small rural community 
in the southern part of our State, were all part of this 
agreement. Importantly, later that year Congress codified this 
very agreement into Federal law. The Rhode Island Indian Claims 
Settlement Act, Public Law 95-395, is part of the law of the 
nation.
    Gambling did not become an issue until 1988 when Congress 
enacted IGRA. During Senate action on that bill, former Senator 
Pell and I worked with Senator Inouye, then Chairman of the 
Select Committee on Indian Affairs, to ensure that the Rhode 
Island Settlement law would not be disturbed by IGRA, and the 
State jurisdiction would continue to apply.
    At Chairman Inouye's urging, Senator Pell agreed to 
withdraw this provision that we had, in other words the 
provision providing for Rhode Island protections that were in 
the bill. And in return a colloquy took place in which the 
Chairman stated, and the colloquy is the last part of my 
statement, the Chairman stated, ``The Narragansett Indian Tribe 
clearly will remain subject to the civil, criminal and 
regulatory laws of the State of Rhode Island.''
    This colloquy as well as report language which accompanied 
the bill appears at the conclusion of my testimony. In 1992 the 
Narragansett Indian Tribe sought to commence compact 
negotiations toward the establishment of Class III casino in 
Charlestown. The State took the issue into the U.S. District 
Court to uphold the terms of the Rhode Island Settlement law.
    Regrettably, the District Court held that, notwithstanding 
our legislative history ``the Gaming Act is applicable to the 
tribe's settlement lands.'' In 1993, the Court of Appeals for 
the First Circuit in a 2 to 1 decision upheld the lower court's 
ruling on gaming, but concluded that State law jurisdiction 
applied in all other respects.
    In other words, the only part of this Rhode Island Indian 
Claims Settlement Act that was affected was the gaming part, 
not the balance of it dealing with State jurisdiction. This 
decision left us no choice but to press for remedial action in 
Congress to preserve the integrity of the 1978 agreement and 
the associated Federal law.
    Over the next few years members of our delegation presented 
testimony before the Indian Affairs Committee and held numerous 
meetings with the principals. Our efforts were to no avail. In 
1994, despite protest from many quarters, Governor Sundlun 
reversed direction, our Governor at the time, and negotiated a 
compact with the Narragansett Indian Tribe.
    In accordance with Rhode Island law, which requires local 
and statewide voter approval of any proposal to expand gambling 
the measure went before the voters in November. On election day 
the citizens rejected the Narragansett casino proposal, as well 
as four other proposals, gambling proposals, across the State.
    The Narragansett proposal was rejected by 54.2 percent of 
the State's voters and by an almost 2 to 1 margin in the town 
of West Greenwich, one of our towns the tribe had selected over 
the town of Charlestown. On the very same ballot the statutory 
requirement for voter approval of gambling expansion was added 
to the State constitution.
    In other words, the State constitution was amended to 
require any expansion of gambling to go before the people. 
Previously that had been the law and now it was in the 
constitution. The Narragansetts then amended the draft 
management contract they previously had filed with the National 
Indian Gaming Commission for a Class III casino.
    The amended version provided only for the establishment of 
Class II high-stakes bingo facility which does not require 
State ap-

proval. At that stage, the National Indian Gaming Commission 
approval would have occurred at any time. We then went to the 
Appropriations Committee in the Senate to try and resolve our 
dilemma. As a consequence of these efforts, our provision to 
exempt the settlement lands from IGRA and to preserve the 1978 
Rhode Island Settlement law, became part of the omnibus 
appropriations law last September.
    This law is now being challenged. As we sit here, there is 
a court case on this very matter in the District Court here in 
the District of Columbia. The Narragansetts have sued to 
overturn the 1996 provision on the grounds that it violates the 
equal protection clause of the Constitution.
    I remain hopeful that the District Court will reaffirm the 
clear purpose of the 1978 law by leaving this most recent 
congressional enactment in place. To do otherwise in my 
judgment would be a real injustice. If the Narragansetts want 
gambling they can proceed just as other citizens have to do in 
our State, go to a referendum in the community, go to a 
referendum in the State likewise.
    I remain firmly opposed to efforts to force gambling upon 
Rhode Island without voter approval. My door is always open as 
it has been to help members of the Narragansett Tribe who are 
interested in pursuing other forms of economic development. We, 
myself and my staff, have asked for suggestions from the tribe 
for economic development proposals.
    Our offer has clearly been made to the tribe. We cannot 
dictate what they should have for economic development. We seek 
their proposals. I thank the Committee.
    [The prepared statement of Senator Chafee follows:]

 Testimony by the Honorable John H. Chafee, a U.S. Senator from Rhode 
                                 Island

    Mr. Chairman. I appreciate testifying before your Committee 
today in strong support of legislation, enacted last year as 
part of the Omnibus Appropriations Act, to preserve the 
integrity of the Rhode Island Indian Claims Settlement Act of 
1978.
    It pleases me to be joined by my colleagues Senator Reed, 
Representative Weygand, and our Governor, Lincoln Almond. All 
members of the Rhode Island congressional delegation, both 
Republican and Democrat--with the exception of one--support the 
appropriations provision we were able to enact last year. 
Importantly, Congressman Weygand, whose district includes the 
proposed site for an Indian gaming facility, supports this 
legislation.
    In exchange for 1,800 acres of land and an agreement that 
those lands ``...shall be subject to the civil and criminal 
laws and jurisdiction of the State of Rhode Island,'' the 
Narragansett Indian Tribe agreed to the extinguishment of all 
aboriginal land claims in 1978. The other parties included 
officials from the State of Rhode Island and representatives of 
Charlestown, Rhode Island, the affected community--a small 
rural town in the southernmost part of our State.
    Importantly, later that same year, Congress codified this 
very agreement into Federal law as the Rhode Island Indian 
Claims Settlement Act (PL 95-395). Rhode Island became the 
first of many states to have an Indian land claims settlement 
agreement enacted by Congress.
    The subject of gambling did not become an issue until a 
decade later when Congress enacted IGRA. During Senate action 
on that bill in 1988, former Senator Pell and I worked with 
Senator Inouye, then Chairman of the Select Committee on Indian 
Affairs, to ensure that the Rhode Island Settlement law would 
not be disturbed by IGRA, and that state law jurisdiction would 
continue to apply.
    In fact, Senator Pell had secured language in the IGRA bill 
to this very effect. However, at Chairman Inouye's urging, he 
agreed to withdraw this provision in return for a colloquy 
which provided verbal assurances from the Chairman that 
``...the Narragansett Indian Tribe clearly will remain subject 
to the civil, criminal and reg-

ulatory laws of the State of Rhode Island.'' That colloquy, as 
well as report language which accompanied the bill, appear at 
the conclusion of my testimony.
    In 1992, the Narragansett Indian Tribe petitioned then-
Governor Sundlun to commence compact negotiations toward the 
establishment of a Class III casino in Charlestown. Based upon 
the Rhode Island Settlement law and the legislative history 
surrounding IGRA, the State took the issue into U.S. District 
Court to obtain a declaratory judgment that IGRA does not apply 
with respect to these lands.
    Regrettably, the court held that, despite our legislative 
history, ``...the Gaming Act is applicable to the Tribe's 
settlement lands. The State appealed that ruling to the U.S. 
Court of Appeals for the First Circuit and, in 1993, a 2-1 
decision was rendered. While upholding the lower court decision 
on gaming, the appellate court concluded that state law 
jurisdiction applied in all other respects.
    The appellate decision clearly contravened the Rhode Island 
Settlement law, despite all the assurances we were given during 
Senate deliberations on IGRA in 1988. This situation left our 
State and its congressional delegation no choice but to press 
for remedial legislation in Congress to protect the integrity 
of our 1978 land settlement agreement with the Tribe, as well 
as the Federal law enacted that same year.
    In 1993 Senator Pell and I, and other members of the Rhode 
Island congressional delegation, began an intensive effort to 
enact remedial legislation. Over the next few years, members of 
our delegation presented testimony during IGRA reauthorization 
hearings before the Indian Affairs Committee, and held numerous 
meetings with the principals. Our efforts were to no avail.
    A few other important developments bear mention.
    In 1994, despite protest from many quarters, Governor 
Sundlun reversed direction and negotiated a compact with the 
Narragansett Indian Tribe. Because West Greenwich, an adjoining 
town, offered a more favorable casino site than Charlestown, it 
was designated as the location for the gaming facility. In 
accordance with Rhode Island law, which requires local and 
statewide voter approval to expand gambling in the state, this 
measure was then placed on the ballot that same year.
    When the citizens came to decide the fate of this and four 
other casino referenda on election day in 1994, the answer was 
a resounding ``no'' to all five. The Narragansett referendum 
was rejected by 54.2 percent of the State's voters, and by an 
almost 2-1 margin in the Town of West Greenwich.
    Of note, on that very same ballot, Rhode Island voters 
further solidified their rights to approve or reject gambling 
expansions by adding the statutory requirement for a referendum 
to the State Constitution itself.
    Though West Greenwich had been rejected, the Sundlun 
compact--as structured--provided for a fallback to the Tribe's 
settlement lands in Charlestown. A final compact to that effect 
was approved by the Department of Interior in December 1994. 
However, the Sundlun compact was nullified by a U.S. District 
Court in 1996 when it ruled the former Governor had exceeded 
his authority under the Rhode Island Constitution by not 
obtaining the General Assembly's consent to enter into compact 
negotiations.
    Given these developments, the Narragansetts then amended 
the draft management contract they previously had filed with 
the National Indian Gaming Commission (NIGC) for a Class III 
casino. The amended version provided only for the establishment 
of a Class II high-stakes bingo facility, which does not 
require state approval. At that stage, we believed NIGC 
approval would soon be granted.
    We then went to the Appropriations Committee in the Senate 
to try and resolve our dilemma. As a consequence of these 
efforts, our provision to exempt the settlement lands from IGRA 
and to preserve the 1978 Rhode Island Settlement law, became 
part of the omnibus appropriations negotiations toward the end 
of fiscal 1996. During those discussions, White House Chief of 
Staff Leon Panetta agreed to the inclusion of this provision in 
the final package. Given the approaching elections, and the 
desire to avoid another government shutdown, the White House 
could easily have killed this amendment, but chose not to do 
so.
    This provision of law is now the subject of a legal 
challenge in the U.S. District Court here in the District of 
Columbia. The Narragansett Indian Tribe has sued to overturn 
the provision on the grounds that it violates the Equal 
Protection Clause of the U.S. Constitution. We now await the 
Court's decision.
    It is our determined view that a deal is a deal, and we 
have now taken the necessary steps to resolve a legal quagmire 
which has caused considerable havoc for the citizens of our 
State, and particularly those in the Charlestown area. The 1996 
law has restored the integrity of the Rhode Island Indian 
Claims Settlement Act and upheld the primacy of State 
jurisdiction over the Tribe's settlement lands in Charlestown.
    If the Narragansett Indian Tribe wants to bring casino 
gambling to Rhode Island, it must first gain the approval of 
local and state voters through the referendum process mandated 
by Rhode Island's Constitution, as must any other individual or 
entity with that objective.

    Mr. Pombo. Thank you. Senator Reed.

       STATEMENT OF HON. JACK REED, UNITED STATES SENATE

    Senator Reed. Thank you, Mr. Chairman, for this opportunity 
to testify. Over the last several years, the Narragansett 
Indian Tribe has sought authority to conduct gaming operations. 
I have opposed those efforts as I have opposed other expansions 
of gambling in Rhode Island.
    In my 6 years as a member of the House, I had the privilege 
of working closely with the tribe on many issues. I respect 
their determination to secure economic progress for the tribe, 
while maintaining their culture and traditions. However, I do 
not share their sincere belief that gaming is the path to long-
term economic progress for the tribe or for the State of Rhode 
Island.
    Gambling is at the core of this hearing. I will be the 
first to admit that the State of Rhode Island would have a more 
compelling moral argument if it did not rely upon millions of 
dollars of gambling revenues each year. But I would also add 
that the tribe's arguments about sovereignty and fairness are 
weighed down by the fact that the focus of their activities is 
to secure permission to conduct gaming operations. In a very 
real sense, gambling poisons the water on both sides.
    I do not support gambling as the long-term solution to the 
economic problems facing our communities, our States, or our 
Indian tribes. Gambling simply takes too great a toll on the 
people it engages and the areas it dominates. According to 
Professor Robert Goodman, who has studied and written about 
this subject at great length, gambling frequently leads to a 
decline in jobs by diverting dollars away from consumer 
products and other recreational activities.
    In his thoughtful 1995 report to the Senate entitled, ``The 
Explosive Growth of Gambling in the United States'', Senator 
Paul Simon echoed this concern, stating, ``The promises of what 
legalized gambling will do for a community or State almost 
always are greatly exaggerated.''
    This harsh reality differs sharply from the pictures put 
forth by gambling proponents, who often present gaming 
facilities as offering economic salvation. Gambling revenues 
come disproportionately from lower income residents, who can 
least afford such losses. Studies have shown that people 
earning less than $10,000 per year spend twice as much money, 
as a percentage of their income, on gambling as people making 
between $30,000 and $40,000 per year. People earning less than 
$10,000 per year spend four times as much money, as a 
percentage of income, on gambling as people making more than 
$80,000 per year.
    In addition, gambling takes a very heavy toll on individual 
Americans. It can be addictive, and every bit as painful and 
costly as addiction to alcohol and drugs. Also, the costs of 
gambling include increased crime. The American Insurance 
Institute has estimated that 40 percent of all white-collar 
crime has its roots in gambling.
    Despite the historical legacy of gambling in Rhode Island 
and the State's obvious dependence on gambling revenue, the 
people of Rhode Island have endeavored throughout this decade 
to limit the expansion of gambling by any proponent, including, 
but not limited to the tribe. In 1990, for example, Rhode 
Island voters rejected a proposal to establish off-track 
betting in Pawtucket, Rhode Island. Within 4 years, the State 
severely restricted charitable organizations' games of chance.
    In 1994, Rhode Island voters passed an amendment to the 
State Constitution, by a 2-1 margin, requiring that any future 
expansion of gambling in the State win local and statewide 
voter approval. Contemporaneously, voters rejected five 
separate plans to establish gambling casinos in Rhode Island, 
including a proposal by the Narragansetts.
    These referenda clearly indicate the popular opposition in 
Rhode Island to the expansion of gambling; opposition which is 
not motivated by the identity of the promoter, but, I believe, 
by the conviction that gambling will not lead to long-term and 
widespread economic development.
    In addressing these issues, the Narragansetts stress their 
sovereignty. In point of fact, the tribe has sovereign powers. 
But according to the controlling decision of the United States 
First Circuit Court of Appeals, the Rhode Island Indian Claims 
Settlement Act of 1978 still has effect, conferring concurrent 
jurisdiction to the State and tribe in certain situations.
    In its 1994 decision on these issues, the First Circuit 
Court ruled that the Indian Gaming Regulatory Act did not 
extinguish this jurisdiction, but modified it with respect to 
gaming. Thus, referring to the Settlement Act's provision that 
the Narragansetts' ``settlement lands shall be subject to the 
civil and criminal laws and jurisdiction of the State of Rhode 
Island,'' the Court concluded, ``This means the State continues 
to possess a quantum of regulatory authority.''
    Even with tribal jurisdiction over certain categories of 
gaming, there are other issues related to the development of 
tribal lands, such as zoning and traffic control, where the 
State could arguably claim jurisdiction. As a result, any 
significant development, gaming or otherwise, would likely 
touch upon issues of State control. Therefore, as a practical 
matter, the State and the people of Rhode Island would need to 
be involved in crafting any long-term solution to these issues.
    Last year's Omnibus Appropriations Act included language to 
ensure that the people of Rhode Island have the opportunity to 
participate in this process. The Chafee amendment requires the 
Narragansetts to win local and statewide approval before 
pursuing gaming on their lands.
    As I noted earlier, this requirement applies to any group 
that wants to expand gambling in Rhode Island, under a 1994 
amendment to the State Constitution. I supported the Chafee 
amendment.
    Mr. Chairman, I would like to thank you again for this 
opportunity to testify. I appreciate the Committee's 
willingness to provide a forum to discuss these issues.
    While I disagree with several of today's witnesses on 
gambling, I believe that we have a common commitment to 
promoting economic development, not only for the Narragansett 
tribe, but for Indian tribes across the country. There has been 
a great deal of interest in our differences on gambling.
    I can only hope that this Committee, and all members of the 
House and Senate, will demonstrate the same level of interest 
in the budget process to ensure that the Federal Government 
maintains its commitment to all Indian tribes, and that the 
Narragansetts in particular have the resources they need to 
meet their health care, education, and economic development 
goals. I thank the Chairman and yield back my time.
    Mr. Clinger. [presiding] Robert Weygand, please, you are 
next, U.S. House of Representatives.

   STATEMENT OF HON. ROBERT A. WEYGAND, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Weygand. Thank you, Mr. Chairman and my colleague, 
Patrick Kennedy, and all of my colleagues here as well as the 
Rhode Island delegation. I want to thank the Chairman and 
particularly Congressman Kennedy for convening this hearing 
today.
    Regardless of our opposing viewpoints I think it is healthy 
and wise for us to air the differences in this setting. As a 
Congressman who represents the district in which the 
Narragansett Indian Tribe is located, I am especially pleased 
to be here to present my viewpoints and the viewpoints of the 
constituents in my district.
    As so eloquently stated by Congressman Kennedy, Congressman 
Vento, Congressman Kildee, as well as Congressman Miller, there 
has been a very long and important history determining the 
sovereign rights of Native American Indian tribes throughout 
this country.
    I would like to quickly summarize the problem that we are 
facing. It is really more of a legal and constitutional issue 
than a moral issue. In 1975 the Narragansett Tribe of Indians 
sued the State of Rhode Island. As a body, as Congressman 
Kennedy said, they had existed for many hundreds of years 
before they took that action in 1975.
    They did not need the 1983 agreement with regard to being 
federally recognized or the 1988 IGRA Act to allow them to do 
this. They as a tribe, as a body, that was recognized by the 
courts moved forward on a suit in 1975. That in 1978 was 
consummated by a contract, a contract between the State of 
Rhode Island and the Narragansett Indian Tribe.
    Regardless of any other constitutional or State or Federal 
law that passed, there was a contract that was agreed to that 
is the basis of the argument before us today. In 1978, we also 
codified that contract with the Indian Settlement Act. We then 
inadvertently reversed the Indian Settlement Act in 1988 with 
IGRA. We then reversed IGRA in 1996 with the Chafee amendment 
to the Omnibus Appropriations Act.
    Quite frankly, we have had a yo-yo bouncing back and forth 
statutorily on Indian gaming. The fundamental issue we have is 
that there is a contract between the Narragansetts and the 
State of Rhode Island. As Senator Reed had mentioned, we must 
fulfill our obligation to help the Narragansetts economically, 
to help them through health care, to help them provide the kind 
of opportunities they not only deserve but they most 
emphatically require as part of their original Native American 
rights.
    But we also have another problem. The people of 
Charlestown, the people of the second congressional district 
have voted numerous times and said no to gambling. As 
Congressman Miller says so aptly, if you are a little bit 
pregnant you are fully pregnant. So if the State of Rhode 
Island really wants to do away with gaming on the Indian 
reservation they should take a movement to move gaming away 
from the entire State of Rhode Island.
    But one of the basic problems is we had a contract with the 
Narragansett Indians that supersedes all others. In fact, this 
should not be settled before this Congress, it should be 
settled before a court of law because in fact what we have is a 
tribe making an agreement outside of their sovereign rights 
with the State of Rhode Island that said ``we will abide by 
your laws.''
    As a former lieutenant Governor and now as the Congressman 
from this district, I think the proper forum is the Federal 
court, and not this body. The people of our district, the 
people of Rhode Island, have been emphatic. They feel that 
their civil rights are being threatened. The Narragansetts feel 
their sovereignty and civil rights are also being threatened.
    The agreement that was passed in 1978 by representatives of 
the Narragansett Indian Tribe and the representatives of the 
people of Rhode Island, to me, still holds the stance that what 
we should be doing is working for a mutual agreement and as 
Congressman Miller said that in fact represents and agrees to 
their sovereignty, their rights, and work something out.
    I cannot stress that the contract must be recognized by 
this body. It is a contract of law. It is not a moral contract. 
It is far and away very constitutional and that is the crux of 
the problem we have here. Statutes have come and gone. The 1978 
Indian Settlement Act, the IGRA Act, and the Chafee amendment 
have all bounced back and forth but the contract between the 
Narragansetts and the State of Rhode Island still stands and 
that is what we should abide by.
    I want to thank my colleague from Rhode Island, Congressman 
Kennedy, and you, Chairman Young, for allowing us to testify 
here today.
    [The prepared statement of Mr. Weygand follows:]

  Statement of the Honorable Bob Weygand, a U.S. Representative from 
                              Rhode Island

    Thank you, Chairman Young for convening this hearing on 
Indian gaming issues in Rhode Island. I appreciate your 
invitation and welcome this opportunity to present my views. 
I'd also like to thank the other members of the committee, 
especially my colleague from Rhode Island, Congressman Kennedy, 
for being here this morning.
    As the Congressman who represents the district in which the 
Narragansett Indian Tribe's land is located, I am especially 
pleased not only to present my views and the views of the 
majority of my constituents in the second congressional 
district on this contentious issue, but to hear the input of 
the Narragansett Indians. I have always been a firm believer in 
problem solving through open and honest communication--and this 
hearing is another avenue to open the lines of communication 
between our opposing viewpoints.
    Although the history behind this hearing has been well 
outlined throughout the hearing thus far, I believe it is 
appropriate to briefly touch upon how that history shapes my 
views. In 1978, a commission, comprised of a majority of 
Narraganetts, signed an agreement with the State of Rhode 
Island, which was later codified into Federal law by the Rhode 
Island Indian Claims Settlement Act of 1978. As part of the 
agreement, all parties, including the tribal representatives, 
agreed that the tribe would be subject to the civil, criminal 
and regulatory laws of the State of Rhode Island.
    As you know, when gambling was seen as a profitable, yet 
questionable, method to raise money for cash starved tribes, 
Congress enacted the Indian Gaming Regulatory Act in 1988 to 
govern Indian gaming in our country. During debate on the floor 
of the U.S. Senate on the Indian Gaming Regulatory Act, 
Senators Claiborne Pell and John Chafee of Rhode Island 
received assurance from the bill's sponsor and Chairman of the 
Select Committee on Indian Affairs, Senator Daniel Inouye, that 
the Narragansetts would still follow state laws and 
regulations.
    I would ask Mr. Chairman that a copy of this colloquy be 
inserted into the record. [See Attachment A]
    Unfortunately, in 1993 the United States District Court 
ruled that despite clear legislative intent as presented in the 
colloquy the provisions of the Indian Gaming Regulatory Act 
superseded the Rhode Island Indian Claims and Settlement Act. 
In an effort to clarify that the Indian Gaming Regulatory Act 
did not supersede the Rhode Island Indian Claims Settlement 
Act, Senator Chafee inserted legislative language into the 
Omnibus Appropriations Act for Fiscal Year 1997. This language 
clarified the intent of the Pell-Chafee-Inouye colloquy.
    I feel the Narragansetts should live within the context of 
the agreement tribal representatives signed in 1978 and feel 
that if they wish to offer expanded gambling on their 
reservation it should be done in accordance with the laws and 
constitution of the State of Rhode Island.
    My support for the Chafee amendment to the Appropriations 
Act, in addition to my belief in the appropriateness of the 
original agreement signed by the Narragansetts and the State of 
Rhode Island, stems from my long held opinion that gambling is 
an unhealthy manner in which to grow an economy. This stance on 
expanded gambling has been repeatedly affirmed by the voters of 
Rhode Island, who, since 1972 have consistently voiced their 
intention to halt any further expansion of gambling within the 
state's borders. In fact, Mr. Chairman, the voters of Rhode 
Island voted against a proposal by the Narragansett Indian 
Tribe to locate a gambling facility on their land in West 
Greenwich in 1994.
    At this point, Mr. Chairman, I ask unanimous consent that 
the statewide results of eight separate statewide gambling 
referenda be inserted into the record. [See Attachment B]
    The voters of my state also amended their state 
constitution in 1994 to make it more difficult to expand any 
further gambling within our state. I would like to insert in 
the record the results of that referenda to illustrate Rhode 
Islanders aversion to any expansion of gambling. [See 
Attachment C]
    As you can see by both the separate gambling referenda and 
the amendment to the state constitution--the voters of Rhode 
Island and my district have stressed time and time again their 
vehement opposition to any expansion of gambling.
    While I respect the rights and responsibilities of Native 
Americans to govern themselves within their sovereign nation, 
expanded gaming transcends the tribe's borders and I believe an 
expansion of gambling and its consequences affect everyone 
within the larger community.
    As the Congressman from the area surrounding the 
reservation, let me clearly state my willingness to work 
cooperatively with the Narragansetts as they strive to provide 
the best quality of life for the members of their tribe. 
Although the Narragansetts and I may not agree on this 
particular issue, I hope we can work together on the many other 
issues of mutual interest.
    Again, thank you for providing us this forum today. Thank 
you Mr. Chairman.

                                ------                                


                              ATTACHMENT A

    Colloquy of Senator Claiborne Pell, Senator Daniel Inouye, 
and Senator John Chafee in relation to the Indian Gaming 
Regulatory Act

    Mr. PELL, Mr. President, I would like to thank you the 
managers of S. 555, the Indian Gaming Regulatory Act, and 
particularly the chairman of the Select Committee on Indian 
Affairs (Mr. INOUYE), for their hard work and patience in 
achieving a consensus on this important measure.
    In the interests of clarity, I have asked that language 
specifically citing the protections of the Rhode Island Indian 
Claims Settlement Act (Public Law 95-395) be stricken from S. 
555. I understand that these protections clearly will remain in 
effect.
    Mr. INOUYE. I thank my colleague, the senior Senator from 
Rhode Island (Mr. PELL), and assure him that the protections of 
the Rhode Island Indian Claims Settlement Act (P.L. 95-395), 
will remain in effect and that the Narragansett Indian Tribe 
clearly will remain subject to the civil, criminal, and 
regulatory laws of the State of Rhode Island.
    Mr. CHAFEE. Mr. President, I too would like to thank the 
chairman (Mr. INOUYE) and members of the Select Committee on 
Indian Affairs for their cooperation and assistance. The 
chairman's statement makes it clear that any high stakes 
gaming, including bingo, in Rhode Island will remain subject to 
the civil, criminal, and regulatory laws of our State.

                                ------                                


                              ATTACHMENT B

    Rhode Island Gambling Referenda Results; 1972-1994

    1972
    Dog Racing--``Shall the act passed by the general assembly 
at the January, 1972 session entitled ``An Act Authorizing dog 
racing'' be approved?
    Approved: 137,286     47 percent
    Reject: 155,566     53 percent

    1990
    Establishment of Gambling Facilities Town of Burrillville--
``Approval of this question would authorize the Town of 
Burrillville to establish a harness racing facility in the 
Town.''
    Approved: 100,145     34 percent
    Reject: 194,064     66 percent
    Off-Track Betting Facility in the city of Pawtucket--
``Approval of this question will authorize the Division of 
Racing and Athletics to license an off-track betting facility 
in the city of Pawtucket and will authorize payment of States 
taxes and commissions from the off-track betting facility to 
cities and towns to be used for the relief of local residential 
property taxes.''
    Approved: 115,968     37 percent
    Reject: 200,767     63 percent

    1994
    city of Providence--Gambling--``Shall a gambling facility 
and/or activity be established in the city of Providence?''
    Approved: 73,868     23 percent
    Reject: 249,159     77 percent
    city of Pawtucket--Gambling--``Shall a gambling facility 
and/or activity be established in the city of Pawtucket?''
    Approved: 45,824     14 percent
    Reject: 270,216     86 percent
    Town of Lincoln--Gambling--``Shall a gambling facility and/
or activity be established in the Town of Lincoln?''
    Approved: 90,658     28 percent
    Reject: 232,493     72 percent
    Town of Coventry--Gambling--``Shall a gambling facility 
and/or activity be established in the Town of Coventry?''
    Approved: 48,064     15 percent
    Reject: 266,642     85 percent
    Town of West Greenwich--Gambling--``Shall a gambling 
facility and/or activity be established in the Town of West 
Greenwich?''
    Approved: 153,099     46 percent
    Reject: 179,644     54 percent

                                ------                                


                              ATTACHMENT C

    Approved Amendment to the Rhode Island Constitution, 1994

    Proposition to Amend the Rhode Island Constitution-Voter 
Approval Required for Expansion of Gambling--``Shall Article 6 
of the State Constitution be amended and approved to add the 
following Section: Section 22. Restriction of Gambling.--No act 
expanding the types of gambling which are permitted within the 
state or within any city or town therein or expanding the 
municipalities in which a particular form of gambling is 
authorized shall take effect until it has been approved by the 
majority of those electors voting in a statewide referendum and 
by the majority of those electors voting in a referendum in the 
municipality in which the proposed gambling would be allowed. 
The secretary of state shall certify the results of the 
statewide referendum and the local board of canvassers of the 
city or town where the gambling is to be allowed shall certify 
the results of the local referendum to the secretary of state.
    Approved: 207,949     68 percent
    Reject: 98,574     32 percent

    Mr. Clinger. I want to thank the panel. I would like to 
just make a few comments and I am going to show you how 
bipartisan I am, I am going to let Mr. Kennedy chair the 
meeting. I did not go to Hershey either. I do not know how many 
else did. That is an inside joke for those that are not aware 
of it.
    The thing that strikes me because I was the author along 
with Mo Udall and both of our pictures hang in this hall for 
the Indian Gambling Commission and the Indian gambling 
federally recognized ability for them to do so. One thing that 
bothers me, Senator Reed, is this is not about the evil of 
gambling.
    If gambling was considered evil by all you would not have 
bingo. You have bingo in Rhode Island, don't you, sanctioned by 
the State?
    Senator Reed. I do not believe we do. We have limited 
bingo. I think the top prize----
    Mr. Clinger. But it is like someone just said you cannot be 
part pregnant, you are all pregnant. You do have bingo.
    Mr. Weygand. We have games of chance.
    Mr. Clinger. You do have video slots, by the way, 
sanctioned by the State. What else do you have? Do you have a 
lottery?
    Senator Reed. We have a lottery. We have horse racing. We 
have dog racing.
    Mr. Clinger. You have dog racing. You have some kind of 
racing, let us put it that way. Every time I go to one I lose 
so I do not really like one. My wife always wins though. She 
always picks a name. I try to win the books. But this is about 
whether this tribe has a right, and I happen to agree with you, 
Congressman, it is in court but what concerns me the most when 
people cast gambling as an evil thing and when other people 
participate in it if we could eradicate gambling across the 
United States then that is what we ought to do.
    Every State has passed a lottery. Every State that has 
legalized gambling, every State that has some form of wagering 
ought to eliminate it. And that be your wish, I do not know, 
but this argument today is about a tribe that was recognized by 
the State of Rhode Island, by the Federal Government and 
Federal laws that were passed.
    I think that is what the debate has to concentrate on and I 
am not chastising you. I just want to stress that because it is 
very difficult for me to have much sympathy for somebody that 
says gambling is evil when they also condone it. And I am 
concerned that we talk about the nice latitudes that were given 
about taking care of this tribe by health care, welfare, all 
these other things. It is out of the largess of the government 
which is the problem we have with American natives today.
    It has probably been the one group of people that have 
been, I think, abused, misused, and misrepresented for many 
centuries in the halls of this Congress and I am very concerned 
that for the first time we see some progress in many areas. 
Yes, there are some areas that have to be watched. That is up 
to the Gaming Commission and the recent commission that has 
been appointed to see if there is any evil, illegal, Mafia-type 
activities occurring with Indian gambling.
    If Indian gambling is being conducted according to Federal 
and State law on an equal basis it is my understanding now with 
the Senator's amendment that this tribe cannot even participate 
in bingo, yet the State does. They cannot participate in slots, 
yet the State does. They cannot participate in dog racing, yet 
the State does. And that is not a fairness doctrine.
    And so I am going to suggest that we keep to the issue of 
the fairness doctrine of the law that was passed out of this 
Committee by Mo Udall and I believe I am the only one else that 
was here, and Mr. Kildee, that we implement that law correctly, 
and that is what this hearing is about. Mr. Kennedy here is now 
the Chairman.
    Senator Chafee. Mr. Chairman, I wonder if I might----
    Mr. Clinger. Yes, please, Senator. I am sorry.
    Senator Chafee. I think it is very, very important to 
remember two things. One, that when the lands were turned over 
to the Narragansetts back in 1978 an agreement was entered into 
and the agreement said that the tribe would be subject to the 
criminal and civil laws of the State of Rhode Island. That was 
an agreement.
    And subsequently that was amended by the IGRA provision 
unbeknownst to both the Chairman at the time who presented it 
as you recognized from the colloquy that we had at the time and 
it was not known when IGRA was adopted that it eliminated the 
provisions for the State having the civil and criminal control 
of the lands. That was not known when that was done.
    Mr. Clinger. Senator, can I ask a question? Has the State 
lost the other parts of the agreement or only the gambling 
agreement?
    Senator Chafee. No, the Court of Appeals in the First 
Circuit said that all the other provisions of the law apply, 
Rhode Island civil and criminal jurisdiction still is there 
except for the gambling provisions which were superseded--the 
right to gamble which was superseded by IGRA. Some are saying 
that the tribe has complete sovereignty over everything it 
does. No, they are still bound by the agreement that took place 
in 1978 except for the gambling provision.
    And, furthermore, if the tribe wishes to have gambling, 
casino or high-stakes bingo, we do not have high-stakes bingo 
in our State, not sponsored by the State, but if they want it 
they can do what everybody else in the State can do. Any 
community, any entity can seek a referendum on the State level 
and on the community level, the town level and get it if the 
voters approve.
    That is what we are battling for, Mr. Chairman. We are 
fighting to retain the jurisdiction of the people of the State 
of Rhode Island to approve all gambling if they wish it.
    Mr. Clinger. OK, can I ask you a question though? I am 
trying to get to this and then Mr. Gilchrest will have to take 
over again as he is now here, but you say if the people agree 
but how many people are in this tribe?
    Senator Chafee. I do not know, about 2,500.
    Mr. Clinger. How many people in Rhode Island?
    Senator Chafee. A million.
    Mr. Clinger. A million, OK.
    Senator Chafee. Not a million voters, a million people.
    Mr. Clinger. What I am saying is if in fact this tribe as a 
community decides they want slots, video, horse or dog racing 
they still have to come to you to get the approval to do so.
    Senator Chafee. That is right.
    Mr. Clinger. But that is not really fair because the fact 
is you allowed it by State regulation already for other 
communities. You cannot put this 2,500 people against 1 
million.
    Senator Reed. Mr. Chairman, any expansion of gambling in 
the State of Rhode Island, a new enterprise, would have to be 
approved by a local community referendum and by a State of 
Rhode Island referendum. I believe that would apply to high-
stakes bingo hall if a non-Indian promoter was seeking that.
    That is the situation here and let me respond to your 
comments. I recognize as you do very readily that the State of 
Rhode Island depends upon gambling revenue, but I would like 
the panel to recognize also that over the last several years 
the State of Rhode Island and the people of Rhode Island 
through popular votes have done a great deal to prevent the 
expansion of gambling.
    I think it is based not on any particular animus to any 
promoter but by the concept that this is not healthy for the 
economic development of the State and, in fact, by all the 
other problems associated with gambling. I do not think you can 
absolutely disassociate discussion of the nature of gambling 
from the discussion today.
    Now let me also respond to your legal points, which I agree 
these are issues. The First Circuit decision interpreting not 
just IGRA but also the Land Claims Settlement Act declared that 
there is still residual sovereignty for the State of Rhode 
Island and that sovereignty implicates any development of a 
large scale enterprise of any kind on the tribal lands.
    But let me also suggest, with respect to Senator Chafee's 
argument in the colloquy with Senator Inouye, there was a 2 to 
1 decision. The dissenting judge, Judge Coffin, read the 
colloquy between Senator Pell and Senator Inouye and his 
conclusion, an eminent jurist----
    Mr. Clinger. Senator, with all due respect, colloquy means 
very little. We have found that out recently in numerous 
hearings we had because your administration has denied any 
colloquy or any content in this Congress. We wrote the law, not 
on this issue but other issues so colloquy don't stand up in 
court. You are a lawyer, you ought to know that.
    Senator Reed. Mr. Chairman, I would just like to make a 
point that the dissenting judge gave entire credibility to the 
colloquy and would have ruled that the State had full 
jurisdiction over all types of operation. My point is that the 
legal questions here are quite close, but the one issue that is 
quite clear legally is that the State still has residual, a 
quantum of authority over the tribe.
    So we are not talking about, as I think some of these 
people on the panel suggest, the absolute sovereignty of the 
tribe versus the absolute sovereignty of the State. In fact, in 
this situation neither one has absolute sovereignty.
    Mr. Clinger. I feel little much like the time I got in a 
argument in a saloon one time with a gentleman and lady and I 
proceeded to punish the gentleman and lady who hit me in the 
head with her high heel. It was her husband. I did not realize 
that. So I am sort of mixed in between here but I want you to 
know where I am coming from.
    I am very reluctant to get involved in State's rights issue 
but I am also very much in defense of a law passed out of this 
Committee and I do not think we ought to be using a tribe as an 
example when for the first time we have tribes that are now I 
think benefiting immensely, yes, and sometimes jealously, 
resentfully by other people immensely in other areas and have 
done quite well.
    And I do not like the largess of the government of keeping 
them in the position as we have done in the past on the 
reservation without any chance of going forth. I have been to 
many of the reservations across this country and believe me, we 
should not be proud of what we have been doing.
    Our system is not working. The BIA is not working. This 
Congress is not working and people ought to be able to make a 
benefit to themselves if we give them an opportunity to do so. 
We could argue this all day long but, Mr. Gilchrest----
    Mr. Weygand. Mr. Chairman, if I could just add to your 
comment. I think the key to this is what you mentioned a little 
while ago and that is the contract that was signed. If they 
signed a contract today after IGRA, after the Chafee amendment, 
or after the Indian Settlement Act, it would be acknowledged as 
well.
    The Narragansett Indian Tribe existed 400 years ago, exists 
in 1997, but in 1978 they signed a contract that is legal and 
binding and that is really the key.
    Mr. Clinger. And if the court rules against you then what 
are you going to do?
    Mr. Weygand. Then the court rules against you. You must 
give them that right because they are then voiding the 
contract. But, quite frankly, they would have a contract as you 
and I could have a contract that would provide stipulations 
that you place on me. As long as I agree to the terms as the 
Narragansetts did with the State of Rhode Island.
    Mr. Clinger. We passed the law that preceded your law that 
did recognize them as a Federal tribe. They were recognized as 
a Federal tribe and it did allow them certain advantages as 
being a Federal tribe, and that is the argument in court, I 
will agree with you on that.
    Mr. Weygand. And in 1988 we recognized them but they 
existed long before. They formally adopted an agreement in 
which they had representatives of the tribe. That is the 
biggest problem, Mr. Chairman.
    Mr. Gilchrest. [presiding] I would like to say one thing 
for the record that the Chairman, Mr. Young, was in that saloon 
collecting money for the Salvation Army. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Gilchrest. This is where the 
argument hinges. The argument is that in 1978 there was an 
agreement and barring everything else that is the agreement 
that should be respected. The Federal Government supersedes 
State, OK. The District Court recognized that, the Supreme 
Court recognizes that.
    I just do not understand how difficult it is to not 
understand you do not get frozen in time in 1978. Plessy v. 
Ferguson is no longer the law of the land. It was a contract, 
if you will, at the time. But we had Brown come in after it and 
superseded and overturned it because it was the latest.
    We had IGRA come after the Indian Claims Settlement Act. It 
was a Federal recognition. The Circuit Court of Appeals 
recognized it. I mean I just--how, Senator Chafee, can you hold 
on to this argument that 1978 can still----
    Senator Chafee. Well, may I respond, Mr. Chairman? I think 
it is very, very important that we recognize what the First 
Circuit Court said. They said the following, and I refer to 
page 2 of the decision. And this is the Circuit Court of the 
United States, First Circuit. ``After careful reconnaissance of 
a legal landscape we hold that Congress' grant of jurisdiction 
to the State of Rhode Island Indian Claims Settlement Act of 
1978 remains valid.'' In other words, that law remains in 
effect without--if I might finish, ``we also hold contrary to 
the tribe's importuning that the grant includes civil 
regulatory jurisdiction.''
    Then it goes on. At that juncture the tide turns. ``We 
conclude despite the State's vehement protest that the Gaming 
Act does not specifically exempt the lands in question.'' In 
other words, just as we have been saying right from the 
beginning everything remained in effect except the gaming 
provisions, the provisions dealing with gambling. And there we 
have it.
    And if you follow onto page 16 this just gets rid of the 
suggestion that somehow the 1978 law is just washed away. Not 
at all. I read now at the bottom of page 16. ``The tribe's 
basic position is that even prior to the Gaming Act, Section 
1708 of the Settlement Act did not constitute a valid conferral 
of jurisdiction because, until Federal recognition occurred in 
1983 the tribe had no jurisdiction to relinquish.''
    What the court is saying the tribe is arguing is that when 
they entered the deal in 1978 they were not entering into 
anything. Nobody from the tribe was really doing it. It was not 
a valid deal and when the tribe got Federal recognition in 1983 
that supplanted everything. That seems to be your argument as I 
understand it, Representative Kennedy.
    This is what the court said. ``This resupinate (which I am 
not sure what it means) reasoning stands logic on its ear. The 
tribe did not surrender jurisdiction in 1978. Rather the tribe, 
the State and the town came to an agreement, spelled out in the 
Joint Memorandum of Understanding to ask Congress, among other 
things to grant jurisdiction to the State. The tribe has 
articulated no reason why regardless of its legal status, 
Congress lacked the power to effectuate this jurisdictional 
grant. In any event, the tribe is mistaken in its professed 
belief that it lacked jurisdictional power at the time of the 
Settlement Act.'' There you have it. The court says that was a 
deal in 1978. It was not wiped away by any subsequent grant of 
Federal recognition. That is the law.
    Mr. Kennedy. But the Narragansetts are a federally 
recognized tribe. After 1978 the Narragansetts became a 
federally recognized tribe.
    Senator Chafee. That is right.
    Mr. Kennedy. Hence, the IGRA applies, and you said in that 
court case that you cited to me that but for gaming the 
agreement stands and I agree with you, OK? The case that we 
have before us today is whether your rider can preempt the IGRA 
and if it does then it carves out an exception to the 
Narragansett Tribe from every other tribe under IGRA in this 
whole country.
    Senator Chafee. That is not accurate. If you look at the 
Maine Settlement Act, for example, it confers jurisdiction on 
the State and provides that no subsequent Federal law may 
disturb the jurisdiction without specific reference. The South 
Carolina Catawba Indian Settlement Act. Also see the 
Massachusetts Settlement Act. It is going back and forth now as 
you know. And the Florida Micasuki Settlement Act.
    Mr. Kennedy. What I am asking you, with respect to IGRA----
    Mr. Gilchrest. The time of the gentleman has expired. If we 
have a little time after the other members--we do have to move 
along. There is a number of other witnesses that need to 
testify today. I recognize Mr. Kildee.
    Mr. Kildee. I will take some time now and yield some, 
Congressman Kennedy. The Court of Appeals did say that the 
provisions of IGRA apply with full force to the lands. Then it 
was your rider that struck the effectiveness of that.
    Senator Chafee. That is right.
    Mr. Kildee. Then why should the Indians in Rhode Island 
have less rights than the Indians of Michigan?
    Senator Chafee. Well, because in Rhode Island they entered 
into an agreement. We do not know----
    Mr. Kildee. After your 1978 land settlement the 
Narragansetts became a federally recognized tribe which gives 
them a higher status recognition. I am just puzzled why you 
feel that you cannot address the problems of Rhode Island as 
the people of Michigan, the people of other States are doing 
it. You have really put your Indians, Indians within the 
borders of Rhode Island who are sovereign in a lesser status 
than the Indians of Michigan or California or Arizona, 
Minnesota. Why are they of less status?
    Senator Chafee. I do not know anything about the Michigan 
situation, Michigan and Minnesota and so forth. I do know that 
there are a series of Land Settlement Acts and Rhode Island is 
one of them. Rhode Island has a Federal law. It is not just a 
State law. It was entered into and ratified by the Federal 
Government. It is a Federal law, the Rhode Island Indian Claims 
Settlement Act.
    Mr. Kennedy. Senator, what other tribes in this country are 
treated the same way the Narragansetts are? You said there are 
a lot of other Indian Settlement Claims Act. Tell me one tribe 
that is treated like the Narragansetts under IGRA?
    Senator Chafee. I do not know what arrangements other 
tribes entered into when they did their land settlement. I do 
know what Rhode Island did.
    Mr. Kennedy. But that is the preemption----
    Senator Chafee. Let me just finish. Rhode Island and the 
Indians entered into a deal. Now maybe they do not like it now, 
apparently they do not, but there it was 1,800 acres of land 
and some cash settlement likewise. A deal was entered into.
    Mr. Gilchrest. Mr. Kildee has the time.
    Mr. Kildee. We had some State-recognized tribes in Michigan 
and then they got Federal recognition. Federal recognition did 
confer upon them a higher status. What really puzzles me is 
that the court did say the provisions of IGRA did apply to the 
Narragansetts and you took that away from them and that puzzles 
me why you feel that the Indians of Rhode Island should be 
treated less than other Indians in this country. Let me ask one 
other question and then I will yield back to Mr. Kennedy.
    Senator Chafee. Can I answer that question?
    Mr. Kildee. Certainly.
    Senator Chafee. As I say, Rhode Island entered into an 
agreement and the court said that despite ensuing Federal 
recognition that agreement was valid.
    Mr. Kildee. But they said IGRA still applied.
    Senator Chafee. In most respects except for IGRA. Now if 
you look at the colloquy and what took place, it was our 
understanding when we approved of IGRA, that is, when Senator 
Pell and I voted for it, that pursuant to the Chairman's 
statements it was clear that this did not apply, did not in any 
way undermine the Rhode Island Land Claims Settlement Act. In 
other word, Rhode Island jurisdiction----
    Mr. Kildee. The court said you were wrong.
    Senator Chafee. The court said we were wrong.
    Mr. Kildee. Right, so you were wrong, you were wrong.
    Senator Chafee. The court said we were wrong.
    Mr. Kildee. The court said you were wrong and then you went 
back to try to remedy your mistaken impression when you voted. 
Let me ask this. Jack, you said that any group, that 
requirement applies to any group, any group. Now is a sovereign 
tribe just any group? Is a sovereign tribe the same as a Donald 
Trump corporation? Are you trying to lump a sovereign tribe 
into the Donald Trump corporation?
    Senator Reed. Well, under the State law, Mr. Kildee, any 
proponent, be it Donald Trump, the tribe, or local promoters 
would have to use the same procedure for the expansion of 
gambling.
    Mr. Kildee. The Federal law which protects Indians because 
we protect the sovereignty, we have an IGRA law. IGRA law does 
not apply to Donald Trump corporations but it does apply for 
the sovereign Indian nations and the court said IGRA applied to 
the sovereign Indian nation in Rhode Island and you used the 
late night provision to try to undo IGRA law which applies to 
sovereign tribes and not to Donald Trump corporations.
    Mr. Gilchrest. The gentleman's time has expired.
    Senator Reed. Let me respond to Mr. Kildee.
    Mr. Gilchrest. You may respond, Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Justice Holmes once 
said a page of history is worth 1,000 pages of logic. The 
history here begins with the Rhode Island Indian Claims 
Settlement Act. The First Circuit Court, the controlling 
authority in this matter, the decisive voice legally, said that 
Act still applies. It has not been repealed by implication, 
except for IGRA.
    The presumption, though, and I think this is important, the 
presumption that led to the agreement in 1978 between the tribe 
and the State was that the civil and criminal laws of the State 
would apply. The presumption when IGRA was being debated in the 
Senate was that these civil and criminal laws of the State 
would apply.
    In fact, at the Circuit Court level, as I mentioned 
previously, one of the judges, Judge Coffin who has been an 
eminent jurist in the region for decades, concluded by reading 
the colloquy that in fact IGRA would not affect the Settlement 
Act, that in fact under the Rhode Island Settlement Act the 
civil and criminal laws of the State would still apply.
    I think we get back to this point. The meeting of the minds 
in 1978 about the terms of this agreement and the status of the 
tribe always included the civil and criminal application of 
Rhode Island law.
    Now the First Circuit said IGRA has carved that out but not 
by a decisive margin, 2 to 1, and the language in the amendment 
essentially restores what the presumption was in 1978. The 
presumption was in 1988 that the civil and criminal laws of the 
State of Rhode Island apply as they would apply to any, in this 
case, promoter of gambling.
    Mr. Gilchrest. Thank you, Mr. Reed. Ms. Green, do you have 
any questions?
    Ms. Green. I have no questions.
    Mr. Gilchrest. Thank you. Mr. Kind.
    Mr. Kind. Thank you, Mr. Gilchrest. I will yield my time to 
Representative Kennedy for as much time as he desires.
    Mr. Kennedy. Thank you. I just want to followup with 
respect to the State still has every opportunity to say no to 
casino gambling. The people of the State can vote against it. 
There has to be a compact with the State. Under Senator 
Chafee's Rider they are preempted from even Class II gaming and 
that circumvents IGRA.
    Senator Chafee. This is absolutely right. That was the 
intention.
    Mr. Kennedy. Right, to circumvent IGRA.
    Senator Chafee. That is right. We believed what we were 
told when IGRA was adopted in 1988, that it did not preempt the 
rights--the civil and criminal laws of the State of Rhode 
Island in any respect, and subsequently the court decided that 
indeed it did preempt the laws of the State of Rhode Island as 
far as gaming goes, and that was not our original 
understanding.
    It certainly was not the understanding of Senator Inouye or 
Senator Pell or myself and we had a provision in the law at the 
time that would have clearly stated that Rhode Island was 
exempt from the provisions in IGRA.
    Mr. Kennedy. It never passed, Senator Chafee. IGRA passed.
    Senator Chafee. We withdrew that amendment because in 
return we got the assurances from the Senate in a way that that 
was--there was no need for it.
    Mr. Kennedy. Well, Senator Inouye has stated that 
assurances do not carry legal water.
    Senator Chafee. I know they do not.
    Mr. Kennedy. So IGRA is the law of the land.
    Senator Chafee. Absolutely.
    Mr. Kennedy. And the Federal Circuit Court upholds this. 
The Federal Circuit Court----
    Senator Chafee. The District Court and the Circuit Court 
subsequently, by a 2 to 1 decision, said that the settlement 
law did not prevail.
    Mr. Kennedy. That is right.
    Senator Chafee. And so there we were in a situation that 
none of us anticipated and so we sought to correct it.
    Mr. Weygand. OK, but Congressman, could I also respond to 
that just very briefly? As you well know with all the 
experience that you have had all of the statutes we pass here 
are amendable as when the Congress passed the Indian Settlement 
Act in 1988.
    At that time that was an amendment to the 1978 Act, as was 
the 1996 amendment an amendment. We can do that. This Congress 
can go back and forth. That is what you did last year--to 
approve what had been previously thought to be included.
    Mr. Kennedy. OK, so you are basically saying to me it is 
one upmanship because you got the last say on this because the 
rider now takes precedence because----
    Senator Chafee. No, I do not think that is correct. I do 
not think that is correct.
    Mr. Kennedy. Well, then what do you----
    Senator Chafee. What I think is correct is that what we 
codified the agreement of 1978 which everybody thought had 
always been included in every act since then.
    Mr. Kennedy. But you see the rub here is the Narragansetts, 
that we had a Federal law. It was passed because of this 
Congress' belief that under the Supreme Court of the United 
States, the Supreme Court of the United States said Native 
American tribes can use their sovereign rights to game, OK, so 
IGRA came in and said so. We cannot allow this to happen. We 
passed a Federal law. It affects all federally recognized 
tribes. Narragansetts are a federally recognized tribe.
    OK, so that supersedes. We used to have State's rights in 
this country, OK. States used to be able to say you could 
segregate against people, OK. Thank God for the Federal Civil 
Rights Act because you had superseding, the Federal law came 
and superseded State law. Now in the case of IGRA, IGRA 
supersedes State agreements and Senator Chafee's amendment that 
he believes wants to go back to 1978.
    But what I am telling you is in doing that he carves an 
exception out for the Narragansetts that denies them equal 
protection from every other tribe under a Federal law passed by 
the U.S. Congress.
    Mr. Weygand. And I would say there are really two things in 
response to that. No. 1, there are civil rights for the people 
of the State of Rhode Island and the second congressional 
district. The people of Rhode Island entered into a contract, a 
legal and binding contract which they thought was going to be 
fulfilled. After IGRA, it was reversed as you said so aptly by 
the District Court of Appeals. Under the Chafee amendment it 
was restored.
    So the argument is, is the legal and binding contract legal 
and binding? My point would be that it should really be settled 
in a court of law or negotiated with the Governor because 
tomorrow you could change the Chafee amendment and go back to 
what it was before, Patrick.
    Mr. Gilchrest. The time of the gentleman has expired. Mr. 
Markey, any questions?
    Mr. Markey. I just need to make some inquiries here. Is all 
that we are talking about here bingo? We are fighting over 
whether or not the Indian tribes can engage in bingo. Is it 
more or less than bingo?
    Mr. Kennedy. No, you are absolutely right.
    Senator Chafee. Well, one thing leads to another and as you 
know it is not just bingo, it is what we call high-stakes 
bingo. That is----
    Mr. Markey. What is high-stakes bingo?
    Senator Chafee. Well, I will have to get an exact 
definition.
    Mr. Markey. Are we talking about two bucks or $2,000?
    Senator Chafee. No, you are talking considerable sums more 
than that.
    Mr. Markey. I am honestly in doubt here as to what the 
discussion is. I am told that casino gambling and racetrack, 
all of that is out. That is not really what we are debating 
today. We are debating bingo. If that is accurate I would like 
to have the debate on those grounds and if high-stakes bingo is 
in question what is high-stakes bingo just so I can understand 
it.
    In other words, is high-stakes bingo something that looks 
so much like real casino gambling that you are concerned about 
it or is high-stakes bingo the way they do it at the Immaculate 
Conception----
    Mr. Weygand. I think it is a little bit different, 
Congressman. I think it is really the Class II gaming, which is 
a category which includes bingo amongst a number of other 
things. I think the discussion is not on one type of gaming 
although to their credit the Narragansett Tribe has said that 
bingo is really all they are interested in doing.
    Mr. Markey. But what else could they do under Class II 
gaming besides bingo?
    Mr. Weygand. The Governor is here in the next panel and I 
am sure he will be able to testify more specifically to that.
    Senator Reed. If I may respond.
    Mr. Markey. Yes, please.
    Senator Reed. The issue, the principal issue would be a 
bingo hall, high-stakes or whatever the stakes. But that would 
initiate a much more complicated discussion because of the 
First Circuit holding that the State of Rhode Island still has 
a quantum of jurisdiction, authority, sovereignty, if you will, 
as to the tribe over other aspects which would be intimately 
related to the development of any gambling facility, high-
stakes or otherwise, such as traffic control and zoning.
    Most of these issues have been not clarified, let me say, 
and in fact the court suggested in their opinion that any 
application would engender all of these issues. Let me also 
suggest because it has been discussed today several times about 
the fact that the tribe might be the only one in this position.
    Frankly, the Narragansetts' process of recognition, the 
Settlement Act, all of the understandings on both sides are 
unique. There is no other tribe that has the Rhode Island 
Indian Claims Settlement Act. There is no other tribe that has 
worked its way through the processes they have.
    So the suggestion that there is disparate treatment here 
also goes, I think, to the history of the whole process. And 
the point that we return to again and again is that the very 
understanding when this Act was agreed to, when the compact was 
agreed to, when the lands were ceded, when the settlements were 
made, when the payments were made, was that the civil, 
criminal, and regulatory authority of the State would extend to 
the tribe. Now that is where we are today. We are right back 
where we were in 1978, I believe, when the deal was struck.
    Mr. Kennedy. I just want to add----
    Mr. Gilchrest. I think the gentleman----
    Mr. Kennedy. Mr. Chairman, I wonder if the gentleman would 
yield. I would like to just followup. The tribe won Federal 
recognition based upon their own process which they sought for 
Federal recognition, OK. The Federal Government recognized the 
Narragansetts as a tribe and hence that is what applies here.
    It does not apply that they had the Indian Settlement 
Claims Act before. That might have applied previous but the 
Narragansetts were federally recognized and under the law if 
they are being a federally recognized tribe they have the laws 
of this Congress apply to them as applies to any other tribe so 
the Narragansetts are being singled out because they are the 
only tribe in this country that is being denied the rights 
under IGRA.
    And I might add IGRA puts a lot of provisions in there that 
forces them to comply with the State law so this notion that 
without the Chafee Rider the Narragansetts would be able to run 
amuck in the State without obeying State law is just nonsense. 
They have to comply with a lot of State laws and IGRA makes 
sure they do.
    So this notion that but for the Chafee amendment, thank God 
for the Chafee amendment because they would be able to run 
rampant. No way. IGRA states there are a lot of parameters 
among them. The tribe cannot conduct any casino-style gaming 
without the State's approval and without a voter--through a 
compact and without voter approval.
    Now the people of the State of Rhode Island have already 
said that they did not want gaming in the State so we stopped 
the Narragansetts from having a casino in the State so what----
    Mr. Gilchrest. Mr. Markey's time has expired.
    Senator Reed. I think I would like to respond. If you would 
stop with the District Court opinion of Judge Pettine, who 
effectively indicated that he felt that the Rhode Island Indian 
Claims Settlement Act was implicitly repealed by IGRA, your 
argument makes some sense.
    But the First Circuit specifically rejected that line of 
reasoning. They said that in fact the Rhode Island Indian 
Claims Settlement Act still applied. The contours of the 
application are very difficult to define now except for the 
portion of IGRA----
    Mr. Kennedy. Except for the portion of IGRA. Absolutely 
right, Jack. Except for IGRA.
    Senator Reed. But the point here is that I do not believe 
the court decision said simply by having become federally 
recognized that the Settlement Act was overthrown and thrown 
out. Your argument even that the passage of IGRA does not 
totally----
    Mr. Gilchrest. All time has expired. Thank you, Senator. I 
have one question of my own before we move to the next panel. 
It does not necessarily deal with the specific legal 
complexities of this particular issue. I am not sure if we are 
going to resolve those legal issues here this morning.
    However, the purpose of a democracy is to exchange these 
ideas which we are doing thoroughly and fairly well this 
morning. But my question is more of a curiosity question about 
existing law right now. Could one or all of the witnesses 
explain to me under existing law, under the law that now exists 
in Rhode Island which we are following, what are the options 
for the Narragansett Indians on this land as far as gambling is 
concerned? Are there any options?
    Senator Chafee. They have any option any citizen in the 
State of Rhode Island has. They can petition for high-stakes 
bingo. They can petition for casinos and like every other 
citizen it goes before the State--it is a State referendum 
statewide and also in the community.
    Mr. Gilchrest. Has that happened--has that petition----
    Senator Chafee. They sought once for casino gambling and 
were rejected and now they have gone back and they seek the so-
called Class II, the high-stakes bingo that was referred to 
before. And that is what went up before the Indian Gaming 
Commission and was rejected.
    Mr. Chairman, could I just ask if you might include in the 
record some documents of 1987 where they turned over, finalized 
the deeds that went to the Indians of some lands in Rhode 
Island and the interesting point I make here is that the Bureau 
of Indian Affairs in connection with all this clearly says that 
the Rhode Island Land Claim Settlement Act still applies.
    In other words, the suggestion from Representative Kennedy 
that somehow Federal recognition wiped away all the Land Claims 
Settlement Act of 1978, this clearly rejects this as did the 
court in the First Circuit.
    Mr. Gilchrest. Without objection, so ordered. Thank you, 
Senator. Congressman.
    Mr. Weygand. If I could just add on about what is the 
present law in the State of Rhode Island. In 1994, Mr. 
Chairman, the people of Rhode Island, as has been mentioned, 
rejected five referendum with regard to various gaming 
proposals for casinos--including the Narragansetts.
    At that time, they also passed a constitutional amendment 
which required that any expansion of gaming in the State of 
Rhode Island had to be approved by two groups of voters: one, 
the State as a whole, a majority of the voters had to approve 
of it, and also a majority of the voters within the community 
in which the facility was to be located. That is presently 
within the constitution of the State of Rhode Island.
    Mr. Gilchrest. Gentlemen, I thank you for testifying this 
morning. We have a vote. What we will do right now, if you 
would like the two Senators and the Congressman can sit up here 
on the dias and question the other witnesses. Since we have a 
vote, before we start the new panel we will take a recess and 
be back here and restart the hearing in 15 minutes. We stand in 
recess.
    [Recess.]
    Mr. Kennedy. [presiding] I would like to begin the hearing 
once again. On the second panel we have the Governor of the 
State of Rhode Island, a representative from the Department of 
Interior, and the Narragansett Indian Tribe being represented 
by Randy Noka, First Councilman.
    Now I would like to introduce the Governor of the State of 
Rhode Island, former U.S. Attorney, Lincoln Almond, for his 
opening statement. Governor.

 STATEMENT OF THE HON. GOVERNOR LINCOLN ALMOND, STATE OF RHODE 
                             ISLAND

    Governor Almond. Thank you very much, Mr. Chairman. As the 
Governor of Rhode Island, I appreciate the opportunity to 
appear before this Committee today to testify on behalf of the 
people of our State in favor of preserving the Rhode Island 
Indian Claims Settlement Act and the Chafee Amendment to that 
Act passed as part of Congress' 1977 Omnibus Appropriations 
Act.
    Our position that the Indian Gaming Regulatory Act must not 
apply to Settlement Lands of the Narragansett Indian Tribe is 
based on ensuring the integrity of the deal struck between the 
State and the Narragansetts with respect to State jurisdiction 
over that land. It is also based upon the strong and steadfast 
public opposition to the establishment of a casino by any 
group, Indian or non-Indian, within the borders of Rhode 
Island. It is not based on any animosity toward or prejudice 
against the tribe.
    In 1978, the Narragansett Indian Tribe expressly agreed to 
be bound by the civil and criminal laws of the State of Rhode 
Island with no exception for laws governing gambling. 
Subjecting the tribe's Settlement Lands to the same laws which 
apply to all other Rhode Islanders is not only just and fair, 
it is precisely what the tribe agreed to in exchange for 1,800 
acres of disputed land.
    The Rhode Island Constitution does not allow any expansion 
in the type or location of gambling in Rhode Island unless and 
until the voters approve. Thus, with the Chafee Amendment, the 
tribe, like all other Rhode Island interests, may only 
introduce new types or locations for gambling if the people of 
Rhode Island vote to allow it.
    The tribe obtained the Settlement Lands agreeing to be 
bound by Rhode Island law. The Chafee Amendment was thus 
necessary to ensure that the good faith agreement among the 
tribe, the State and the town in which the Settlement Lands are 
located was not wrongly breached by the Indian Gaming 
Regulatory Act.
    My administration has reached out to the tribe to discuss 
alternatives to casino gambling that would improve the tribe's 
economic opportunities. Early in my administration I did meet 
with the tribe. After passage of the Chafee Amendment, I sent 
correspondence on October 7, 1996, and January 6, 1997, to 
tribal leaders offering to work with the tribe on economic 
development and issues of mutual concern outside of gambling.
    Unfortunately, to date there has been no response. I am 
hopeful, however, that the tribe may yet work with my 
administration to attempt to find job opportunities and other 
assistance for its members. My offer to meet remains open. The 
Chafee Amendment was necessary to preserve the deal agreed to 
by the tribe in 1978 and sanctioned by Congress.
    Without it, a terrible wrong would have been inflicted on 
the people of Rhode Island. Although Rhode Island entered into 
a good faith agreement mandating that the Settlement Lands be 
governed by Rhode Island law, without the Chafee Amendment, the 
Indian Gaming Regulatory Act would have unintentionally 
subverted the Settlement Act's grant of jurisdiction to the 
State, directly contrary to the intent of all involved in the 
process.
    The Chafee Amendment represents a sound, fair and necessary 
public policy. If the tribe wishes to institute high stakes 
gambling, it can seek approval of the people in the same way 
that all other interests are required to do so under Rhode 
Island law. Insisting that the tribe follows the rules 
applicable to everyone else is not prejudice. It is fairness. 
It is upholding the law.
    It is not anti-tribe. It is anti-casino gambling. We should 
help the Narragansetts achieve economic self-sufficiency, but 
not through the siren song of gambling. The Chafee Amendment, 
like the Settlement Act itself, must remain undisturbed.
    This morning as I sat here, I heard statements that the 
Supreme Court ruled relative to the sovereignty of Indian lands 
and gambling which gave rise to the Indian Gaming Regulatory 
Act. That Supreme Court decision did not apply to the land of 
the Narragansetts in Rhode Island because of the Settlement 
Act.
    I have heard conversations here relative to whether this 
was going to be bingo and what type. The Narragansett Indians 
right now could do charitable bingo just like any other 
charitable organization in the State of Rhode Island. The issue 
is whether they would be regulated under State law with respect 
to high-stakes bingo.
    The reason we talk about bingo is when I became Governor I 
said I would not negotiate for casino. I litigated the issue of 
the prior compact so they went back to the issue of bingo. 
There is no question in my mind that the issue here is high-
stakes bingo unregulated by the State of Rhode Island on lands 
of the Narragansetts with slot machines next and the issue of 
litigation over gaming and casino gaming.
    And there are people out there, in my judgment, who support 
the Narragansetts and I think it is false support because they 
see it as the door opener to casino gaming in other areas of 
the State and they will compete once it is opened. The issue 
here I think is one of fundamental fairness and I might also 
add that there are other States right in New England including 
Maine that have tribes that are subjected to Settlement Acts 
that do not allow the Indian Gaming Regulatory Act to apply.
    I cannot speak for him but I think even the Attorney 
General of Massachusetts feels the same way, James L. 
Harshbarger, with respect to the Settlement Act of 
Massachusetts so we even have situations, I believe, where 
within the State there were some tribes who cannot have gaming. 
There are some who cannot because those tribes willingly 
negotiated that away as was done in Rhode Island.
    I prepared much more detailed written comments, Mr. 
Chairman, for inclusion in the record but I would be most happy 
to answer any questions on this particular issue. Thank you.
    [The prepared statement of Mr. Almond may be found at end 
of hearing.]
    Mr. Gilchrest. [presiding] I have been informed that the 
Governor of Rhode Island needs to catch a plane so if it is all 
right with everybody what we will do is we will ask him 
questions first. He can be on his way and then we can hear from 
the other two witnesses.
    Governor Almond. I appreciate that, Mr. Chairman.
    Mr. Gilchrest. Yes, sir. Senator Chafee.
    Senator Chafee. I have no questions.
    Mr. Gilchrest. Mr. Kennedy.
    Mr. Kennedy. Yeah, I just want to followup with the idea 
that the Indian Claims Settlement Act and the 1983 Federal 
recognition of the Narragansetts were one and the same. The 
Federal recognition in 1983 had to do with the process that has 
its own set of criteria and hence the Narragansetts won Federal 
recognition independent of the Indian Claims Settlement Act.
    Still hanging over from the last panel is this notion that 
we do not have any other way of stopping gambling in the State 
but for the Chafee Rider. And I want to ask you under IGRA 
there are provisions, would you not agree, to keep the 
Narragansetts from establishing a casino in this State?
    Governor Almond. I disagree with that wholeheartedly. I 
feel that IGRA, I think everyone knows my position and the 
Narragansetts have known my position on gaming since before I 
became Governor when I was United States Attorney, I think as 
strong as I may be with respect to my feelings on that issue 
that if I refuse to negotiate there would be a court order 
negotiation and there would be an agreement beyond my power and 
in spite of the Florida case.
    Mr. Kennedy. Do you know that the Seminole decision says 
that you do not have to compact and--in addition to that the 
State has----
    Governor Almond. I would not rely on that, Congressman.
    Mr. Kennedy. In addition to that then the voters of the 
State would have a right, am I----
    Governor Almond. Oh, no.
    Mr. Kennedy. To casino gamble, they would not have a 
right----
    Governor Almond. Once IGRA is in effect but for the Chafee 
Amendment if you place IGRA back then I would be forced to 
negotiate, I am sure, or there would be a compact approved by 
or written for the State of Rhode Island without me and it 
would give high-stakes bingo, it would give video poker, it 
would probably give--there would be a legal issue as to whether 
it would give coin drop slots.
    And I think a good argument if I were representing the 
Narragansett Indians I would take the position that the current 
gaming in Rhode Island which we are trying to restrict would 
give rights to a full casino. There is no question in my mind 
about that.
    Mr. Kennedy. Well, just to--I am sure I can get some other 
people who can comment to the Supreme Court Seminole decision 
but it says pretty clearly that barring a compact with the 
Governor and when you did compact even after that you would 
have to have voter approval of the State and----
    Governor Almond. I disagree with that. I think it just 
merely says that they cannot force me to negotiate but they can 
force a compact upon the State of Rhode Island. They can do 
that any time.
    Mr. Kennedy. Well, in that case why don't tribes that 
currently--why can't they just establish Class III casino 
gaming if they can just override----
    Governor Almond. Because the Governors enter into 
negotiations because that is the best thing to do. If they 
refuse to enter--I do not think a Governor can refuse to enter 
into negotiations even though the Supreme Court says they can 
refuse and eliminate gambling under IGRA in this State. I mean 
that cannot be done.
    Mr. Kennedy. Well, if this is the case and there was no 
reason for everyone to support, Congress to support IGRA's 
means to check the prior Cabazon decision because the whole 
notion of IGRA was to put the brakes on the Cabazon decision by 
allowing the States the authority to compact and to if they 
wanted to eradicate gaming altogether in the State to do that 
and make those--as IGRA points out, any law that is criminal 
with respect to this gaming has to be adhered to by the tribes 
that are seeking to game within the State.
    Governor Almond. Oh, I disagree with that because, but for 
the Chafee Amendment, no citizen of the State of Rhode Island 
can have charitable bingo with limitations or I should say no 
State can have high-stakes bingo. They are subject to the 
charitable. But under IGRA you are not subject to the criminal 
and civil regulatory of the----
    Mr. Kennedy. All right, good point. I agree with you there. 
I agree with you there but that is a different argument from 
the casino case that you were just saying--it is different.
    Governor Almond. I do not see that as different at all.
    Mr. Kennedy. OK. All right, you may not, but they made a 
distinction between the two classes and that was codified under 
law.
    Governor Almond. But you see we allow charitable bingo so 
therefore you get the basis for going into bingo without the 
regulation which then becomes high-stakes bingo but we have 
more than bingo. We have other types of gaming which I think 
was a terrible error in the State of Rhode Island.
    Mr. Kennedy. I agree with you, Governor. I voted the same 
way.
    Governor Almond. But I am trying to reduce business taxes, 
trying to reduce personal taxes, trying to build the economy of 
the State of Rhode Island to create jobs. When we are 
successful all those things will start taking away our reliance 
on any gambling revenues but we have got to take one step at a 
time. I understand the system. I live with it.
    Mr. Gilchrest. Thank you, Mr. Kennedy. Ms. Green, any 
questions?
    Ms. Green. I am still trying--not being an attorney I am 
still trying to figure out the legalese of this. I can say that 
I truly have a question. I really--I am perplexed as to why 
some sort of an agreement cannot be worked out between the 
tribe and the administration in the State.
    You said, Governor, your objection is to casino gaming but 
it was my understanding from the prior testimony that casino 
gaming was not the issue, it was the Class II gambling. Are you 
willing to negotiate----
    Governor Almond. I am in opposition to casino gaming.
    Ms. Green. But it exists already, there is Class II gaming 
in the State or Rhode Island?
    Governor Almond. With severe limitations on it.
    Ms. Green. Are you able to negotiate with the tribe on what 
already exists in the State of Rhode Island?
    Governor Almond. I do not have a right to that today with 
the limitations on the criminal and civil laws of the State of 
Rhode Island being applicable. They are on the same footing as 
every citizen in the State of Rhode Island.
    Mr. Kennedy. Could I ask the gentlelady to yield?
    Ms. Green. I yield to my colleague to followup on that 
question.
    Mr. Kennedy. Thank you. The whole--I appreciate what has 
been said by the former panel and you, Governor, with respect 
to they have the same rights and we keep going back to that, 
but the whole notion here unless you accept it or not is that 
there is something called tribal sovereignty and they should 
not be held simply to the same laws because they are their own 
sovereign status.
    Now they do not have all the sovereignty of the world but 
they have more than not. They are here on a government to 
government relationship just as you as the Governor of the 
State is here and that is the rub here because we want to treat 
them as if they are regular citizens of the State but yet they 
are a federally recognized tribe with rights and privileges as 
a federally recognized tribe that we are circumventing as a 
result of the Chafee Rider and that is just that simple.
    Governor Almond. But do not single out the State of Rhode 
Island. Are you going to tell all the other States that have 
valid Settlement Acts that were not preempted that you are 
prepared to repeal them?
    Mr. Kennedy. Governor----
    Governor Almond. Are you going to tell the State of Maine 
that even though they agreed in a settlement that there would 
be no application of IGRA that you are prepared without the 
wishes of the people of Maine to repeal it if that is what has 
occurred in Rhode Island?
    Mr. Kennedy. No.
    Governor Almond. There was never an intention in Rhode 
Island that IGRA preempt the Settlement Act of 1978 and I have 
to assume although I was not present that everyone who agreed 
in 1978 agreed to make an agreement that would subject the 
tribe to the civil and criminal laws of the State of Rhode 
Island well knowing that they could go one step beyond and go 
to trust status. I mean everyone had to know that.
    Mr. Kennedy. Right.
    Governor Almond. I would be shocked if everyone at the 
table did not know that could occur. The fact of the matter is 
there was an agreement, a binding agreement approved by the 
Congress just like it has been done for many other States. You 
cannot single out the State of Rhode Island and say, hey, OK, 
because of technicalities and false assurances on the Floor of 
the Congress that it was not going to be preempted, that you 
are now going to turn around and say, hey, you know, you are 
going to have to reach this agreement with Congress.
    Mr. Kennedy. OK, so they would be subject to the same laws 
as the State of Rhode Island and retain some sovereignty as a 
result of the Federal recognition. The State of Rhode Island 
allows Class III gaming and Class II gaming and yet the 
Narragansetts would not even be allowed to participate in any 
kind of gaming as a result of the Chafee Rider. They would be 
precluded so in essence they would not----
    Governor Almond. And every other Rhode Islander as it has 
been since the voters of the State of Rhode Island amended the 
constitution of the State of Rhode Island because of their 
problems with this particular issue.
    Mr. Kennedy. OK, the whole point here is they are not 
regular citizens. That is the thing we are trying to get across 
here. By virtue of them being tribal members, by virtue of 
their being a federally recognized tribe, I do not know what 
you would give them if you took this away. What sovereignty do 
you acknowledge they have if you are not going----
    Governor Almond. I am willing to sit down with the 
Narragansetts at any time that the Narragansetts----
    Mr. Kennedy. Why, they are just a constituent?
    Governor Almond. The Narragansetts and I--when I first met 
with the Narragansetts it was not to discuss gaming because I 
had to be very cautious about opening up negotiations under 
IGRA but the Narragansetts were gracious enough to acknowledge 
my opposition, strong opposition, to casino gaming and to meet 
with me in an agreement not to discuss casino gaming.
    I am willing to do that tomorrow. Let me say this, we need 
the help of the Congress of the United States with respect to 
this. I was the United States Attorney for 21 years. I know the 
problems with the Bureau of Indian Affairs. I know the problems 
of this nation with respect to Indians. Let me say this, can I 
give you solutions tomorrow? No, I cannot. I do not think 
anyone on this panel can.
    But I can tell you as the Governor of the State of Rhode 
Island I am willing to do everything that I possibly can to 
help the Narragansetts.
    Mr. Gilchrest. Thank you, Governor. Ms. Green's time has 
expired. Mr. Weygand. No questions. Mr. Kildee. Did you have 
questions, Mr. Weygand?
    Mr. Weygand. Just quickly. Governor, is it not also your 
intent to try to minimize, reduce or even eliminate the 
existing gaming within the State or Rhode Island?
    Governor Almond. Since I have been Governor I have tried to 
do my best to reform the lottery which was not being operated 
in the best interests of the State of Rhode Island. I am 
personally being sued for damages as a result of doing that. I 
have litigated the issue of expansion of TV bingo and we won 
that.
    I have just written letters opposing the expansion of 
gambling in two facilities in Newport and Lincoln Downs and I 
write that not because of this hearing because I strongly 
believe in it and I believed it all my life. I have voted 
against greyhound racing in my own community which gives me 
additional revenue and they can take it as far as I am 
concerned.
    I have seen the other side and I know the Chairman said he 
did not want to debate the issue of gaming but I have to say 
that I saw the other side for 21 years and it is not a pretty 
picture.
    Mr. Weygand. Also, Governor, is it not true that since the 
Lincoln facility--for those who are not familiar, in Rhode 
Island there are two facilities. One is in Lincoln, Rhode 
Island, which is a dog track which has video slot machines. The 
other is in Newport which has Jai Alai and since those two 
facilities have existed, which goes back to the 1970's, no new 
facilities have been approved by the voters or by the General 
Assembly.
    Governor Almond. One of them goes back to the 1940's. We 
have one major track which is a greyhound track which started 
as thoroughbred back in the 1940's, I believe. When the siren 
song of gambling declined and horse racing went out, we had two 
major tracks to rely on that went under and then it became 
greyhound.
    Let me say this. Greyhound racing in my judgment would not 
even be sustained in the State of Rhode Island if it had not 
been for the addition of video poker. It has been declining 
that badly and neither would Jai Alai.
    Mr. Weygand. And actually in 1990 the voters voted to 
disapprove a new facility in Burriville, Rhode Island, with 
regard to----
    Governor Almond. And we have the lottery.
    Mr. Weygand. So what I am getting to is that both your 
executive policy, as a person of the other party as well as the 
Democratic General Assembly for the last 20 to 25 years, has 
been to reduce and minimize gaming in the State of Rhode 
Island.
    Governor Almond. With the exception of video poker which we 
disagreed with but it has been. It has not been successful in 
my judgment.
    Mr. Gilchrest. Mr. Kildee.
    Mr. Kildee. Governor, would you personally like to get rid 
of all gambling in the State or Rhode Island?
    Governor Almond. Yeah, I do not think it is good economic 
development. I do not think it brings any money into the State. 
I think it just reshuffles jobs and hurts jobs.
    Mr. Kildee. Have you thought of Michigan--I watched the 
legislature and I voted against it. I voted against the 
Michigan lottery. But Michigan had all forms of gambling for 
over 100 years and then they went into the lottery and lottery 
commission.
    Well, if that was still the case and the Indians in 
Michigan could not game, have you--you personally would like to 
see all gaming stopped in Rhode Island?
    Governor Almond. When I say all gaming let me say this. I 
used to play my father a game of cribbage once in a while for a 
dime. He enjoyed the competition. The last game, a dollar. I do 
not have a problem with, for instance, reasonable regulated 
bingo where people use it for enjoyment. You know, I have seen 
the other side. I have seen businesses go under as a result of 
gaming.
    Let me tell you this. In 21 years as United States Attorney 
I cannot remember a major embezzlement case of a Federal bank 
that was not caused by gambling. I cannot remember one. We used 
to trace it.
    Mr. Kildee. So you would not be prepared to propose an 
amendment to the constitution banning all gaming?
    Governor Almond. To the Rhode Island constitution?
    Mr. Kildee. Yes.
    Governor Almond. As soon as we can get the State 
economically in order I would strongly move toward--first of 
all, we do not want to expand one iota more than we got and I 
would like to see the restrictions take place and start 
shrinking it.
    Mr. Kildee. You would like to get some other form of 
revenue first and then get rid of the----
    Governor Almond. Well, we got to make our choices. Right 
now I am trying to put money into investment job credits, 
research and development, high module income tax to get it down 
to build jobs. I think we are being successful. The whole issue 
here is building the economy. That is the issue.
    But I am going to tell you that down in--when I look ahead 
and my vision of Rhode Island does not depend upon gaming 
revenues.
    Mr. Kildee. I yield to Mr. Kennedy.
    Mr. Kennedy. Thank you. Well, you know, Governor, the 
Narragansetts have got to make some decisions too and their 
people are 40 percent unemployed and so it is all fine and well 
for the State to say, well, we will still collect the gaming 
revenue till we end it but, you know, because we do not want to 
give up the ability to fund a lot of the things that we want to 
fund for our State citizens but you can see the double edged 
sword here and they are not allowed to do gaming either.
    And the fact is we grandfathered in Lincoln and Newport and 
yet the Narragansetts have been around a lot longer than 
Lincoln and Newport. If we were to grandfather anyone and I 
think this is the spirit of the law in terms of respecting 
sovereignty, we grandfather in the Narragansetts. They have 
been around longer than we have in this area so it is just to 
me we do have to recognize tribes as having some separate 
standing. And I still have not----
    Governor Almond. There is no doubt in my mind that at some 
point if you repeal the Chafee Amendment you will have a casino 
in that area and you will also have casinos in other areas. 
There is no doubt in my mind about that. Absolutely none. And 
you will have a State with several casinos. Whether the Indians 
would ever succeed, whether the Indians would ever succeed 
against that type of competition is very problematic. They may 
not.
    I do not think anyone, for instance, is ever going to 
compete with Fox Woods because it would require a $1.6, $1.7 
billion initial investment to even get on an even footing. But 
the issue is that South County where the Narragansett Tribe is 
located is doing very well economically right now and I think 
we are going to do better but let us look to job training, let 
us look at the issues of the relationship between the 
Narragansetts and the town of Charlestown.
    Let us look at some of the things that they would like to 
do from the standpoint of economic development. Let us look at 
the university. Let us look at the School of Oceanography. That 
gets a lot of money. Let us look at a tone of things. I do not 
know whether any of them would work but let us look.
    Mr. Gilchrest. Mr. Kildee.
    Mr. Kildee. I yield back the balance of my time.
    Mr. Gilchrest. Mr. Chafee, Senator Chafee.
    Senator Chafee. Governor, if I understand the line that 
Representative Kennedy is pursuing here is that something very 
significant happened when the tribe was given Federal 
recognition and that in effect the agreement that was entered 
into in 1978 was overridden. And I have great difficulty in 
understanding that argument and wanted to get your thoughts 
about what the Circuit Court said, what the BIA said.
    And in the documents that it signed and that the 
Narragansett Indian Tribe signed in 1978--long after the 
recognition of 1983 went through--all these documents, which 
are signed September 12, 1988, clearly say that this action 
does not alter the applicability of State law conferred by the 
Rhode Island Indian Claims Settlement Act. Now do you agree 
with that or do you----
    Governor Almond. I would simply say that I think the 
Settlement Act of 1978 was recognized as a model. I think that 
everyone who went to the table and negotiated with open eyes, I 
assume everyone at the table knew that you could take those 
lands to other steps but I think they negotiated obviously--I 
cannot imagine the State of Rhode Island negotiating to put 
language in that they knew very shortly was going to be 
nullified.
    I cannot imagine anyone in good faith thought that any 
further actions and that has been--whether we argue about that 
or not that has been positively absolutely settled by the First 
Circuit Court of Appeals with the exception of gaming and that 
is the preemption. That is the preemption issue and we feel 
that that was wrong.
    It was not intended by IGRA and we feel that the State of 
Rhode Island ought to go back to the deal we made. We made a 
deal for 1,800 acres of land. The State of Rhode Island did, 
the town of Charlestown did, and where I come from a deal is a 
deal.
    Senator Chafee. Governor, one correction I would make. You 
indicated in your statement that there were false, I think you 
used the word false inadvertently about the statements in 
connection with the agreement as we understood it in 1988.
    The statements that were made were not----
    Governor Almond. Yeah, I do not intend to say that. I 
suffice it that I misspoke. I think everyone has the best of 
intentions and I think everyone has to take a look at the past 
and take a look at the future but I do not think anyone here 
acts in bad faith or anything like that.
    Senator Chafee. I just wanted to correct that.
    Governor Almond. I am sorry.
    Mr. Gilchrest. Thank you, Senator Chafee. Governor, I just 
have one quick question and we will let you fly off in safety. 
Could you explain your feelings, the statements you made if 
high-stakes bingo were to be approved it would lead to casino 
gambling, can you explain that, sir?
    Governor Almond. I think this all comes about because of 
the uncertainty relative to the requirement to negotiate casino 
gaming. They do not have to negotiate. So if you take me out of 
the picture then you go into the Class II with respect to high-
stakes bingo. That of course would be permissible without the 
Chafee Amendment in the State of Rhode Island without 
regulation or not subject to the regulatory powers of the State 
of Rhode Island so it would be unlimited. So I think we talk 
about that as a given.
    If you take away the Chafee Amendment high-stakes bingo is 
a given. The next issue is what you do with respect to other 
issues of gaming, whether the Governor negotiates or not and I 
think I know where that would go, which road that would go 
down.
    Mr. Gilchrest. Thank you very much, Governor. We wish you 
well on your journey.
    Governor Almond. Thank you very much and I really 
appreciate the opportunity to speak and answer questions first 
so that I can get back for State business. Thank you.
    Mr. Gilchrest. Yes, sir. Our other two witnesses, David 
Hayes and Randy Noka. Did I pronounce that correctly? I 
appreciate your patience here this afternoon. Mr. Hayes, you 
are now recognized for 5 minutes.

 STATEMENT OF DAVID HAYES, COUNSELOR, SECRETARY OF THE INTERIOR

    Mr. Hayes. Thank you, Mr. Chairman, and members of the 
Committee. My name is David Hayes. I am counselor to the 
Secretary of the Interior and I am appearing today on behalf of 
the Secretary. I have submitted a short written statement and I 
understand it has been added to the record of the hearing.
    I would like to supplement the written statement with a few 
oral remarks. First, I would like to make it clear that the 
Administration remains opposed to the provision of the 1997 
Omnibus Appropriations Act which classifies Indian lands in 
Rhode Island as non-Indian lands for purposes of the Indian 
Gaming Regulatory Act.
    Secretary Babbitt stated his opposition to this provision 
in the September 12, 1996, letter to the Senate and his 
position remains the same today. The Administration's position 
is based on two principal factors. First, the Administration 
strongly supports full and even-handed implementation of the 
Indian Gaming Regulatory Act.
    Since 1988 Indian gaming regulated under IGRA has provided 
substantial benefits to a large number of tribes. As required 
by law, revenues have been directed to programs and facilities 
to improve the health, safety and educational opportunities and 
quality of life for Native American peoples. More than 100 
tribes across the Nation participate in gaming activities. I 
should note parenthetically that despite the importance of 
gaming to the Native American community no more than 5 percent 
of the overall gaming revenue generated in the United States is 
attributable to Indian gaming.
    Second, the Administration strongly supports the 
sovereignty of Indian tribes and the special relationship 
between tribes and both Federal and State governments. IGRA 
reflects the principles of tribal sovereignty by recognizing 
that Indian tribes have special rights as sovereign nations to 
conduct gaming activities. IGRA also recognizes the legitimate 
interest of States vis-a-vis gaming but it establishes certain 
ground rules that apply across the board in governing the 
Indian and State relationship.
    Under IGRA, for example, if a State allows Class II gaming 
within its borders it cannot deny Class II gaming rights to 
Indian tribes. And if the State has made the policy choice to 
allow Class III gaming activities it must negotiate in good 
faith with tribes to allow tribes to also potentially take 
advantage of Class III gaming activities under a tribal-State 
compact. The compact process allows for extensive input from 
tribes, States, Governors and other public officials.
    Section 330 of the Omnibus Appropriations Act effectively 
precludes the Narragansetts Tribe from enjoying the same 
sovereign rights and benefits as other tribes. Indeed, this is 
the case even though the State of Rhode Island allows a range 
of gambling and gaming activities to non-Indians. Yet the 
Narragansetts are not allowed as a matter of right to conduct 
Class II gaming nor are they allowed to undertake the good 
faith negotiation process laid out for Class III gaming 
activities under IGRA.
    The Administration believes that the withdrawal of the 
Gaming Act's benefits and the singling out of the Narragansett 
Tribe in this way is inappropriate. We recommend that the 
provision be repealed.
    I would like to make a final note regarding the interplay 
between the 1978 Rhode Island Indian Claims Settlement Act and 
the 1988 Indian Gaming Regulatory Act. We are mindful and 
respectful of the views of the members of the Rhode Island 
delegation regarding their views on the original intent of 
certain language in the Rhode Island Indian Claims Settlement 
Act. However, we must defer to the First Circuit's decision on 
the question of whether the language of IGRA supercedes the 
language of the Settlement Act. The First Circuit found that 
the language of IGRA controls and that the tribe's rights as 
sovereign to negotiate with the State on gaming issues 
particularly in light of the State's current policies 
permitting a wide range of gaming for non-Indians should not be 
denied. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hayes may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you, Mr. Hayes. We have a vote but we 
will go to Mr. Noka before we leave. Mr. Noka.

STATEMENT OF RANDY NOKA, FIRST COUNCILMAN, NARRAGANSETT INDIAN 
                             TRIBE

    Mr. Noka. Thank you, Mr. Chairman. I have no problem if you 
guys want to go vote and come back. I do not know if I put 5 
minutes of testimony down for hundreds of years of atrocities. 
I will defer to the Chairman if you want to go vote.
    Mr. Gilchrest. I think we can begin with your testimony and 
certainly when we come back if you have not completed you may 
do so but you will certainly be given plenty of time to answer 
questions from the members.
    Mr. Noka. OK, well, I will make my testimony itself, sir. 
OK.
    Mr. Gilchrest. Mr. Noka.
    Mr. Noka. Good afternoon, Mr. Chairman, members of the 
House Resources Committee, ladies and gentlemen. My name is 
Randy Noka. I am the First Councilman of the Narragansett 
Tribe, federally recognized Narragansett Tribe, of Rhode 
Island. I am testifying on behalf of our tribal government, the 
Tribal Council, and the more than 2,000 men, women and children 
who are today's Narragansett Tribe. I am joined here by Tribal 
Medicine Man Lloyd G. Wilcox and tribal attorney Charlie Hobbs 
of Hobbs, Straus, Dean & Walker.
    I want to thank Chairman Young for holding today's hearing 
on the Chafee Rider to the Omnibus Appropriations Act, passed 
last September. I also want to again thank Congressman Patrick 
Kennedy for his courage and determination in making today's 
hearing a reality.
    Had he not spoken out on our behalf and called attention to 
the injustice perpetrated against us by our own Senator, we 
would not be here today. We know that Congressman Kennedy does 
not support gambling in Rhode Island, but he has shown to us 
that he recognizes and supports the inherent sovereign rights 
of the Narragansett Tribe and the rights of Indian country.
    Last, I acknowledge and thank the many Narragansett members 
and other Native Americans as well as our non-Native friends 
that made the trip to be here today. Your presence is proof 
that solidarity is alive in Indian country, that the spirit of 
the Native American can never be squashed, that although they 
have illegally taken our lands and continually trample on our 
rights they will never be able to take away the essence of who 
and what we are.
    Any lesser people could not have survived as we have. Mr. 
Chairman, we do have exhibits that we will be entering into the 
record. I would like to mention particularly Exhibits K, Q, R, 
and U. U in particular is a petition that has over 3,000 
signatures signed by--almost 3,000 signatures signed by Rhode 
Islanders in support of the Narragansett Tribe in support of 
what we are trying to do and opposing Senator Chafee in his 
attack, discriminatory attack, on the Narragansett nation.
    It is important for me personally I think to point out that 
some of the people that were signing the petition did not even 
care what it said, they just supported the tribe and they 
opposed what was done to us. They did not even have the time 
but they did support the tribe and in that respect signed the 
petition.
    I will get right to the point, sir. We are here today to 
talk about sovereignty and what it means to us and all Native 
Americans. Particularly we are here to discuss how the 
sovereign rights of the Narragansett Tribe were attacked last 
year by what we termed the Chafee Rider. We are here to talk 
about the total injustice that have been and are continually 
perpetrated against the aboriginal people of this land.
    We are here to talk about how our constitutional rights, 
including the Equal Protection Clause, were abrogated last 
year. A personal note is how Senator Chafee brought his 
legislation last year. The fact is the courtesy you have given 
here today, Mr. Chairman, to Senator Chafee and Representative 
Weygand, my understanding is they are not members of this 
Committee, but you gave them opportunity to listen to the 
testimony we have and others and question the panel.
    We did not get that chance last year. We never had the 
chance. We never got the chance. He did not give it to us. His 
colleagues on the Senate Floor over here and the House. If we 
had that chance last year, if he brought it the way it should 
have been brought, we would not be here today. We are confident 
we would have had the votes to go in favor of the Narragansett 
Tribe.
    The aboriginal people of this land are a proud people. We 
have never lost touch with our identity, our heritage and our 
culture. We have survived efforts to assimilate us into non-
Native society. We have survived efforts to annihilate us. 
Throughout history we have always persevered. Chief Justice 
John Marshall once said, ``America is separated from Europe by 
a wide ocean and was inhabited by a distinct people divided 
into separate nations independent of each other and the rest of 
the world, having institutions of their own and governing 
themselves by their own laws. It is difficult to comprehend the 
proposition that the inhabitants of either quarter of the globe 
could have rightful original claims of dominion over 
inhabitants of the other or over the lands they occupy or that 
the discovery of either by the other should give the discovered 
rights in the country discovered which are no pre-existing 
rights of the possessors.''
    Unfortunately, since these words there has been mostly 
hardship, lies and inhumane treatment shown the aboriginal 
people by the dominant society. Governor Almond spoke of a deal 
as a deal. That is what Native Americans thought. Hundreds of 
treaties have been signed by officials of the U.S. Government 
supposed for the benefit of our people. All have been broken 
and not honored by the U.S. Government.
    To add insult to injury Senator Chafee expects us to honor 
what is in essence a treaty that we--let me take that back, a 
corporation, mind you, signed with the State of Rhode Island, 
not the Narragansett Tribe, the 1978 Settlement Act. That is in 
essence a treaty and Senator Chafee expects us to honor that 
while at the same time accept the fact that each and every 
treaty that the U.S. Government signed with native people were 
broken and abrogated.
    Selective memory serves only the owner of that and it 
always has with it a blind eye and a deaf ear. Will the U.S. 
Government ever fully acknowledge and honor the commitments and 
obligation it has to the aboriginal people of this land? Will 
the injustices and double standards ever stop? Will we finally 
be treated with the respect due us but never truly get?
    The cold war may be over but America continues to be at war 
with its own people. The plight of the Narragansett Tribe is 
not unique in this country. The aboriginal people have forever 
been persecuted and paying the price for the wanton ways and 
disregard for others that the dominant society continually 
lives by.
    The history of the Narragansetts is stained with the blood 
of our ancestors that were killed or died trying to protect our 
land and our way of life. The Chafee Rider holds that our 
settlement lands, aboriginal lands, belonging to us before 
first contact with Europeans and held today for us in trust 
with the United States ``shall not be treated as Indian 
lands.''
    For Senator Chafee to indicate that our settlement lands 
are not Indian lands flies in the face of history and shows his 
disregard for us and the heritage that is ours. Our lands have 
been the stamping grounds for the Narragansetts since time 
immemorial. At no time within the memory of man have our lands 
been anything but Indian lands regardless of how it may have 
been taken from us or how it is defined in your law books.
    More than 300 years ago our ancestors were massacred by 
colonial militia during the King Philip's War. Their sole crime 
was that they were Narragansett Indians. They were killed 
because of suspicion, fear, bigotry and ignorance. Our 
ancestors were killed with bullets. Today we are wounded with 
pen and paper and convenient changes of your laws. Both are a 
form of genocide.
    We cannot help but wonder if these same unjustified courses 
were driving the Chafee Rider. The simple truth is that Senator 
Chafee uses political power and privilege to stop us from 
opening a bingo hall on our trust lands after we had 
established our right in a court of law to conduct gaming on 
our tribal lands under the Indian Gaming Regulatory Act.
    A bingo hall, Mr. Chairman, not a Las Vegas, Atlantic City 
or Foxwood-style casino as Senator Chafee and Governor Almond 
and others keep repeating, but a plain bingo hall. But our 
anger and dismay over this Chafee Rider is not so much about 
gaming. Even more profoundly, it is about a disrespect for a 
sovereign Indian tribe, disregard for the government-to-
government relationship that we have had with the United 
States, and for the responsibilities with the United States 
assumed, as a trustee, to protect Indian tribes.
    It is about discrimination against Native Americans by a 
Member of Congress. It is about fairness and responsibility, 
and the obligation of this Congress to treat all people, 
including Native Americans, with dignity and respect. We 
Narragansetts were not treated with dignity and respect by the 
104th Congress. We were not treated fairly.
    In 1983 the Narragansett Tribe was acknowledged by the 
United States as a federally recognized Indian tribe, possessed 
with all the privileges and immunities of other federally 
recognized tribes. Unfortunately, Federal recognition brings 
with it many new problems that tribes must deal with to protect 
our sovereign rights. The Narragansetts are no exception.
    Every project that we have attempted on our reservation was 
met with opposition from either local, State or on occasion 
Federal officials. Some examples would include the tribe's 
elderly housing project, our Indian health clinic, our Four 
Winds Community Center, and of course our gaming project. 
Senator Chafee's Rider, though a blatant attack on our 
sovereignty sets a terrible precedent by which other Members of 
Congress could follow, does target and impact our gaming 
rights, rights under the IGRA that were affirmed by the Federal 
District Court of Rhode Island and the First Circuit Court of 
Appeals.
    Your court decisions held that the Narragansett Tribe had 
the right to bring gaming to our reservation under Federal law. 
That, however, mattered little to Senator Chafee. Unemployment 
among our members is nearly 39 percent, six times the rate of 
Rhode Island's. According to the 1990 Census, Indians in Rhode 
Island have a per capita income of about $9,000, which is 44 
percent less than the average in Washington County, Rhode 
Island where the tribe's reservation is located.
    25 percent of the State's Indian population live at or 
below the poverty level, compared to 6.8 percent for Washington 
County, Rhode Island. Roughly 30 percent of the tribe's 
potential labor force earn an income of less than $7,000. Under 
the IGRA, the tribe's gaming facility would have provided the 
mechanism by which we could better provide government services 
and jobs to our members.
    Gaming, by the way, is pervasive in Rhode Island and this 
government benefits as ours would under the IGRA. Our written 
testimony will show you that. I spoke earlier about our bingo 
plans. What I did not mention was that despite what has been 
said or will be said today by the other side the good citizens 
of Rhode Island endorsed our bingo plans by Charlestown Council 
Resolution, a copy of which is submitted. Hardly opposition, is 
it?
    The fact is the tribe met every challenge raised regarding 
our bingo plans, including environmental concerns. An expert is 
available to testify if the Committee desires. Incidentally, 
the courts have decided the issue of sovereignty and gaming in 
the State of Rhode Island and the Narragansett Tribe and we 
won. We won in District Court, we won in the appellate court.
    The Constitution of the United States gives Congress 
plenary power over the field of Indian affairs, wherein the 
United States has taken a trust responsibility, a 
responsibility which the United States and this Congress cannot 
disregard whenever it is politically expedient to do so. There 
exists a unique government-to-government relationship between 
the United States and all federally recognized Indian tribes 
which should not be trampled upon simply because one powerful 
Member of Congress wishes to do so.
    We are distressed that this Congress, by enacting the 
Chafee Rider, could act so contrary to these principles, 
principles which form the foundation of Federal Indian law as 
we know it today and the obligation of the United States to 
protect and preserve tribal sovereignty.
    The Chafee Rider, and the manner in which it was passed, 
was ill-conceived legislation and it is a throw back to the 
dark chapter of this nation's history in the treatment of 
Native Americans. Our interests were not considered and only 
the interests of the governing elite and their friends and 
cohorts mattered. Is this how the U.S. Congress wants to act 
toward Native American people?
    We fought for many years to establish our legal right to 
exercise our sovereign rights on our lands, lands wrongly taken 
from us many years ago. The State of Rhode Island, its 
Governor, attorney general, and Senator Chafee were given every 
opportunity to make their case to the Federal courts. We 
prevailed, fairness prevailed, decency prevailed.
    The nation made a policy decision more than a generation 
ago to encourage tribal self-determination and self-sufficiency 
to end the cycle of Federal dependence. Congress recognized it 
when it passed the IGRA that the revenues from gaming often 
means the difference between an adequate governmental program 
and the skeletal program that is totally dependent on Federal 
funding.
    One last point about Senator Chafee to once again show why 
we feel justified in how we feel we were discriminated against. 
In September 1996 just before his prejudicial rider was passed, 
he very briefly met with tribal representatives. During the 
meeting Senator Chafee looked directly at me and stated, and I 
quote, ``I will do whatever I have to do to keep you people 
from gaming.''
    He certainly did not care about our rights or was he 
concerned as he has argued about the rights of Rhode Islanders. 
When you consider these issues now explained to you for the 
first time you can only conclude that the Chafee Rider goes too 
far, that it reflects poorly on the honor of the United States 
and this Congress, that it should never have been passed, and 
that it should be repealed as soon as possible.
    Do not permit this dark stain of this nation's treatment of 
Native Americans to remain. Rather, treat us with the same 
dignity and respect you would afford any other American. Thank 
you.
    [The prepared statement of Mr. Noka may be found at end of 
hearing.]
    Mr. Kennedy. [presiding] Thank you. I first would like to 
ask Mr. Hayes representing counsel from the Department of 
Interior what your feeling is on the discriminatory nature of 
this rider with respect to singling out one tribe from all the 
others and thereby violating the Equal Protection Clause of the 
Constitution. Mr. Hayes.
    Mr. Hayes. I guess, Mr. Chairman, I would like to answer 
the question by going back to IGRA and the concept of IGRA 
which was to establish some ground rules that would be applied 
across the board for Indian gaming issues. The legislation was 
a compromise and reflects a balancing of the sovereignty of 
Indian nations and the legitimate interest of States. The 
Department of Interior is concerned whenever IGRA is not 
applied equally across the board.
    Mr. Kennedy. So this is not--this rider circumvents IGRA 
because it does not apply IGRA across the board, it singles out 
the Narragansetts for an exception?
    Mr. Hayes. That is correct. That is our position.
    Mr. Kennedy. Thank you very, very much. Mr. Noka--and I 
would also like anyone else and maybe perhaps Medicine Man 
Lloyd Wilcox to speak on the justice of this issue. Mr. Wilcox.
    Mr. Wilcox. Yes, I would like to speak on that but I would 
first like to say that what we are doing here today, we are 
talking about gaming pretty much, but actually the real issue 
is control. Within one generation of the strangers coming to 
our shores they made a determination to dispossess the 
Narragansetts of their lands and of their rights and hopefully 
to deprive them of their existence as a people.
    And the history is replete with this. And this has 
continued right on up to this date. This is about control in 
the sense that there is a necessity somehow in the power 
structure of Rhode Island that the Narragansetts should have no 
hand in controlling their own destiny. That much I will say.
    Now about justice. These issues that any loyal antagonist 
here, any issue they lay out have been laid out before the 
District Court and the First Circuit Court of Appeals and the 
rulings came down from the First Circuit Court of Appeals 
indicating that full force in effect with IGRA with the 
Narragansett Tribe and certainly concurrent jurisdiction on the 
rest of the issues of their land.
    Now I can understand Congress having the power if there is 
a law that exists wherein it allows a court to make an unjust 
ruling or the law is unjust and I can understand Congress 
taking the extreme action of either repealing or adding an 
amendment to that law like the Chafee Rider.
    But with a study of the Chafee Rider and we have pondered 
this for hours and days, I would like Congress to explain to me 
what ends of justice was served by voting the Chafee Rider into 
law? It is a question that has not been answered.
    Mr. Kennedy. Thank you. I would like to followup with a 
question that seems to have hung over a lot of these questions, 
and that is when the tribe agreed to abide by State law when 
this land claim was settled there was a deal and it should be 
enforced. Can I ask the tribe or its counsel to respond to that 
because that seems to be the issue here with respect to we 
ought to enforce the deal that was made in 1978. Why should we 
not be enforcing that? I mean that was the deal that was made, 
right?
    Mr. Noka. Certainly, and if Lloyd or Charlie want to answer 
part they certainly have that right but it is important to 
point out as I did in my testimony that the Settlement Act, the 
1978 Settlement Act, was signed on behalf of the tribe by a 
corporation, by a State-chartered corporation, not the tribe 
itself and certainly not a federally recognized tribe which we 
obtained in 1983.
    There is a big distinction there and those people who 
choose to keep referring to the Settlement Act and what it did 
to the tribe, the tribe did not agree--the tribe was not held 
to the civil and criminal jurisdiction of Rhode Island in that 
Settlement Act. A corporation for the benefit of the tribe 
which again was not federally recognized, they signed that 
contract.
    Mr. Wilcox. It must be understood that the settlement lands 
were held and managed by a State-chartered land management 
corporation which obviously was subject to State law but when 
those lands came into the possession of the Narragansett Indian 
Tribe the tribe was federally recognized and any attempt to 
transfer Rhode Island corporate law onto the federally 
recognized Narragansett Tribe is rather an extension of powers 
that the State did not have, if you want to know the truth.
    Mr. Kennedy. So what you are saying is the tribe, it is 
absurd to say that the tribe agreed that its land would be 
under State jurisdiction once the tribe land was recognized by 
the Federal Government?
    Mr. Wilcox. Well, once the land came into the possession of 
the tribe--everyone must understand that the laws consistent 
with jurisdiction of a State, those laws were imposed upon a 
State-chartered land management corporation that held and 
managed the land for the benefit of the Narragansett Tribe.
    When the tribe owned the land, the tribe was already 
federally recognized and that agreement, that 1978 agreement 
required an amendment to reflect our different status. We are 
dealing with a honest issue if I must bring up gaming which it 
is really not the issue of gaming, it is gaining of control 
that the State does not want to yield up to the sovereign 
Narragansett Tribe.
    We have dual citizenship. You are talking about a federally 
recognized tribe on Federal trust lands and if we yield to the 
pacifying offers immediately that Chafee or Almond offer then 
we are giving up the inherent rights of a federally recognized 
tribe and the powers and the immunities that come with a 
federally recognized tribe.
    Mr. Kennedy. And the Circuit Court and the Federal courts 
uphold that?
    Mr. Wilcox. Of course they do. The 1978 agreement should 
have long since been amended to reflect that. And incidentally 
in the 1988 colloquy I understand the Senate Committee was not 
informed of our status as a federally recognized tribe so by 
omission or something some information did not get to them.
    And I am also understanding that no Narragansett testified 
at those hearings, that the congressional delegation from Rhode 
Island claimed to be testifying on behalf of the Narragansetts.
    Mr. Kennedy. Thank you for making that point because 
Senator Inouye has since stated that if he had known that it 
was a federally recognized--in the event of a federally 
recognized tribe Federal law would have superseded any State 
agreement that was made by a corporation with the Rhode Island 
State Indian Settlement Claims Act.
    Mr. Wilcox. But of course. But of course. One last thing 
from me. This is personal now. You cannot hold the Narragansett 
Tribe responsible. I just want to read a definition of a bigot 
and it says one obstinately and unreasonably witted to a 
particular belief or creed, and creed says any statement of 
principle. Thank you, Mr. Chairman.
    Mr. Kennedy. I would like to follow by asking the 
Department of Interior, had this bill come through the process, 
the legislative process, it would have been the position of the 
Administration and Department of Interior to oppose this rider, 
if you will, had it come before the Committee's jurisdiction, 
it never would have gotten the support of the Administration, 
am I correct in saying that?
    Mr. Hayes. That is correct, Congressman. Secretary Babbitt 
said as much in his September 1996 letter.
    Mr. Gilchrest. [presiding] Mr. Kennedy's time has expired. 
We will rotate. Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman. Mr. 
Chairman, I must say Representative Kennedy just continues to 
come back to a point that has been established clearly by the 
First Circuit Court and I would like to ask the representatives 
from--and others, you referred yourselves to the First Circuit 
Court and the language there is very, very clear that the 
Congress' grant of jurisdiction to the State in the Rhode 
Island Indian Claims Settlement Act remains valid. And, Mr. 
Hayes, do you agree with that?
    Mr. Hayes. If I can, Senator, that is the first step but 
the court further clarified that the State's civil jurisdiction 
is not paramount as to gaming. The court explained that there 
is concurrent civil ju-

risdiction, which is not unusual as a matter of Indian law. I 
think the court is clear on that point.
    Senator Chafee. The point seems to continually be made 
here--or attempted to be made--that once Federal recognition 
came to the tribe that the agreement that was entered into in 
1978 was just blown away--and that just is not true. The First 
Circuit Court has so found and, indeed, I submitted for the 
record here deeds that were entered into in 1988 and signed by, 
I cannot read the names because they are all in writing, but 
Mr. Hazard, Mr. Thomas, representing the Narragansett Indian 
Tribe, a whole series of individuals.
    And they signed a document that just before it had written 
``Pursuant to the delegation from the Assistant Secretary-
Indian Affairs to the Eastern Area Director, the undersigned 
hereby accepts the lands conveyed by this deed. . . . This 
action does not alter the applicability of State law conferred 
by the Rhode Island Indian Claims Settlement Act, Public Law 
95-395, 25 U.S.C. 1701 et. seq.''
    So the point I keep coming back to that Representative 
Kennedy seems to ignore is that the agreement was valid that 
was entered into and was altered by the IGRA which we all agree 
to. I would just like to ask you, Mr. Hayes, quickly, if I 
might, again stressing this point, my amendment was designed to 
preserve the 1978 grant of jurisdiction which included criminal 
and civil law jurisdiction.
    You say that this is a bad precedent but what about all the 
other Federal settlement laws? Maine, for example. Why do you 
say that this is so unique? It is not unique. The settlement 
laws really apply just to eastern tribes.
    Mr. Hayes. The reason it is unique, Senator, is the reason 
why the First Circuit did not find the 1978 Settlement Act 
dispositive, i.e., that Congress did not clearly enunciate in 
IGRA an intention to except this tribe from the sovereign 
rights and privileges granted to the other tribes under IGRA.
    The First Circuit relied heavily on the fact that denying 
the benefits of IGRA to the tribe would be a major decision, 
and as the court put it, the 1978 Settlement Act was at the 
best unclear in terms of whether it should supercede IGRA. The 
court concluded that the Settlement Act did not because of the 
concurrent civil jurisdiction concept that is a prevalent 
concept in Indian law.
    It is true that post-IGRA, there have been on a few rare 
occasions explicit congressional judgments that IGRA will not 
apply to certain lands. That is not what the First Circuit 
faced. The First Circuit faced a situation where IGRA was 
silent on the question, Senator, and the First Circuit 
concluded that it could not take away IGRA's rights as to the 
Narragansett and we rely on that decision.
    Senator Chafee. One quick question to you, Mr. Noka, and 
that is, you say you want high-stakes bingo. Are you prepared 
today to commit that you would not seek a casino if granted the 
high-stakes bingo?
    Mr. Noka. Well, first of all, Senator, we are here today 
about the sovereign attack that you led against us but we point 
out in our testimony that according to IGRA and other Federal 
law and what the State allowed we could have high-stakes bingo 
before your rider was passed. That is what I mentioned in my 
testimony.
    I am not individually--I do not have the authority to 
commit to anything on behalf of the Narragansett Tribe without 
the authorization of the tribe.
    Mr. Gilchrest. Thank you, Senator. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Gilchrest. Was there a further comment on that? Was 
there something else you wanted to say?
    Mr. Noka. The Medicine Man said if Senator Chafee withdraws 
his amendment we can deal with that.
    Mr. Wilcox. We will talk about it.
    Mr. Gilchrest. That is an interesting scenario. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Both as a member of 
this Committee and as co-chair of the congressional Native 
American caucus I really want to find a remedy to the treating 
of the Indians of Rhode Island, the Narragansett Indians, 
differently than the other tribes in this country. I just think 
it is unfair to single out one tribe and treat them 
differently.
    I helped write IGRA. I was not sure we needed it. I thought 
the Cabazon decision gave under your sovereignty rights to you 
but finally after I consulted with the various Indian leaders 
throughout the country they felt IGRA would be something that 
would work well. So at first I just thought let us go with the 
Cabazon decision.
    But at least you should be treated under IGRA as the other 
nations are treated under IGRA. I really feel very strongly on 
that. Apparently you are appealing in court that the Chafee 
Rider--does the Interior Department through the Justice 
Department take any position on that appeal in the courts?
    Mr. Hayes. I do not believe so, Congressman. I do not think 
we are involved.
    Mr. Kildee. In your trust responsibility you are supposed 
to uphold the sovereignty of the various tribes including the 
Narragansett Tribe. It would seem to me that there is a 
position for the Department of the Interior working through the 
Department of Justice to join with the Narragansett Tribe to 
make sure they are not singled out. And I would hope that the 
Department of Interior would reevaluate its position.
    Mr. Hayes. I certainly will, Congressman. I am not sure we 
have a position but we will look into it. You make an excellent 
point.
    Mr. Kildee. Your trust responsibility, among the various 
things you have your trust responsibility, and the trust 
responsibility resides with the entire U.S. Government. The 
Interior Department and the BIA has got a point person on that 
but the entire U.S. Government. But part of that trust 
responsibility very often has been to protect the Indian 
sovereign tribes from intrusion by State government, is that 
not correct?
    Mr. Hayes. That is correct, Congressman.
    Mr. Kildee. And I really would hope that you would join and 
go back and report to those you report to that it would seem to 
me that it would be really good if the executive branch of 
government which is part of that trust responsibility would 
join the tribe in saying, hey, this is unfair, you are singling 
this tribe out, treating them different than hundreds of other 
tribes in this country and why?
    I think they come up and use--you got a battery of 
attorneys over there in the Justice Department that might help 
them out in their case.
    Mr. Hayes. We will followup on that, Congressman.
    Mr. Kildee. Thank you very much. Thank you. I yield to Mr. 
Kennedy.
    Mr. Kennedy. Thank you. I would just like to ask First 
Councilman Noka to comment about how he feels and felt last 
year with respect to this issue and not having had an 
opportunity in the hearing to voice your opinion before this 
rider, so to speak, was put on the Omnibus Budget 
Appropriations Bill.
    I want to read Senator McCain who said on the Floor of the 
Senate, ``This past January I met with Senators Pell and Chafee 
at their request to review their concerns and discuss what they 
could do with regard to the tribe's ability to game under IGRA. 
At that time I made it clear to them that although I oppose 
them on the merits, I would not use my position as Chairman of 
the Committee of jurisdiction to block a bill that they would 
introduce to amend the Narragansett Land Claims Settlement Act 
to gain the clarity they sought against the tribe.
    ``Indeed, I told them I would schedule a hearing and I 
would allow the bill to move to the Senate Floor for 
consideration. I was surprised to see that he did not take any 
such action during this entire session. Had they done so, we 
would have long ago voted on authorizing legislation with the 
benefit of a full and fair hearing and record.'' Would you 
comment on that, Mr. Noka?
    Mr. Noka. I appreciate the opportunity to more or less ask 
Senator Chafee the same thing but I will give my opinion on 
that. I think it is a total obligation of the sovereign rights 
of the Narragansett Tribe, the total obligation of Indian 
country and what we are and what we stand for. I think it is a 
total abrogation of the senatorial process what Senator Chafee 
did and how he did it last year.
    Particularly, it is bad enough what he did to us but how he 
did it is adding insult to injury. I mentioned briefly in my 
testimony before and I thank you again for the opportunity to 
expound more. Senator Chafee, it is my understanding, the 
tribe's understanding, that he was invited by then Chairman 
McCain, Senate Indian Affairs Committee Chairman, to address 
that very issue, the rider issue.
    And for whatever reason, and maybe Senator Chafee can 
enlighten us all at once, for whatever reason he chose not to 
take the invitation from Senator McCain to heart. He waited 
till the 11th hour of the 104th Congress and he submitted his 
legislation despite the fact of having the whole 104th Congress 
to do this deed, he waited till the last hour to do this deed.
    On top of that, he was invited by Senator McCain to come 
before the Committee. If Senator Chafee was so proud of what he 
did and felt it was so right then why didn't he do it the right 
way as far as what senatorial process requires?
    Mr. Gilchrest. I thank Mr. Noka and the gentleman's time 
has expired. I will take the prerogative of the Chair to let 
the Senator respond.
    Senator Chafee. Mr. Chairman, I would point out the hearing 
before the Committee on Indian Affairs, U.S. Senate, 103d 
Congress, July 19, 1994, who testified? Senator Chafee 
testified at that hearing. That was a hearing before the 
Committee on Indian Affairs. That was on July 19. Previous to 
that on May 17, 1994, before the Committee on Indian Affairs, 
who testified before there? Senator Chafee.
    So this suggestion that I had an opportunity to appear and 
testify ignores what had taken place before, and I want to get 
that very clear. I also want to get clear, Congressman Kildee 
has said several times that Rhode Island was treated 
differently from other States. But it seems to just skip over 
the fact that we had a Land Claims Settlement Act and it was 
not just some Rhode Island law, it was a Federal law. It was a 
Federal law that had been enacted here in 1978, and so that 
makes the difference.
    And that law inadvertently was overridden by portions of 
IGRA which none of us--and you have read the colloquy--none of 
us thought occurred at the time, so it is not about 
discrimination, which has been thrown around here rather 
casually, but I think it is important to remember what the 
situation was. Thank you, Chair.
    Mr. Gilchrest. Thank you, Senator. Congressman Weygand.
    Mr. Weygand. Thank you very much, Mr. Chairman, and I want 
to thank you for your indulgence in allowing us to sit up here 
and allowing this testimony to go forward. This has been very 
gracious of you and I appreciate that.
    I have just a couple of questions of David. I think the 
first question would be as I understood it back in 1996 there 
were various amendments that were being proposed to the Omnibus 
bill, the Clinton Administration--and some of them had to do 
with various gaming proposals. And excuse me if this has 
already been discussed while I was over voting.
    There were very many amendments that were proposed but the 
Clinton Administration only agreed to one and that was the 
Chafee Amendment. Yet, your testimony today here indicates that 
the Secretary disagreed with it, yet my understanding was there 
was agreement by the Clinton Administration. Can you clarify 
that?
    Mr. Hayes. I can, Congressman. The Secretary stated very 
clearly in a letter to the Senate that the Department disagreed 
with this specific rider and explained why, for much the same 
reasons that I explained today. It was a rider to an omnibus 
funding bill that had broad significance. The bill was not 
vetoed by the President. That does not mean that the 
Administration supported this rider.
    Mr. Weygand. Well, I understood to the contrary. I thought 
there was negotiations with the Administration, that in effect 
there had been agreement on this rider. But the other question 
has to do with something that my colleague, Congressman Kildee, 
had mentioned. Clearly, if the Secretary feels this strongly 
about it why haven't you acted before this point or even have 
it enacted in the first place?
    Mr. Hayes. The rider was just passed in July--at the end of 
the last session, Congressman.
    Mr. Weygand. But there has been already court action. Why 
haven't you done anything this far?
    Mr. Hayes. Congressman Kennedy specifically focused this 
hearing on this issue and it seems appropriate for the Congress 
to take the lead. As my testimony explains, we are fully 
supportive of the repeal of the rider.
    Mr. Weygand. Does that also mean that you will be going to 
court as a party to the----
    Mr. Hayes. We are going to look into that. I apologize for 
my complete lack of knowledge about the fact that that case had 
even been filed. I should clarify that, Congressman. That was 
news to me today. So we are going to look into that, certainly.
    Mr. Weygand. One other question. There was different 
testimony given today by a number of people about various 
agreements that have been made at other States after IGRA that 
in fact have some sort of restriction or mitigation with regard 
to IGRA. Are you familiar with those States? Maine was 
specifically mentioned. And how would you differentiate, 
legally, I guess, between post-IGRA Indian Settlement Act 
agreement versus pre-IGRA Indian Settlement Act agreement?
    Mr. Hayes. The difference, Congressman, is very simple. In 
those acts, I believe there are only two, I may be wrong about 
that, there are explicit provisions by Congress that explicitly 
override IGRA. I do not think there is any question, 
Congressman, that Congress has the ability to amend IGRA in any 
way it sees fit.
    In this case, though, the First Circuit determined that 
there was nothing in the language of IGRA which supported an 
interpretation that the 1978 Land Settlement Act limited the 
Tribe's right under IGRA.
    On the other hand, the appropriations rider is such a clear 
statement and we are here today because we object to it.
    Mr. Weygand. That you object to it. Do you object to the 
two other Indian Settlement Acts that supersede or circumvent 
IGRA?
    Mr. Hayes. I cannot speak to that personally, Congressman, 
just because my lack of personal knowledge. I know that the 
Department takes a very careful view any time that there is any 
limitation on what would otherwise be rights of tribes, but I 
cannot speak to the specifics of those land settlement claims.
    Mr. Weygand. I truly appreciate your testimony here today 
and I appreciate Congressman Kennedy asking you to come here 
but if in fact you happen to disagree with this particular 
Settlement Act versus IGRA why in fact aren't we taking then 
equal action against those other States that may have in fact 
the same kind of policy or philosophy behind them?
    I am at a loss to say that the Federal Government is doing 
one thing in Maine and in other States they are doing something 
separate. Forgive my ignorance, I am new to the Congress, 
certainly not new to Rhode Island but new to the Congress. I 
hope that the Secretary himself could provide me with some of 
that information.
    Mr. Hayes. Certainly, Congressman. Process is very 
important in these issues. It is my understanding that in those 
acts there was full consideration of the implications of an 
explicit repeal, if you will, of IGRA and a full airing of it. 
In that context, it is for the Congress to decide what will and 
will not apply to Indian lands.
    We have a different situation here where as an 
Administration we feel it necessary to heed the dictates of the 
First Circuit, a decision that was appealed to the Supreme 
Court and appeal denied. The ruling of the First Circuit was 
that IGRA supercedes the Rhode Island Settlement Act as it 
applies to the issues raised here today. We agree with that 
ruling, particularly in the absence of an explicit statement in 
IGRA that it was meant to overturn the 1978 Rhode Island Indian 
Land Settlement Claims Act.
    There is no question though, Congressman, that this body 
has the right to determine policies on Indian lands. We are 
concerned, however, that in the absence of clarity which is 
what the First Circuit determined was the case here, there 
should not be implied repeals of IGRA.
    Mr. Gilchrest. Thank you, Mr. Hayes. Thank you, Mr. 
Weygand. Ms. Green, any questions?
    Ms. Green. Thank you, Mr. Chair. I yield my time to my 
colleague from Rhode Island, Mr. Kennedy.
    Mr. Kennedy. Thank you very much. I would like to just 
underscore that because it goes right to the issue here. And 
you stated it really clearly. It does not need to be repeated. 
But IGRA applies. It is the only tribe, the only tribe to be 
carved out for an exception under IGRA, the only tribe, so the 
argument about other land settlement claims and the like has 
clearly been delineated by you right now just so we clear that 
air with respect to previous agreements.
    I might ask--I know First Councilman Noka had some other 
comments with respect to a previous question that he never got 
a chance to answer.
    Mr. Noka. Yes, not that I want to be guilty of abrogating 
congressional policy that others may have but the question you 
previously asked me, Congressman Kennedy, how I felt personally 
anyway and Senator Chafee did answer it in part but let me just 
say this. I believe the tribe would certainly be more 
comfortable if his rider was brought the route it should have 
been brought, the regular process requires.
    If it had been brought as legislation instead of a rider 
through the Omnibus Appropriations Bill, if it had been brought 
with hearing opportunity and all the rights that are usually 
given to people that are going to be affected by legislation, 
if it had been brought that way and it was voted down and we 
were voted out as far as IGRA goes, then we could have lived 
with that more comfortably than the insulting way that it was 
brought.
    Mr. Kennedy. With that Congress, by the way, with the 104th 
Congress, each Congress is a new Congress. So hearings that 
happened in the 103d, all fine and well, but you got new people 
who come in in each Congress. They have the responsibility of 
voting based upon a new Congress.
    That is why we have new Congresses because you have 
elections in between and when you have elections in between you 
have new people elected. Many times you change the makeup of 
the Congress in order to follow the will of the people. So what 
happened in some hearing in the 103d is not the answer for why 
there was not any hearing in the 104th.
    Mr. Noka. Well, Congressman Kennedy, I am not sure what 
Senator Chafee was referring to anyway in those previous 
Congresses. I know what he did in the 104th Congress and what 
he did to the Narragansett Tribe and how he did it and I find 
it insulting and very offensive. And we could have--again, my 
point is I believe the tribe could have lived with it had we 
been defeated going the normal route, going the route that is 
brought with honor and conviction as opposed to back door, 11th 
hour on the last days of Congress.
    Mr. Kennedy. I would just like to ask you finally, would 
you comment with respect of if this can be done to the 
Narragansetts----
    Mr. Gilchrest. If I would just--I want to take one 
exception. Can we confine our testimony to the legal questions 
at hand and not refer to what are actually legitimate practices 
here in Congress as back door or insulting maneuvers. They are 
actually legitimate. And I understand the emotion in this whole 
entire issue and I have strong feelings about people's 
sovereignty, independence and justice and those issues but if 
we can confine our testimony to the legitimate legal questions 
at hand I would appreciate it. Thank you.
    Mr. Noka. Mr. Chairman, I certainly will but he asked how I 
felt and that is personally how I felt.
    Mr. Kennedy. I would yield to Senator Chafee.
    Senator Chafee. Mr. Chairman, I just briefly want to get on 
the record if I might for Mr. Hayes, Congressman Kennedy 
constantly stresses that the Rhode Island situation is 
something very, very unique but am I not correct in that the 
main Settlement Act is exempt from the IGRA?
    Mr. Hayes. Yes, Senator.
    Senator Chafee. Now is it not--may I finish? Is it not also 
true that the South Carolina Catawba Indian Settlement Act is 
exempt from IGRA?
    Mr. Hayes. Yes, Senator, and I believe those are the only 
two and they are explicit overrides of IGRA. In the case of 
South Carolina, for example, the tribe specifically requested 
that as part of their agreement with the State.
    Senator Chafee. And I think, and you will have to check on 
this, but I think the Micasuki Settlement Act is likewise.
    Mr. Kennedy. Mr. Chairman, I would like to reclaim my time. 
I would like to reclaim my time. The Rhode Island Indian 
Settlement Claims Act is different from the two acts you just 
cited, Senator Chafee, and Mr. Hayes has testified to that 
already three times in the last 20 minutes. In giving them 
their sovereign rights there was an explicit exception for 
IGRA. That was not the case with the Rhode Island Indian 
Settlement Claims Act.
    Mr. Gilchrest. The time of the gentlelady has expired. All 
time has expired for this panel. Gentlemen, we appreciate your 
testimony here. It will be taken into very serious 
consideration and we thank you for coming to Washington to give 
that testimony. Thank you very much.
    Mr. Noka. Thank you, Mr. Chairman.
    Mr. Gilchrest. The next panel is going to change slightly, 
the Honorable Donald Lally, Ms. Patricia Almeida, Mr. Ron 
Allen, and Mr. Frank Ducheneaux will all be on this final 
panel. If you will all please come forward. Donald Lally, Jr., 
State of Rhode Island House of Representatives, Ms. Patricia 
Almeida, Spokesperson, The Alliance to Save South County, Mr. 
Ron Allen, President, National Congress of American Indians, 
and Frank Ducheneaux, Attorney at Law. Mr. Lally, you may 
proceed.

  STATEMENT OF HON. DONALD LALLY, JR., STATE OF RHODE ISLAND 
                    HOUSE OF REPRESENTATIVES

    Mr. Lally. Thank you, Mr. Chairman, members of the 
Committee, Representative Kennedy. It is good to see you again. 
Senator Chafee. I have with me today three separate statements. 
The first statement is from the Rhode Island House of 
Representatives signed by 16 different representatives.
    As a member of the Rhode Island General Assembly I want to 
first of all congratulate and commend you for reestablishing 
the regular legislative procedure regarding the sovereign 
rights of the Narragansett Indian Tribe of Rhode Island. As you 
know regrettably, in the final hours of the 104th Congress a 
legislative rider was included in the 1997 Omnibus 
Appropriations Act that singled out Rhode Island's only 
federally recognized tribe for separate treatment from all 
other Native American tribes.
    We regret that this legislative rider sponsored by Senator 
Chafee was never introduced in the form of legislation in the 
last Congress. We regret that no public hearing was held on the 
rider. We regret that no congressional report was ever issued 
on the rider. We regret that the Narragansett Tribe was never 
even consulted on the rider despite its impact on the tribe.
    So we applaud you for conducting an open oversight hearing 
concerning this fundamental matter that the Narragansetts lost 
last year of basic sovereign rights. We respectfully request 
that our letter be made part of the public record at this May 
1, 1997 hearing.
    We in Rhode Island pledge to work with you in 
reestablishing the full government relationship with the 
Narragansett Tribe that every other tribe enjoys throughout the 
United States. In that regard, you should note that we support 
pending legislation in our General Assembly to create a joint 
Committee whose duties would be as liaison with tribal 
government, consult and counsel with all State agencies, 
municipalities and the Federal Government and any other groups 
or organizations that the Committee deems necessary to fulfill 
its goal in addressing those social and economic issues which 
specifically impact the State and its relations with the tribe.
    It shall investigate the feasibility of cooperative social 
and economic undertakings including, but not limited to, tribal 
small businesses, housing, employment, gaming and educational 
alternatives. It shall promote negotiation and open channels of 
communication between the two sovereigns.
    I now have a letter from Senator Paul Kelly, Senate 
Majority Leader that I would like to read into the record. 
``Dear Congressman. I would like to take this opportunity to 
express my opinions before the members of the House Resources 
Committee regarding the sovereign rights of the Narragansett 
Indian Nation within the State of Rhode Island.
    ``Native Americans, including the Narragansetts, have long 
retained the status of a sovereign nation within the United 
States of America. It is imperative that these people be 
afforded opportunities to provide mechanisms allowing better 
health and educational services, as well as continuing to 
improve their overall quality of life.
    ``If the Narragansetts are precluded from their entitled 
due process, as codified under Federal regulations, it will be 
construed as another example of discriminatory practices that 
have long befallen this proud nation. The Narragansett's 
proposals for tribal land usage should be handled in a manner 
that appropriately embraces the reality of a sovereign nation, 
and in a manner consistent with the law governing every other 
recognized tribe in America.
    ``In closing, the Narragansett people's rich culture and 
heritage are part of our history. Ensuring an objective process 
will not only preserve this history, but is the fundamental 
right of the Narragansett Indian Nation. I trust the Committee 
will view these matters in a fair and impartial nature.''
    I have a short statement of my own. I am here today to 
testify on behalf of the Narragansett Indian Tribe. The 
Washington Delegation and the Governor are speaking for 
themselves and only a small, vocal minority. The recent polls 
and earlier polls show that the Narragansetts have the 
overwhelming support of the majority of Rhode Islanders. 
Presently there are two bills pending in the Rhode Island 
General Assembly. I have included copies of these bills with my 
testimony.
    The bill to establish a permanent Joint Committee on Indian 
Affairs would set up a Committee to act as a liaison with 
tribal government, consult and counsel with all State agencies, 
municipalities and the Federal Government. It would investigate 
the feasibility of cooperative social and economic undertakings 
including, but not limited to, what I stated before, the tribal 
small business, housing, employment, gaming and educational 
alternatives.
    To date, the State of Rhode Island and the Narragansett 
Indian Tribe have primarily communicated through the Federal 
court system. Many of us in the Rhode Island House of 
Representatives feel that the time has come to openly 
communicate. This permanent Committee will go a long way to 
opening those lines of communication.
    The 1994 referendum for a gaming facility for the tribe is 
not an accurate reflection of the opinion of Rhode Islanders. 
The Referendum questions relating to the tribe did not identify 
the tribe as owners of the facility, but rather only identified 
the location of the facility. As the facility was not on tribal 
land or tribal property, voters did not identify the Referendum 
question with the tribe. Further, the Referendum question was 
one of six similar questions which further confused voters and 
created the perception of a small State overrun with gaming 
facilities.
    The issue before you today is one of sovereignty. Indian 
tribes, including the Narragansetts, have retained the 
attributes of a sovereign, or independent nation. These rights 
pre-date the birth of this republic and essentially place the 
Narragansett Indian Tribe in a government-to-government 
relationship with the United States of America and the State of 
Rhode Island.
    It is also an issue of discrimination. Rhode Islanders 
overwhelmingly believe that the tribe has been discriminated 
against in the past and continues to be discriminated against 
today.
    Mr. Gilchrest. Mr. Lally, are you nearly done?
    Mr. Lally. Yes. I have one paragraph to go. Certain Rhode 
Island leaders have chosen to ignore the issue of fundamental 
fairness. Rhode Island has two casinos and derives enormous 
revenue from its State-run lottery system. Governor Almond and 
Senator Chafee believe that the State can use gaming as 
economic development but the tribe cannot.
    I do not want to reduce this hearing to one on gaming. I 
felt that I should deal with that issue because it was being 
discussed by the opponents. What I want to do today is 
hopefully convince you to restore the sovereign rights of the 
Narragansett Indians and help end the discrimination that the 
Narragansetts have suffered for centuries. Thank you.
    [The prepared statement of Mr. Lally may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you, Mr. Lally. Ms. Almeida.

 STATEMENT OF PATRICIA ALMEIDA, SPOKESPERSON, THE ALLIANCE TO 
                       SAVE SOUTH COUNTY

    Ms. Almeida. Good morning, Mr. Chairman, and members of the 
Resources Committee. It is an honor and a privilege to testify 
here today and I would like to thank Senator John Chafee and 
Jack Reed as well as Representative Robert Weygand for their 
invaluable testimony in defense of the civil rights of the 
people of Rhode Island.
    Thanks also to Governor Lincoln Almond who steadfastly has 
opposed casino gambling in Rhode Island. My name is Patricia 
Almeida and I am here to represent the majority voice of the 
people of Rhode Island who in November 1994 resoundingly 
rejected five separate casino gambling proposals which appeared 
on the ballot. Everyone was well informed that the referendum 
question to which Mr. Lally just spoke did belong to the 
Narragansetts. It was all over the State.
    I speak on behalf of The Alliance To Save South County, a 
grassroots organization established in 1991 in opposition to 
unregulated development like the proposed Narragansett Indian 
casino. The Alliance is dedicated to protecting the natural 
historic, scenic, coastal and cultural character of our 
community. Quality of life is why people live in South County.
    The Alliance is also a member of the Rhode Island Coalition 
Against Casino Gambling which battles the expansion of gambling 
in Rhode Island as well as around the nation. Five years ago 
almost to the day the Narragansett Tribe announced its 
intention to build a casino on tribal land at Charlestown. 
Previous witnesses have explained the chronology of events 
which bring us here today.
    I want to make a few key points. The basis of our 1978 
agreement was a document called the Joint Memorandum of 
Understanding which all parties voluntarily signed and I would 
like to submit to you for the record. This is basically the 
scratch paper that was used to create the Settlement Act. It is 
very clear in here what everyone's intent was signed by all the 
parties.
    No one is impeding the Narragansetts' right to self-
government. The people of Rhode Island are just saying that 
casino gambling is not the way to finance it. Casino gambling 
is illegal in Rhode Island. I would like to explain to you what 
concerns the people of Rhode Island and especially the town of 
Charlestown have about the Narragansetts' position.
    When the tribe announced its intention to build a casino in 
Charlestown my personal reaction was one of dread. What was the 
type of development going to do to the rural character of our 
community. This could turn our town into another Atlantic City. 
The Magatucket Pequats were already opening one in Connecticut 
less than 20 minutes away. What about the water supply, what 
about the traffic, what about this effect on our children. The 
roads would never bear all the traffic.
    Would our volunteer fire department be adequate? The 
proposed facility is surrounded by Rhode Island's most 
important conservation areas, private and Federal wildlife 
preserves. The Gray Swamp and Carolina Management areas, the 
Burlingame State Park, natural salt ponds, barrier beaches, 
freshwater beaches, and the North-South Hiking Trail. It also 
lies atop a sole source aquifer. Charlestown, like most Rhode 
Island coastal communities, relies heavily on tourism for 
economic base. Tourism is the second largest industry in the 
State.
    Our natural resources are our source of income. We need to 
protect our environment. Westerly, a slightly larger community 
to our west, has already experienced the negative effects of 
surviving in the shadows of casino development. The Magatucket 
Pequats Foxwood Casino and the Mohican Sun Casino have devoured 
many small businesses in the area. Just over the border in 
Connecticut a small mill village of 18th century origin has had 
the traffic count more than triple since the opening of these 
casinos.
    The winding roads see so much traffic that the residents 
fear for their safety. Fixtures on the walls of the homes 
rattle as traffic flies by. Help preserve our village, cries 
Carol Collett. I emphasize having resided in a historic mill 
village for 21 years my village would be a corridor from Route 
95 to the proposed Narragansett facility.
    When I recently asked citizens of South County if you would 
testify in Washington what would you say to the Resources 
Committee? The following thoughts were expressed, just a few. 
Charlotte Brofy is concerned about the town's rural character 
being destroyed. Martha Rice and Richard Holliday have been 
relying upon the application of local and State zoning laws to 
tribal lands to protect their home investments from 
uncontrolled development.
    Leona Kelby said that we are not big enough for any kind of 
a casino. It would ruin the life of us. As early as 1994 
attempts were made by the Alliance to Save South County to 
reach Representative Patrick Kennedy regarding his position on 
the Narragansett casino proposal. Individuals requested 
meetings or the courtesy of a return phone call. Promises by 
his staff to send position papers if requested by residents.
    We are still waiting. Another resident after several 
unsuccessful attempts to contact the representative was told 
that there was no time available for people outside his 
district. The first we saw Pat-

rick Kennedy's face was in the Narragansett Indian News. I have 
included some copies.
    Mr. Gilchrest. Ms. Almeida, are you nearly done?
    Ms. Almeida. Yes, I am. After several unsuccessful 
attempts--I have done that, sorry. Failing to get an 
appointment with him, we were forced to rely on newspaper 
articles quoting his stance on the casino issue. He publicly 
repudiated the validity of the Rhode Island Land Claims 
Settlement Act. The language in the Settlement Act seems as 
clear as any provision ever included in a Federal law.
    Senator Chafee's reputation has been viciously maligned by 
Representative Kennedy. The Senator was simply representing the 
majority of Rhode Islanders when he fought to uphold the Rhode 
Island Settlement Act. When Patrick Kennedy criticizes Senator 
Chafee, I find it curious that he does not also criticize 
former Senator Pell and then Congressman Reed who also felt 
that the 1996 amendment clarifying the original intent was 
necessary.
    The tribe's own Washington attorneys agreed with the 
senators in their own legal analysis of high-stakes bingo on 
Narragansett tribal land dated June 1991, which I will submit. 
They state the tribe should seek an amendment of the 1978 
Settlement Act to add words to the effect except with respect 
to activities under IGRA. The lawyers were concerned that the 
senators would move to close an unintended loophole in the 
Gaming Act.
    The Narragansett Indian Tribal Resolution Number TA91-427 
dated April 27, 1991, states that the tribal legal advisors 
informed the tribe of the need of amending Federal legislation 
intended to restore tribal jurisdiction over economic 
development affairs, notably Class II high-stakes gaming.
    Mr. Gilchrest. Ms. Almeida, would you----
    Ms. Almeida. Just two more sentences?
    Mr. Gilchrest. Two more sentences.
    Ms. Almeida. Everyone agreed that a clarifying amendment 
was necessary. Thank you again for affording me this 
opportunity to appear before you and voice for the people of 
Rhode Island. Thank you.
    Mr. Gilchrest. Yes, ma'am.
    Mr. Gilchrest. Mr. Allen.

  STATEMENT OF W. RON ALLEN, PRESIDENT, NATIONAL CONGRESS OF 
                        AMERICAN INDIANS

    Mr. Allen. Thank you, Mr. Chairman. I am also honored and 
privileged to be here before you and the Committee to talk 
about this very important item. I am the president of the 
National Congress of American Indians. I am also the Chairman 
for the Charlestown S'Klallam Tribe, a small tribe located in 
western Washington and I am here to provide you some views of 
our organization that represents over 200 tribes across the 
Nation, with regard to this concern over how the Congress 
handled this issue with the Narragansett Tribe.
    Our organization has been fighting suppression and 
termination efforts for the last 50 years and it goes way 
beyond that but we organized in order for the tribes across the 
Nation to deal with the Congress. We were here with you not too 
awful long ago to talk about the ICWA Act and talking about the 
concerns we have over undermining of the tribe's sovereignty 
rights with regard to child welfare issues.
    Today we are talking about the elimination of the sovereign 
authority of a tribe, the Narragansett Tribe, to be able to 
move forward with advancement of its self-sufficiency goals. 
When we think about the self-sufficiency and self-determination 
and self-government initiatives and policies of this Congress 
and the Administration since the Nixon Administration they have 
been quite a challenge.
    And as has been noted earlier in the dialog here it is an 
ongoing dialog with the congressional leadership with regard to 
what America's responsibilities are to the American Indian 
tribes in our communities. We have a great challenge. It is 
very frustrating for us when we listen to dialog that talks 
about support for the tribes' self-governance and self-
determination and right to pursue self-sufficiency but then put 
up all these obstacles for us to achieve that.
    Now gaming happens to be an opportunity that is used by 
some tribes. There are 557 tribes. There are only about 184 
tribes that are actually engaged in gaming. Many of the other 
tribes are not going to ever be able to pursue this opportunity 
but the ones that can pursue it, it is a very viable option.
    What we want to reference is the fact that historically the 
Federal Government and the State governments have not lived up 
to the needs of the Indian communities to advance our progress 
economically, socially, culturally. They have not done that. So 
when they asked us to pursue other ventures, other options, 
they do not step forward and provide us meaningful, useful 
assistance.
    And there is no track record anywhere in the United States 
where that has occurred. So we are really concerned about where 
the Congress is going with this technique. We think it is 
wrong. We absolutely objected to the use of a rider to modify 
existing commitments to Indian nations and to modify our 
sovereignty. We saw a number of them last year.
    We were pleased that the Administration absolutely objected 
to it. We were disappointed that there was such adamancy by the 
Congress that the Administration had to agree to this one. Now 
they recognize that we need to fix it and we are very pleased 
that that has taken place. We are very delightful that the 
Chairman, Don Young, and Congressman Kennedy are helping to 
advance this issue. We think we can right this wrong and we 
think it is very important.
    We think America understands that there is a very unique 
relationship between the tribes and the United States and the 
States and it is a co-existent, a co-jurisdictional 
relationship that can work if they have the will and the 
willingness and the attitude to make that happen.
    The Supreme Court has made it very clear that the Congress 
when it is legislating its plenary authority must take into 
consideration the tribe's unique independent sovereign rights 
and we urge you to recognize that and we urge you in resolving 
problems and conflicts within the States and within the 
communities in America that you need to also be very respectful 
of the tribes and also conscious of our conditions and our 
problems.
    There is no one out there who is going to solve our 
problems but us. Now when you talk about gaming issues it seems 
to have taken on a real high profile and that is very 
disappointing to us. There are people who like gaming and there 
are people who do not like gaming. That is a fact of life. 
There are people who like abortion. There are people who do not 
like abortion. That is a fact of life and we have to work out 
our differences here.
    The Indian gaming industry began way before IGRA, IGRA was 
enacted in 1988, Indians had gaming long before 1988. In 1988 
there was an agreement, a reluctant agreement, with the tribes 
and the Federal Government regarding how they are going to 
manage this co-jurisdictional issue and that created an 
opportunity for the States to be involved in working with the 
tribes.
    Now the issue here is the Narragansett tribe is being 
eliminated from that opportunity and they should not be 
eliminated from that opportunity. We have problems and we will 
resolve our problems if the U.S. Government will give us the 
right to pursue these opportunities and diversify our economy 
using whatever resources are available to us and gaming happens 
to be one of them.
    We do not have a tax base, so we have to generate 
businesses to make it work. So I would like to make it real 
clear that the tribes want to work with the Federal Government, 
they want to work with the State government, they want to work 
with their communities. The issues that I have heard in the 
previous panels and in this panel we have resolved and we can 
resolve.
    And so what we are saying to you is that as was mentioned 
earlier this morning, this Congress would never pass a rider 
that would eliminate a State's right to pursue gaming for its 
purposes whether it is education or whatever they use their 
moneys for. Tribal governments are governments and you must 
treat us as governments with the same respect. That is a bottom 
line fundamental principle and we think it is imperative.
    So we ask you in good conscience and moral obligation to 
the tribes and the Narragansetts, we must repeal this rider and 
we must look for a better more appropriate resolution to this 
issue. Thank you.
    [The prepared statement of Mr. Allen may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you, Mr. Allen. Mr. Ducheneaux.

         STATEMENT OF FRANK DUCHENEAUX, ATTORNEY AT LAW

    Mr. Ducheneaux. Thank you, Mr. Chairman. My name is 
Franklin Ducheneaux. I am a partner in the consulting firm of 
Ducheneaux, Taylor & Associates. I would like to correct the 
record. While I am an attorney, I am not an attorney at law and 
our firm does not practice law. I would ask that my written 
statement be accepted for the record and I will summarize.
    I have been asked to testify today because of my prior 
service on the staff of this Committee during the consideration 
of legislation enacted as the 1978 Rhode Island Indian Claims 
Settlement Act and the 1988 Indian Gaming Regulatory Act. I 
served as Counsel on Indian Affairs to this Committee, when it 
was the Interior and Insular Affairs Committee, from 1973 
through 1990.
    The last 14 years of that service was directly under former 
Chairman Morris K. Udall when the Indian affairs jurisdiction 
was held in the Full Committee. My brief statement today will 
relate to the relevant history of the enactment of IGRA.
    Gaming by tribes became a hot political issue as early as 
1983, and by the time of the convening of the 100th Congress, 
the issue had become extremely controversial in the Congress, 
with a growing polarization of the interests. On February 25, 
1987, the Supreme Court handed down its decision in the case of 
California v. Cabazon Band, which fully upheld the right of 
Indian tribes, under certain circumstances, to engage in or 
regulate gaming on their lands free of State regulations.
    This decision for the tribes shocked both sides, and 
created an atmosphere in the Congress for eventual legislative 
agreement. Legislative efforts proceeded in both Houses 
throughout the first session of the 100th Congress without much 
success. There were strong forces operating in both Houses 
supporting legislation to ban gaming by Indian tribes and there 
are still those forces.
    Chairman Udall's position, however, was strong, continuing 
and unequivocal. Mo made clear that he was strongly opposed to 
gambling, and, in particular, he opposed government gambling 
such as State lotteries. However, he was equally strong in his 
support for tribal sovereignty and the right of tribal self-
government. He fully agreed with the Cabazon decision.
    Early in the second session of the 100th Congress, Mo 
advised me that, while he felt he could still control the issue 
in the Committee, he probably could not control matters on the 
Floor if his bill, H.R. 2507, was reported from the Committee. 
As a consequence, an informal agreement of the parties was 
reached which contemplated negotiations on a Senate bill.
    If the parties could agree on a bill passed by the Senate, 
Mo agreed that he would hold it at the desk and pass it under 
suspension of the rules. If not, he would insist upon referral 
to the Committee in the normal course under the rules of the 
House.
    Negotiations went on for the first part of 1988. Parties 
included various House and Senate staff, representatives of 
Indian tribes, the State, the Administration, non-gaming 
industry officials and others. Chairman Udall authorized me, 
subject to his general direction, to represent him in those 
discussions.
    On May 13, the Senate Committee marked up S. 555 and 
ordered it reported. Chairman Udall did not find the bill, as 
marked up, acceptable. Further negotiations went on and by late 
July we had arrived at language which with few exceptions was 
acceptable to Mr. Udall. The Senate Committee filed its report 
on this compromise bill on August 3. Despite Chairman Udall's 
explicit objection, this bill in the Senate report contained 
Section 23 which was unfavorable to the Narragansett.
    On September 15, the Senate passed the bill with 
amendments, including one striking out Section 23. With these 
amendments, the bill was acceptable to Mr. Udall. Pursuant to 
the general agreement, Mr. Udall had the bill held at the desk 
without referral while interested House Members reviewed the 
Senate-passed bill. On September 26, S. 555 passed the House 
under suspension of the rules, and was signed into law on 
October 17, 1988.
    Mr. Chairman, I would close my testimony with a quote from 
Chairman Udall's Floor statement at the time of House passage. 
I quote, ``S. 555 is the culmination of nearly 6 years of 
congressional consideration of this issue. The basic problem 
which has prevented earlier action by Congress has been the 
conflict between the right of tribal self-government and the 
desire for State jurisdiction over gaming activity on Indian 
lands.
    ``On July 6, I inserted a statement in the Record which set 
out my position on this bill. I stated that I could not support 
the unilateral imposition of State jurisdiction over Indian 
tribal governments. I did state, however, that I remained open 
to reasonable compromises on the issue.
    ``S. 555 is such a compromise, hammered out in the Senate 
after considerable debate and negotiations. It is a solution 
which is minimally acceptable to me and I support its 
enactment. While the Interior Committee did not consider and 
did not report S. 555, certain members and Committee staff did 
participate very actively in negotiations in the Senate which 
gave rise to the compromise of S. 555.''
    Mr. Chairman, this concludes my statement and I would be 
happy to answer any questions the Committee may have.
    [The prepared statement of Mr. Ducheneaux may be found at 
end of hearing.]
    Mr. Gilchrest. Thank you, Mr. Ducheneaux. We will start the 
questioning with Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. I just want to make 
an observation here because I do agree, we have been back and 
forth arguing the merits of the legal positions and I think 
that we have made that case clear but I just want to step back 
for a second because I think one of this country's greatest 
disgraces and shames is the way it has treated its Native 
Americans.
    I mean the fact that in America today there is 93,000 
homeless American Indians, that Indians have the highest rate 
of diabetes, tuberculosis, fetal alcohol syndrome of any other 
group. The suicide rate for teenagers is four times what it is 
for everyone else. Unemployment in the case of the 
Narragansetts is 40 percent.
    OK, we came over here, we took all their land, and what do 
we give them in return? Some idea of sovereignty. We said we 
take all your land, what are we going to give you? Some idea of 
sovereignty, OK? So there is some notion we got to give them 
economic empowerment. Gaming was one of the things. States are 
gaming, Rhode Island is gaming, and now we are saying we are 
going to take back that.
    I mean albeit but I--I mean when the State is gaming like 
it is and I can have pro or con, whatever you would like, the 
fact is there would not be this issue if the Narragansetts 
still had this land. They would be providing for their people 
through a myriad of other economic sources that the State and 
Federal Government took away from them.
    They would be providing for their people. Their people 
would not be in the economic situation they are in today. But 
for us taking away that, we ought to be having a hearing on us 
taking--the U.S. Government taking away all their economic 
means of sufficiency. OK, so now we give them gaming and now we 
are going to say, well, you know, I guess we do not like that, 
you know, even though under IGRA, and I just finally want to 
say, there are provisions for it.
    And as Ms. Almeida said, you know what, the State of Rhode 
Island, they do not support gaming, two-thirds of the people 
voted against it, OK. Under IGRA you have to vote--you have to 
have voter approval, you have to compact with the Governor. OK, 
there are provisions because if this was a case where the 
State--the Narragansetts could get that casino gaming as 
everyone, Senator Chafee, Ms. Almeida, everyone else has 
asserted they would, then why spend 6 years on IGRA if that was 
such an accepted notion.
    Well, they will have gaming anyway so who knows after big 
Class II and big bingo hall, that is fast track to casino 
gambling. Well, guess what, if it was such a fast track to 
casino gambling why would you ever have IGRA to begin with? If 
it was such a fast track to Indian gaming, why are you having 
so many court decisions all across this country about that?
    The reason you have so many court decisions is guess what, 
it is not a fast track for gaming because now the States have 
authority and there are a number of safeguard provisions put in 
there to keep the brakes on it but it is put within a legal 
framework that can be hashed out. And now we are going to 
circumvent the framework that was hashed out where, you know, 
people would come to a meeting of the minds on this.
    We are going to scrap that because we want to have it our 
way and no way. This is a one-way street is what this is about. 
We do not like gaming so we will do it but we will prevent you 
from doing it. Circumvent the whole thing. And we acknowledge 
tribes separate from individuals as Narragansetts still have 
citizenship. We acknowledge their sovereign status as a tribe 
because we know that this country has some price to pay for the 
shameful way that it has treated Native Americans in this 
country.
    That is why you have a sovereignty. Now if you want to 
start redefining sovereignty then you destroy the whole notion 
of sovereignty. Let me say I will allow you government but let 
me tell you what I will allow you to govern. I mean am I 
missing something here? I mean there is no sovereignty if you 
have to, you know, keep saying, well, you have sovereignty 
under IGRA but wait a second, that does not include this.
    I mean we passed a law. It was clear. It was 
straightforward. And because some people would rather have--
politically it is more advantageous to be against gaming, let 
us be honest about it, in the State of Rhode Island. Because of 
that you are going to circumvent the civil and sovereign rights 
of the Narragansett Indians. I think it is wrong and I think 
that as, Mr. Ducheneaux, you pointed out, you would have 
never--this bill never would have passed if you had had Section 
23 in the law, am I right?
    Mr. Ducheneaux. Congressman, obviously I could not say what 
would have happened, but as I said in my written and oral 
statement, Mr. Udall's position at that time--and it was 
perfectly clear to all those who were involved in the 
negotiations--was that unless the bill from the Senate was 
acceptable to him he would request that it be referred back to 
this Committee where given the time, September, it probably 
would have died here because he would have been opposed to it.
    In addition, it was made perfectly clear by myself to the 
Democratic and Republican staff of the Indian Affairs Committee 
over in the Senate that Mr. Udall was opposed to the provision, 
and that it would not be acceptable if it came to the House. I 
have reason to believe that Mr. Udall's position was made very 
clear to Senator Pell's office and my understanding at that 
time was that Senator Pell, through his staff, approached the 
Senate Committee staff and asked them to accept an amendment on 
the Floor deleting the language. This resulted in the colloquy.
    It is my understanding that the amendment was dropped from 
the Senate bill on the Senate Floor by an amendment because of 
the clear understanding that Mr. Udall would not accept it in 
the House. Now what might have happened had the Senate passed 
it with Section 23 in it, I really could not say, but my 
recommendation to Mr. Udall had been not to accept it and he 
had indicated to me that he would not.
    Mr. Gilchrest. Thank you, Mr. Kennedy. Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman. Ms. 
Carol Lytle, who is a member of the town council of the town of 
Charlestown where all this activity is taking place is with us 
and she has a statement and, Mr. Chairman, I would ask 
permission to put that statement into the record.
    Mr. Gilchrest. Without exception, so ordered.
    [Letter from Ms. Lytle may be found at end of hearing.]
    Senator Chafee. And I wanted to thank her very much for 
taking the trouble in coming down and paying her own way from 
Rhode Island today. Mr. Chairman, as you can see, we have got a 
fundamental difference here and while it is a Rhode Island 
issue, there is no question about it, but Representative 
Kennedy, under the guise of reducing unemployment, bad health, 
and all the problems we are concerned with in the Indian 
tribes, and in connection especially with Narragansetts, is 
just dead set to ensure that the Narragansetts have high-stakes 
bingo, the second tier gambling in the State of Rhode Island 
and circumventing a Rhode Island law that provides that any 
extension or new gambling enterprise has to be approved by the 
people of this State.
    Now that is where we are and we believe very strongly that 
they should be subject to the laws of the State and that this 
is not something that can be just brushed aside by saying, 
``Oh, IGRA is going to take care of everything.'' It is not. It 
is certainly not going to permit people of the State of Rhode 
Island to determine whether or not we have high-stakes bingo. 
That would not be the case under those provisions. Thank you.
    Mr. Gilchrest. Thank you, Senator. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. First, if it is not 
already in the record, I would like to submit a statement of 
Senator Daniel Inouye in the record.
    Mr. Gilchrest. So ordered.
    [The prepared statement of Senator Inouye follows:]

 Statement of Hon. Daniel K. Inouye, a U.S. Senator from Hawaii; Vice 
Chairman, Committee on Indian Affairs, before the Oversight Hearing of 
   the Committee on Resources, U.S. House of Representatives, on the 
   provision in the 1997 Omnibus Appropriations Act relating to the 
                   Narragansett Tribe of Rhode Island

    Mr. Chairman, and members of the House Committee on 
Resources, I regret that I cannot be with you today to present 
my testimony in person, but as Chairman of the Franklin Delano 
Roosevelt Memorial Commission, I have had long-standing 
commitments associated with the events surrounding this week's 
formal dedication of the memorial.
    I have been asked to address section 330 of the Omnibus 
Appropriations Act for Fiscal Year 1997, which amends the Rhode 
Island Indian Claims Settlement Act to preclude the 
Narragansett Indian Tribe of Rhode Island from conducting 
gaming on tribal lands under the authority of the Indian Gaming 
Regulatory Act.
    Mr. Chairman, contained in the general provisions of the 
bill relating to appropriations for the programs Administered 
by the Department of the Interior and the narrative which 
accompanies section 330, is a colloquy that I engaged in with 
Senators Pell and Chafee on September 15, 1988.
    Mr. Chairman, should the inclusion of this colloquy in the 
measure be perceived today or in years to come as an indication 
of my support for this provision, I feel that I must set the 
record straight.
    Mr. Chairman, I believe that the record should show that at 
the time of our colloquy, there was an underlying premise upon 
which our discussion was based, which I have since learned, was 
erroneous.
    That underlying premise was that there had been no 
intervening events of legal significance that would warrant any 
change in the provisions of the Rhode Island Indian Claims 
Settlement Act.
    At the time that the Rhode Island Indian Claims Settlement 
was agreed to in 1978, the Narragansett people were organized 
as a state-chartered corporation. Given that status, it is 
perhaps understandable that the settlement act provided for the 
extension of state criminal, civil and regulatory laws to the 
settlement lands.
    But in 1983, the Narragansett Indian tribe achieved 
federally recognized status, and in 1988, a few days before the 
September 15, 1988 colloquy, the tribe's settlement lands were 
taken into trust by to United States.
    These two intervening events are important because 
federally recognized status generally confers upon tribes 
exclusive jurisdiction over their lands, and when their lands 
are taken into trust, the protections of Federal law are 
extended to the lands, and the combination of Federal ad tribal 
law and jurisdiction over the lands acts to pre-empt the 
application of state laws to such lands.
    Indeed, the legal significance of these intervening events 
was of such import, that in 1994, the First Circuit Court of 
Appeals concluded that the provisions of the Rhode Island 
Indian Claims Settlement Act were affected by the two events, 
and that the state no longer has exclusive jurisdiction over 
the settlement lands. The First Circuit held, instead, that the 
state's jurisdiction was concurrent with that of the 
Narragansett Tribe.
    Mr. Chairman, I believe that we should be clear about what 
section 330 of the Omnibus Appropriations measure has as its 
objective--it effects a return to the state of the law as it 
was in 1978, notwithstanding the fact that the tribe is now 
federally recognized and would otherwise enjoy the status of 
other federally recognized tribes, and notwithstanding the fact 
that the tribe's settlement lands are now held by the United 
States in trust for the tribe and would otherwise not be 
subject to the exclusive jurisdiction of the State of Rhode 
Island.
    Some might question why this extraordinary action was 
taken--why this provision was so important that the 
jurisdiction of the authorizing committees was circumvented and 
this amendment to substantive law, which by the way, had 
absolutely nothing to do with the appropriation of funds in 
Fiscal Year 1997--was included in the Fiscal Year 1997 spending 
bill. The answer, as I understand it, is to prevent the tribe 
from operating a bingo hall on tribal lands.
    Mr. Chairman, in my eighteen years of service on to Senate 
Committee on Indian Affairs, in my 8 years of service as the 
Committee's Chairman, and for the last two and a half years, as 
the Committee's Vice-Chairman, I have, for the most part, been 
proud of the manner in which the United States has dealt with 
the Indian Nations on a government-to-government basis.
    We have attempted to reverse or at a minimum address the 
effects of some of the darker chapters of our history as a 
Nation when it comes to our treatment of indigenous people of 
this land. We have resolved to consult with them on any law or 
policy which will affect their lives or their governments, and 
indeed, Federal law requires that we do so.
    But near the conclusion of the last session of the 
Congress, Mr. Chairman, over the strenuous and adamant 
objections of this tribe, there was enacted into law a 
provision that holds the potential to forever change their 
lives, without the benefit of hearings, in the absence of any 
record that would serve to justify the action taken by the 
Congress, and without any consultation with the affected tribe.
    At that time, Mr. Chairman, I advised my colleagues from 
Rhode Island that I could not support this provision. I also so 
advised the President of the United States, the minority leader 
of the Senate, and the Members of this House and Senate 
Appropriations Committees. And so, Mr. Chairman, I believe that 
it came as no surprise to my colleagues, when I stated my 
intention, as I did last October, to call for hearings early in 
the 105th Session of the Congress on this matter--and it is for 
that reason that I commend my colleagues in the House for 
holding this hearing today.
    It is my hope, Mr. Chairman, that as long as I continue to 
serve in the U.S. Senate, section 330 of the Omnibus 
Appropriations Act for Fiscal Year 1997, will not serve as a 
precedent for similar action affecting other tribes, nor will 
it define the manner in which the U.S. Congress deals with the 
Indian people.
    As you well know, Mr. Chairman, our Constitution 
establishes a distinctively different framework for our 
relations with the Indian Tribes, and 200 years of Federal law 
and policy have been built upon that foundation. We are a 
Nation which prides ourselves on our honor and integrity in our 
dealings with all people. We owe no less to this Nation's first 
Americans.

    Mr. Kildee. Also, I would like to just talk in general----
    Mr. Kennedy. If I can interrupt you just for a minute----
    Mr. Kildee. Just for a minute, OK.
    Mr. Kennedy. I just want to point out I am not for--I am 
for respecting the fact that we have tribal trust. We have a 
federally recognized tribe. There are certain responsibilities 
we as Federal officials have. If every tribe was subject to 
every State law you would not have a special tribal trust, 
Federal trust relationship with tribes. So I just want to 
correct Senator Chafee's position that I am--the reason why you 
have tribal sovereignty, it is granted by the Federal 
Government, it is not granted but it is recognized by the 
Federal Government, is because you want to acknowledge there is 
a different sovereignty here, governing authority.
    If it were simply the case where everything would recede 
back to the States then we would not be here right now. I grant 
you that, Senator Chafee. If this was simply a matter of them 
complying with State laws if they are like every other citizen 
I grant you that, Senator Chafee. But that is not the issue 
here.
    Narragansetts, aside from being citizens of the State of 
Rhode Island, they are also members of a federally recognized 
tribe and have certain rights and privileges as a sovereign 
tribe recognized by the Federal Government. I just want to--
yield back.
    Mr. Kildee. This chipping away at Indian sovereignty really 
concerns me. The 104th Congress had a terrible record in 
chipping away at Indian sovereignty, a pathetic, pitiful 
record. First of all, out of the Ways and Means Committee came 
the attempt to tax the gaming, 35 percent, Indian gaming. They 
never would have thought of putting a bill out to tax 
Michigan's gaming. Michigan has a lottery because Michigan is a 
sovereign State.
    Some of those people do not really understand that 
sovereignty is something that the Indian people had before my 
ancestors ever landed here and they retained that sovereignty. 
Read John Marshall's decision. Andrew Jackson did not follow 
them but read John Marshall's decision. That is an inherent 
sovereignty and the attack in the 104th Congress was 
despicable.
    First of all, the attempt to tax your gaming, the attempt 
to weaken your Indian Child Welfare Act. The nation has a right 
to have some concern and care for its children and yet the 
House passed the bill to weaken Indian Child Welfare Act. 
Despicable act. I voted against it. It passed but thank God the 
Senate in that instance showed some wisdom and the bill died 
over at the Senate.
    Now the Chafee Rider too, I think, is three of the--I think 
really attacks on sovereignty and that is really what it comes 
down to. You know, you do not have to like gaming. You do not 
have to like gambling. But I think we are sworn to uphold the 
Constitution of the United States and that recognizes the 
sovereignty of the Indian tribes.
    This Constitution and all treaties entered into are the 
supreme law of the land. And I took an oath to uphold that 
Constitution and I as long as I am a Member of Congress am 
going to uphold the sovereignty of the Indian nations in this 
country. I do not have to be for gaming or against gaming. That 
is secondary. It is the sovereignty that is very important.
    I am glad that Mr. Allen is here today because I think you 
recognize that when the sovereignty of one Indian nation is 
under attack that the sovereignty of all Indian nations are 
under attack and you have to really pull together and I am very 
happy to see that the National Congress of American Indians is 
deeply involved in this because you cannot stand alone. The 
sovereignty was under attack in the 104th Congress and could be 
under attack for many Congresses and standing together will 
help protect that sovereignty. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Kildee. Mr. Weygand.
    Mr. Weygand. Thank you again, Mr. Chairman. I just have a 
couple clarifications I think of my dear friend, Representative 
Donald Lally. I noticed in his statement, unfortunately I did 
not catch all of his statement but in a letter to the 
Committee, Mr. Chairman, he has indicated a couple things that 
are very much wrong.
    He said that recent polls and earlier polls showed that the 
Narragansetts have overwhelming support of the majority of 
Rhode Islanders. Well, Donald, as you and I know polls taken 
today change tomorrow and change the next day. Most of the 
polls that were taken about me would have said I would never 
have been elected lieutenant Governor or never elected to the 
U.S. Congress.
    The only real poll is the one that is taken on election 
day. In 1994 the people of Rhode Island clearly and 
emphatically voted for a referendum that said they wanted to 
restrict gambling. They wanted to be sure that if there was 
going to be expansion of gambling it would be placed before 
referendum, that the voters of the town and the State would 
approve.
    I would not want the Committee, Mr. Chairman, to be led to 
believe that in fact there is overwhelming support for this 
issue within the State of Rhode Island at this point in time. 
While I am sure that there have been polls taken, I know there 
are, as you and I both know, it depends upon how it is worded, 
what is said, and what is within the question.
    So I would say the only thing that we can only stand upon 
is the vote of the people of Rhode Island on election day. The 
second thing I would say is that with regard to Donald's 
comments on the referendum questions of 1994, he is correct. On 
the questions they never identified, unfortunately I think it 
would have been more appropriate for them to identify the 
Narragansett Indian Tribe referendum question. I think that 
would have been fair.
    I think that would have been a fair and honest way for 
people to evaluate what was before them. There was a lot of 
advertising so that people of Rhode Island knew what was going 
on but I think that the Secretary of State should have 
identified it in a different way. That did not come about. But 
in 1994 clearly the people also voted in a separate referendum 
to change our State constitution, to change it to in fact 
restrict gambling and in fact make it so difficult that they 
had to become before all of the people.
    I think that it is unfortunate that we are actually at this 
point because clearly there is a difference amongst us. This is 
a question of balance and fairness versus one of contract and 
the contract is really the crux of the problem that is before 
us today.
    There is a contract that is legal and binding upon the 
Narragansett Indians in the State of Rhode Island. They are OK 
in the other States, they say, but not here in Rhode Island. 
Well, I think that has to truly be questioned in court.
    I want to thank all of the panelists and all the people 
from Rhode Island who have come here today. On either side of 
the issue I think it shows tremendous political and public 
involvement and whether we agree or disagree, this is what 
should be happening before the Congress and this is what 
America was built upon, being able to voice your concerns and 
getting out and argue about them even if we have to disagree on 
the issue.
    Let me end, Mr. Chairman, by only suggesting to my dear 
friend from Narragansett that with regard to the legislation 
that has been submitted before the State General Assembly, you 
should probably send it back to the counsel. They have 
misspelled the words sovereign nation. I hope they would change 
that for you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Is there anyone on the panel that would want 
to respond to the Congressman's words?
    Mr. Lally. I would just like to respond briefly. As far as 
the 1978 contract I think that IGRA overruled that with respect 
to gambling so that any expansion in Rhode Island I do not 
think would pertain to the Narragansett Indian Tribe because 
they are a separate sovereign nation. I also found it 
interesting to hear the Governor say today that he is relying 
on gaming to rebuild the Rhode Island economy but the sovereign 
nation of the Narragansett Indian Tribe cannot use the same 
type of gaming to rebuild their economy for its people. Thank 
you.
    Ms. Almeida. Mr. Chairman.
    Mr. Gilchrest. Ms. Almeida.
    Ms. Almeida. Thank you. I would like to make one point. It 
has been said here today that the Narragansetts entered into a 
form of a treaty and that was the Settlement Act and because 
the Federal Government and the people that moved into this 
country did not hold up the end of their treaties, then they do 
not really feel they have to hold up theirs.
    I would like to make a point in a Joint Memorandum of 
Understanding which I have submitted if you will turn to page 
four you will see that when the Narragansetts signed this Joint 
Memorandum of Understanding in order to acquire the land that 
met one of the criteria to receive Federal recognition in the 
first place it was the Narrangansett Tribe of Indians. It does 
not say incorporated.
    I do not see how they were a corporation when they received 
the land and when they made the deal. I just wanted to make 
that point. And I also would like to address the fact that it 
seems that you feel that we are kind of crazy that we think 
that high-stakes bingo might lead to casinos but we see it 
right across the border in Connecticut. That is what happened 
there.
    It is not odd that the Narragansetts might be considering 
casino gambling when the NGIC sent letters responding to the 
fact that they had a two-phase program, phase one and phases 
two, and that phase one of the high-stakes bingo hall was the 
first phase. So, you know, to think that to make it sound like 
we are kind of silly because we think that casinos might be 
next is really not there.
    Mr. Gilchrest. Thank you very much, Ms. Almeida. I would 
like to close today's hearing by thanking--I am about an hour 
late from my previous engagement and I think just about 
everything that was said although I would leave the record open 
for any additional testimony. We certainly, I am sure without a 
doubt, revisit this issue before there will be any vote taken.
    And I want to thank the members for their interest in this 
issue. I want to thank all those people who have traveled great 
distances to be here to express their heartfelt feelings and 
opinions. I would like to say that, Mr. Kennedy, his statement 
about past practices understanding the history of this 
country's dealing with Native Americans and many other peoples 
to a large extent has been sad and has caused great despair and 
great distrust.
    We have passed through many generations of peoples who have 
fought very courageously so that their children could have a 
better future and we are the recipients of the courage of our 
ancestors and we should not forget that because it is now our 
responsibility not to so consider the devastation of the past. 
We cannot forget that.
    But it is our clear responsibility to do what we can at 
this time while it is in our hands to make sure the future 
children, our children, our neighbor's children, this nation's 
children, have a positive outlook, have an optimistic outlook. 
We cannot pass up an opportunity to solve a problem for self-
centered purposes whether you are for gambling or whether you 
are against gambling, whether you have a difference of opinion 
about sovereignty versus State's rights versus Memorandums of 
Understanding.
    It is important for us as adults to look to the future, 
remember the past but we cannot use the past as an excuse for 
what we are doing right now. We are in 1997 in the United 
States in a global marketplace. One hundred years is not a very 
long period of time. We are creating the future for our 
children through our dialog and our understanding and our 
relationship with other people.
    The principles of democracy is an exchange of information 
with a sense of tolerance for someone else's opinion. I think 
if we have that and we keep our children's future in mind we 
will find some resolution to this problem. Thank you all very 
much for coming. The hearing is adjourned.
    [Whereupon, at 2:20 p.m., the Committee was adjourned; and 
the following was submitted for the record:]
                    CORRESPONDENCE RECEIVED

    Due to the high cost of printing and the large number of 
letters received it was not possible to reproduce them here, 
but the names of those submitting material follows:

    Anderson, Curtis F., Jr., Robinson Rancheria Citizens 
Council
    Anderson, Marge, The Mille Lacs Band of Ojibwe Indians
    Andrew, Tommy J., Native Village of Kwigillingok
    Bear, Nancy, Kickapoo Tribe
    Bearskin, Leaford, Wyandotte Tribe of Oklahoma
    Bennett, Phillip, Hung-A-Lel-Ti Woodfords Washoe Community 
Council
    Burdette, Vivian, Tonto Apache Tribe
    Butler, Raymond, Otoe-Missouria Tribe
    Darden, Ralph C., Chitimacha Tribe of Louisiana
    Dasheno, Walter, Santa Clara Indian Pueblo
    Diamond, Margaret, Lac Courte Oreilles Tribal Governing 
Board
    Doyle, Richard M., Pleasant Point Reservation
    George, Lyle Emerson, The Suquamish Tribe
    Gonzales, Raymond E., Sr., Elko Band Council
    Gurnoe, Rose M., Red Cliff Band of Lake Superior Chippewa
    Hess, Mervin E., Bishop Paiute Tribe
    Hess, Vineca, Bridgeport Indian Reservation
    Hodshon, William & Margaret
    Hunter, Vernon, Caddo Indian Tribe of Oklahoma
    Jim, Gelford, Te-Moak Tribe of Western Shoshone
    Katchatag, Stanton, Native Village of Unalakleet
    Kelly, Paul S., Senate Majority Whip, State of Rhode Island
    Levi, Nathan, Chemehuevi Indian Tribe
    Lopez, Carl, Soboba Band of Mission Indians
    McGeshick, John C., Sr., Lac Vieux Desert Bnd of Lake 
Superior Chippewa Tribal Government
    Mike, Rodney, Duckwater Shoshone Tribe
    Miller, Leslie A., Scotts Valley Band of Pomo Indians
    Miller, William, Dot Lake Village Council
    Moyle, Alvin, Fallon Paiute-Shoshone Tribe
    Muktoyuk, Gabriel L., King Island Native Community
    Nenema, Glen, Kalispel Tribe of Indians
    Padilla, Nicolas J., Susanville Indian Rancheria
    Pete, David, Confederated Tribes of the Goshute Reservation
    Pico, Anthony R., Viejas Indian Reservation
    Pinto, Tony J., Ewiiaapaayp Band of Kumeyaay Indians
    Ramirez, Peter R., Mechoopda Indian Tribe
    Ruby Tribal Council
    Sampson, Donald G., Confederated Tribes of the Umatilla 
Indian Reservation
    Shields, Caleb, Fort Peck Tribes, Assiniboine & Sioux
    Shipley, Priscilla A., Stillaguamish Indian Tribe
    Smagge, Rita, Kenaaitze Indian Tribe I.R.A.
    Stansgar, Ernie, Coeur D'Alene Tribe
    Stephan, Lee, Native Village of Eklukna
    Sterud, Bill, Puyallup Tribe of Indians
    Stockbridge-Munsee Band of Mohicans (Virgil Murphy)
    Stone, Wanda, Kaw Nation
    Tallchief, George E., Osage Nation
    Torres, Elmer C., Pueblo De San Ildefonso
    Wallace, A. Brian, Washoe Tribe of Nevada and California
    Whitefeather. Bobby, Red Lake Band of Chippewa Indians
    Willams, Leona L., Pinoleville Indian Reservation
    Wynne, Bruce, Spokane Tribe of Indians

                                ------                                


                        SAMPLE PETITION

  Petition Supporting the Sovereign Rights of the Narragansett Indians

    We, the undersigned, support the Narragansett Indians in 
their efforts to fully restore the tribe's sovereign rights. 
The Narragansett, Rhode Island's only federally recognized 
Indian tribe, have been discriminated against for years by 
state and Federal legislation that severely restricts the 
tribe's political authority to enforce Indian laws on Indian 
land. Among the approximately 550 federally recognized tribes 
in the United States, no other tribe in the country suffers the 
same unfair restrictions of its sovereignty. In America, the 
land of the free, we believe that the Narragansetts' sovereign 
rights should be reinstated in order to preserve the tribe's 
Native American culture and storied heritage. We advocate the 
tribe's freedom to pursue economic development on its lands to 
ensure the health, education, safety and welfare of the tribe's 
2,500 men, women and children.
    [The petitions were signed by over 2,750 residents and 700 
non-residents.]
[GRAPHIC] [TIFF OMITTED] T1432.001

[GRAPHIC] [TIFF OMITTED] T1432.002

[GRAPHIC] [TIFF OMITTED] T1432.003

[GRAPHIC] [TIFF OMITTED] T1432.004

[GRAPHIC] [TIFF OMITTED] T1432.005

[GRAPHIC] [TIFF OMITTED] T1432.006

[GRAPHIC] [TIFF OMITTED] T1432.007

[GRAPHIC] [TIFF OMITTED] T1432.008

[GRAPHIC] [TIFF OMITTED] T1432.009

[GRAPHIC] [TIFF OMITTED] T1432.010

[GRAPHIC] [TIFF OMITTED] T1432.011

[GRAPHIC] [TIFF OMITTED] T1432.012

[GRAPHIC] [TIFF OMITTED] T1432.013

[GRAPHIC] [TIFF OMITTED] T1432.014

[GRAPHIC] [TIFF OMITTED] T1432.015

[GRAPHIC] [TIFF OMITTED] T1432.016

[GRAPHIC] [TIFF OMITTED] T1432.017

[GRAPHIC] [TIFF OMITTED] T1432.018

[GRAPHIC] [TIFF OMITTED] T1432.019

[GRAPHIC] [TIFF OMITTED] T1432.020

[GRAPHIC] [TIFF OMITTED] T1432.021

[GRAPHIC] [TIFF OMITTED] T1432.022

[GRAPHIC] [TIFF OMITTED] T1432.023

[GRAPHIC] [TIFF OMITTED] T1432.024

[GRAPHIC] [TIFF OMITTED] T1432.025

[GRAPHIC] [TIFF OMITTED] T1432.026

[GRAPHIC] [TIFF OMITTED] T1432.027

[GRAPHIC] [TIFF OMITTED] T1432.028

[GRAPHIC] [TIFF OMITTED] T1432.029

[GRAPHIC] [TIFF OMITTED] T1432.030

[GRAPHIC] [TIFF OMITTED] T1432.031

[GRAPHIC] [TIFF OMITTED] T1432.032

[GRAPHIC] [TIFF OMITTED] T1432.033

[GRAPHIC] [TIFF OMITTED] T1432.034

[GRAPHIC] [TIFF OMITTED] T1432.035

[GRAPHIC] [TIFF OMITTED] T1432.036

[GRAPHIC] [TIFF OMITTED] T1432.037

[GRAPHIC] [TIFF OMITTED] T1432.038

[GRAPHIC] [TIFF OMITTED] T1432.039

[GRAPHIC] [TIFF OMITTED] T1432.040

[GRAPHIC] [TIFF OMITTED] T1432.041

[GRAPHIC] [TIFF OMITTED] T1432.042

[GRAPHIC] [TIFF OMITTED] T1432.043

[GRAPHIC] [TIFF OMITTED] T1432.044

[GRAPHIC] [TIFF OMITTED] T1432.045

[GRAPHIC] [TIFF OMITTED] T1432.046

[GRAPHIC] [TIFF OMITTED] T1432.047

[GRAPHIC] [TIFF OMITTED] T1432.048

[GRAPHIC] [TIFF OMITTED] T1432.049

[GRAPHIC] [TIFF OMITTED] T1432.050

[GRAPHIC] [TIFF OMITTED] T1432.051

[GRAPHIC] [TIFF OMITTED] T1432.052

[GRAPHIC] [TIFF OMITTED] T1432.053

[GRAPHIC] [TIFF OMITTED] T1432.054

[GRAPHIC] [TIFF OMITTED] T1432.055

[GRAPHIC] [TIFF OMITTED] T1432.056

[GRAPHIC] [TIFF OMITTED] T1432.057

[GRAPHIC] [TIFF OMITTED] T1432.058

[GRAPHIC] [TIFF OMITTED] T1432.059

[GRAPHIC] [TIFF OMITTED] T1432.060

[GRAPHIC] [TIFF OMITTED] T1432.061

[GRAPHIC] [TIFF OMITTED] T1432.062

[GRAPHIC] [TIFF OMITTED] T1432.063

[GRAPHIC] [TIFF OMITTED] T1432.064

[GRAPHIC] [TIFF OMITTED] T1432.065

[GRAPHIC] [TIFF OMITTED] T1432.066

[GRAPHIC] [TIFF OMITTED] T1432.067

[GRAPHIC] [TIFF OMITTED] T1432.068

[GRAPHIC] [TIFF OMITTED] T1432.069

[GRAPHIC] [TIFF OMITTED] T1432.070

[GRAPHIC] [TIFF OMITTED] T1432.071

[GRAPHIC] [TIFF OMITTED] T1432.072

[GRAPHIC] [TIFF OMITTED] T1432.073

[GRAPHIC] [TIFF OMITTED] T1432.074

[GRAPHIC] [TIFF OMITTED] T1432.075

[GRAPHIC] [TIFF OMITTED] T1432.076

[GRAPHIC] [TIFF OMITTED] T1432.077

[GRAPHIC] [TIFF OMITTED] T1432.078

[GRAPHIC] [TIFF OMITTED] T1432.079

[GRAPHIC] [TIFF OMITTED] T1432.080

[GRAPHIC] [TIFF OMITTED] T1432.081

[GRAPHIC] [TIFF OMITTED] T1432.082

[GRAPHIC] [TIFF OMITTED] T1432.083

[GRAPHIC] [TIFF OMITTED] T1432.084

[GRAPHIC] [TIFF OMITTED] T1432.085

[GRAPHIC] [TIFF OMITTED] T1432.086

[GRAPHIC] [TIFF OMITTED] T1432.087

[GRAPHIC] [TIFF OMITTED] T1432.088

[GRAPHIC] [TIFF OMITTED] T1432.089

[GRAPHIC] [TIFF OMITTED] T1432.090

[GRAPHIC] [TIFF OMITTED] T1432.091

[GRAPHIC] [TIFF OMITTED] T1432.092

[GRAPHIC] [TIFF OMITTED] T1432.093

[GRAPHIC] [TIFF OMITTED] T1432.094

[GRAPHIC] [TIFF OMITTED] T1432.095

[GRAPHIC] [TIFF OMITTED] T1432.096

[GRAPHIC] [TIFF OMITTED] T1432.097

                                  <all>
</pre></body></html>
